<html>
<title> - THE IMPEACHMENT INQUIRY INTO PRESIDENT DONALD J. TRUMP: CONSTITUTIONAL GROUNDS FOR PRESIDENTIAL IMPEACHMENT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                      THE IMPEACHMENT INQUIRY INTO
               PRESIDENT DONALD J. TRUMP: CONSTITUTIONAL
                  GROUNDS FOR PRESIDENTIAL IMPEACHMENT

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                            DECEMBER 4, 2019

                               ----------                              

                           Serial No. 116-67

                               ----------                              

         Printed for the use of the Committee on the Judiciary
         
         
         
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
              
                              
                              __________
                              
                              
                  U.S. GOVERNMENT PUBLISHING OFFICE

38-933                  WASHINGTON : 2020                  
                  







                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr.,
HENRY C. ``HANK'' JOHNSON, Jr.,        Wisconsin
  Georgia                            STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas
        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              

                            December 4, 2019
                           OPENING STATEMENTS

                                                                   Page
The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Doug Collins, Ranking Member, Committee on the 
  Judiciary......................................................     5

                               WITNESSES

Noah Feldman, Felix Frankfurter Professor of Law and Director, 
  Julis-Rabinowitz Program on Jewish and Israeli Law, Harvard Law 
  School
    Oral Testimony...............................................    14
    Prepared Testimony...........................................    18
Pamela S. Karlan, Kenneth and Harle Montgomery Professor of 
  Public Interest Law and Co-Director, Supreme Court Litigation 
  Clinic, Stanford Law School
    Oral Testimony...............................................    26
    Prepared Testimony...........................................    30
Michael Gerhardt, Burton Craige Distinguished Professor of 
  Jurisprudence, The University of North Carolina School of Law
    Oral Testimony...............................................    36
    Prepared Testimony...........................................    40
Jonathan Turley, J.B. and Maurice C. Shapiro Professor of Public 
  Interest Law, The George Washington University Law School
    Oral Testimony...............................................    50
    Prepared Testimony...........................................    53

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

A House Committee on the Judiciary report titled ``Constitutional 
  Grounds for Presidential Impeachment'' for the record submitted 
  by the Honorable Zoe Lofgren, a Representative in Congress from 
  California.....................................................   144
A Quartz article titled ``A Harvard Law Professors Thinks Trump 
  Could be Impeached Over `Fake News' Accusations'' for the 
  record submitted by the Honorable Matt Gaetz, a Representative 
  in Congress from Florida.......................................   288
A Bloomberg article titled ``Mar-a-Lago Ad Belongs in Impeachment 
  File'' for the record submitted by the Honorable Matt Gaetz, a 
  Representative in Congress from Florida........................   291
A Bloomberg article titled ``Trump's Wiretap Tweets Raise Risk of 
  Impeachment'' for the record submitted by the Honorable Matt 
  Gaetz, a Representative in Congress from Florida...............   293
A Wall Street Journal article titled ``Opinion, Biden Probe, 
  Trump Texas Raise Similar Questions'' for the record submitted 
  by the Honorable Louie Gohmert, a Representative in Congress 
  from Texas.....................................................   311
A statement from Checks and Balances on President Trump's abuse 
  of office for the record submitted by the Honorable Sheila 
  Jackson Lee, A Representative in Congress from Texas...........   317
A document listing pieces of legislation passed by the U.S. House 
  of Representatives in the 116th Congress for the record 
  submitted by the Honorable David Cicilline, a Representative in 
  Congress from Rhode Island.....................................   335
A Politico article titled ``Ukrainian Efforts to Sabotage Trump 
  Backfire'' for the record submitted by the Honorable Andy 
  Biggs, a Representative in Congress from Arizona...............   358
A Politico article titled ``Trump Holds Up Ukraine Military Aid 
  Meant to Confront Russia'' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   376
A The Hill article titled ``Ukraine's Ambassador: Trump's 
  Comments Send Wrong Message to World'' for the record submitted 
  by the Honorable Andy Biggs, a Representative in Congress from 
  Arizona........................................................   382
A Politico article titled ``Russia Accuses Ukraine of Sabotaging 
  Trump'' for the record submitted by the Honorable Andy Biggs, a 
  Representative in Congress from Arizona........................   385
Transcript of Vice President Biden at the Council on Foreign 
  Affairs for the record submitted by the Honorable Andy Biggs, a 
  Representative in Congress from Arizona........................   391
A Washington Post article titled ``Schiff's False Claim his 
  Committee had not Spoken to the Whistleblower'' for the record 
  submitted by the Honorable Andy Biggs, a Representative in 
  Congress from Arizona..........................................   423
A Financial Times article titled ``Ukraine's Leaders Campaign 
  Against Pro-Putin' Trump'' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   431
Transcript of the July 25 call between President Trump and 
  President Zelensky submitted by the Honorable Andy Biggs, a 
  Representative in Congress from Arizona........................   435
A Washington Examiner article titled ``Analysis: Democrats Have a 
  Colonel Vindman Problem'' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   440
A Joint Statement from Committee Chairs on the Release of the 
  Ukraine Call Record for the record submitted by the Honorable 
  Andy Biggs, a Representative in Congress from Arizona..........   449
A New York Times article titled ``Investing in Ukraine's Future'' 
  for the record submitted by the Honorable Andy Biggs, a 
  Representative in Congress from Arizona........................   451
A Roll Call Article titled ``Report: Schiff Engaged with Russian 
  Prank Callers'' for the record submitted by the Honorable Andy 
  Biggs, a Representative in Congress from Arizona...............   455
Remarks by Ambassador Yovanovitch on the 5th Anniversary of the 
  Ukraine Crisis Media Center's Founding for the record submitted 
  by the Honorable Andy Biggs, a Representative in Congress from 
  Arizona........................................................   459
A DOJ Press Release titled ``Credit Suisse's Investment Bank in 
  Hong Kong Agrees to Pay $47 Million Criminal Penalty for 
  Corrupt Hiring Scheme that Violated the FCPA'' for the record 
  submitted by the Honorable Andy Biggs, a Representative in 
  Congress from Arizona..........................................   465
Declaration of Ambassador Gordan D. Sondland for the record 
  submitted by the Honorable Andy Biggs, a Representative in 
  Congress from Arizona A Wall Street Journal article titled 
  ``Whistleblower Is Expected to Testify Soon, House Intelligence 
  Chairman Schiff Says'' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   478
A USA Today article titled ``Whistleblower Reaches Agreement to 
  Testify, Will Appear `Very Soon,' Rep. Adam Schiff Says'' for 
  the record submitted by the Honorable Andy Biggs, a 
  Representative in Congress from Arizona........................   484
A Vox article titled ``Trump Whistleblower Will Testify Before 
  the House Intelligence Committee ``very soon'' for the record 
  submitted by the Honorable Andy Biggs, a Representative in 
  Congress from Arizona..........................................   487
A CNN article titled ``Schiff Confirms Tentative Agreement for 
  Whistleblower to Testify Before House Intelligence Committee'' 
  for the record submitted by the Honorable Andy Biggs, a 
  Representative in Congress from Arizona........................   492
A Washington Post article titled ``Intelligence Panel Has to Deal 
  to Hear Whistleblower's Testimony'' for the record submitted by 
  the Honorable Andy Biggs, a Representative in Congress from 
  Arizona........................................................   495
A HuffPost article titled ``Whistleblower Reportedly Agrees to 
  Testify Before House Intelligence Committee'' for the record 
  submitted by the Honorable Andy Biggs, a Representative in 
  Congress from Arizona..........................................   499
An Arkansas Democrat-Gazette article titled ``Schiff: Panel Will 
  Hear from Whistleblower'' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   501
A New York Post article titled ``Schiff Says Whistleblower Will 
  Appear Before House Panel'' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   505
A Washington Times article titled ``Rep. Adam Schiff, House Intel 
  Panel to Hear from Whistleblower `very soon''' for the record 
  submitted by the Honorable Andy Biggs, a Representative in 
  Congress from Arizona..........................................   507
A Newsmax article titled ``Schiff: Panel to Hear `Very Soon'' 
  From Trump Whistleblower'' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   512
A Talking Points Memo article titled ``Schiff Says 
  Whistleblower's Unfiltered Testimony' Will Be Held `Very 
  Soon''' for the record submitted by the Honorable Andy Biggs, a 
  Representative in Congress from Arizona........................   514
A Daily Kos article titled ``Adam Schiff Expects Whistleblower to 
  Testify `Very Soon''' for the record submitted by the Honorable 
  Andy Biggs, a Representative in Congress from Arizona..........   516
A Fox News article titled ``Schiff Says Agreement Reached with 
  Whistleblower to Testify Before House Committee'' for the 
  record submitted by the Honorable Andy Biggs, a Representative 
  in Congress from Arizona.......................................   518
A CNBC article titled ``House Intel Committee Has Reached An 
  Agreement For Trump-Ukraine Whistleblower to Testify `Very 
  Soon,' Schiff Says'' for the record submitted by the Honorable 
  Andy Biggs, a Representative in Congress from Arizona..........   523
A MarketWatch article titled ``Whistleblower to Testify Before 
  Schiff Committee'' for the record submitted by the Honorable 
  Andy Biggs, a Representative in Congress from Arizona..........   528
A Business Insider article titled ``The Whistleblower at the 
  Center of the Trump Impeachment Inquiry Has Agreed to Testify 
  Before Congress, Says Rep. Adam Schiff'' for the record 
  submitted by the Honorable Andy Biggs, a Representative in 
  Congress from Arizona..........................................   530
A Washington Examiner article titled ``Schiff: Ukraine 
  Whistleblower Will Testify Before House Intelligence 
  Committee'' for the record submitted by the Honorable Andy 
  Biggs, a Representative in Congress from Arizona...............   532
An Axios article titled ``Schiff Says House Intel Has Reached 
  Agreement for Whistleblower Testimony'' for the record 
  submitted by the Honorable Andy Biggs, a Representative in 
  Congress from Arizona..........................................   534
A Daily Caller article titled ``Rep. Adam Schiff: Whistleblower 
  Has Agreed to Testify'' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   535
A Toledo Blade article titled ``Deal Reached for Testimony on 
  Ukraine'' for the record submitted by the Honorable Andy Biggs, 
  a Representative in Congress from Arizona......................   538
A The Hill article titled ``Schiff Hopes Whistleblower Will 
  Testify `very soon' '' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   548
A UPI article titled ``Rep. Adam Schiff: Trump Whistle-blower 
  Agrees to Testify in Congress'' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   550
A The Week article titled ``Schiff: Whistleblower Will Give 
  Unfiltered' Testimony `Very Soon''' for the record submitted by 
  the Honorable Andy Biggs, a Representative in Congress from 
  Arizona........................................................   553
A Boston Herald article titled ``Schiff: Whistleblower Testimony 
  Expected `Very Soon''' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   554
A Whistleblower Complaint for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   556
A Washington Post article titled ``Transcript of the April 21, 
  2019 between President Trump and President Zelensky'' for the 
  record submitted by the Honorable Andy Biggs, a Representative 
  in Congress from Arizona.......................................   565
A Washington Post article titled ``Read the text messages 
  excerpts between U.S. diplomats, Giuliani and a Ukrainian aid'' 
  for the record submitted by the Honorable Andy Biggs, a 
  Representative in Congress from Arizona........................   568
A Washington Post article titled ``Letter from White House 
  counsel Pat Cipollone to House leaders'' for the record 
  submitted by the Honorable Andy Biggs, a Representative in 
  Congress from Arizona..........................................   586
Remarks by President Trump to the 73rd Session of the United 
  Nations General Assembly for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   594
Senator Johnson's response to House Republicans' Request for 
  Information on Ukraine for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   605
Letter from House Intelligence Committee Chairman Schiff to 
  Ranking Member Nunes for the record submitted by the Honorable 
  Andy Biggs, a Representative in Congress from Arizona..........   613
A Dear Colleague to All Members on Whistleblower Complaint from 
  Speaker Pelosi for the record submitted by the Honorable Andy 
  Biggs, a Representative in Congress from Arizona...............   615
An press release titled ``Pelosi, Hoyer on Floor Consideration of 
  Resolution Regarding Whistleblower Complaint'' for the record 
  submitted by the Honorable Andy Biggs, a Representative in 
  Congress from Arizona..........................................   616
A press release titled ``Pelosi Remarks Announcing Impeachment 
  Inquiry'' for the record submitted by the Honorable Andy Biggs, 
  a Representative in Congress from Arizona......................   617
A press release titled ``Pelosi Statement on Notes of Call 
  Between President Trump and Ukrainian President'' for the 
  record submitted by the Honorable Andy Biggs, a Representative 
  in Congress from Arizona.......................................   620
A press release titled ``Pelosi Floor Speech on Resolution 
  Calling on Administration to Release Whistleblower Complaint to 
  Congress'' for the record submitted by the Honorable Andy 
  Biggs, a Representative in Congress from Arizona...............   621
A Dear Colleague on Work to Advance Impeachment Inquiry During 
  District Work Period from Speaker Pelosi for the record 
  submitted by the Honorable Andy Biggs, a Representative in 
  Congress from Arizona..........................................   624
Transcript of Pelosi Weekly Press Conference on October 2, 2019 
  for the record submitted by the Honorable Andy Biggs, a 
  Representative in Congress from Arizona........................   626
A Dear Colleague on Next Steps in House's Ongoing Impeachment 
  Inquiry from Speaker Pelosi for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   634
Pelosi Floor Speech in Support of Resolution for Open Hearings on 
  Trump's Abuse of Power for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   636
Letter from Senator Grassley to Attorney General Barr for the 
  record submitted by the Honorable Andy Biggs, a Representative 
  in Congress from Arizona.......................................   639
A POLITICO article titled ``Trump kills plan to cut billions in 
  foreign aid'' for the record submitted by the Honorable Andy 
  Biggs, a Representative in Congress from Arizona...............   643
A Washington Examiner article titled ``Thinking clearly about 
  Trump and aid to Ukraine'' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   647
A Washington Examiner article titled ``Testimony: How Trump 
  helped Ukraine'' for the record submitted by the Honorable Andy 
  Biggs, a Representative in Congress from Arizona...............   651
A Washington Examiner article titled ``Extortion: Democrats test 
  new charge against Trump'' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   654
A Washington Post article titled ``Democrats sharpen impeachment 
  case, decrying `bribery' as another potential witness emerges 
  linking Trump to Ukraine scandal'' for the record submitted by 
  the Honorable Andy Biggs, a Representative in Congress from 
  Arizona........................................................   657
A Washington Post article titled ``House is investigating whether 
  Trump lied to Mueller, its general counsel told a federal 
  appeals court'' for the record submitted by the Honorable Andy 
  Biggs, a Representative in Congress from Arizona...............   670
A NPR article titled ``Democrats Offer Trump Chance To Testify, 
  And He Says He Might Do It--In Writing'' for the record 
  submitted by the Honorable Andy Biggs, a Representative in 
  Congress from Arizona..........................................   679
A Washington Post article titled ``Sen. Johnson says 
  whistleblower's sources exposed things that didn't need to be 
  exposed''' for the record submitted by the Honorable Andy 
  Biggs, a Representative in Congress from Arizona...............   689
A Washington Examiner article titled ``The Adam Schiff 
  Empowerment Act'' for the record submitted by the Honorable 
  Andy Biggs, a Representative in Congress from Arizona..........   697
A Washington Examiner article titled ``Democrats don't want 
  public to know origins of Ukraine investigation like they 
  didn't want public to know origins of Russia investigation'' 
  for the record submitted by the Honorable Andy Biggs, a 
  Representative in Congress from Arizona........................   699
A New York Times article titled ``Ukraine's President Says Call 
  With Trump Was Normal''' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   703
A Wall Street Journal article titled ``Ukrainian President Denies 
  Trump Pressured Him During July Call'' for the record submitted 
  by the Honorable Andy Biggs, a Representative in Congress from 
  Arizona........................................................   706
A Press Release from President of Ukraine official website title 
  ``Ukrainian President Denies Trump Pressured Him During July 
  Call'' for the record submitted by the Honorable Andy Biggs, a 
  Representative in Congress from Arizona........................   709
A Time article titled `Nobody Pushed Me.' Ukrainian President 
  Denies Trump Pressured Him to Investigate Biden's Son'' for the 
  record submitted by the Honorable Andy Biggs, a Representative 
  in Congress from Arizona.......................................   710
A New York Time article titled ``Ukraine's President Says Call 
  With Trump was `Normal' '' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   712
A CNBC article titled ``Ukraine's president on Trump call: 
  `Nobody pushed me' '' for the record submitted by the Honorable 
  Andy Biggs, a Representative in Congress from Arizona..........   715
A Washington Post article titled `` `America first' shouldn't 
  mean cutting foreign aid'' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   718
A New York Times article titled ``Transcript: Donald Trump 
  Expounds on His Foreign Policy Views'' for the record submitted 
  by the Honorable Andy Biggs, a Representative in Congress from 
  Arizona........................................................   727
A Reuters article titled ``Trump plans 28 percent cut in budget 
  for diplomacy, foreign aid'' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   757
A POLITICO article titled ``Trump Administration to Attempt to 
  Kill $3B in Foreign Aid'' for the record submitted by the 
  Honorable Andy Biggs, a Representative in Congress from Arizona   762
A Reuters article titled ``Trump 2020 budget slashes foreign aid, 
  hikes defense spending: official'' for the record submitted by 
  the Honorable Andy Biggs, a Representative in Congress from 
  Arizona........................................................   765
The American Independent article titled, ``GOP's Constitutional 
  Expert Gets Basic Impeachment Fact Wrong at Hearing'' for the 
  record submitted by the Honorable David Cicilline, a 
  Representative in Congress from Rhode Island...................   770
A Tweet by Melania Trump for the record submitted by the 
  Honorable Mike Johnson, a Representative in Congress from 
  Louisiana......................................................   774

                                APPENDIX

A Letter from John Eastman to Chairman Nadler and Ranking Member 
  Collins for the record submitted by the Honorable Doug Collins, 
  Ranking Member, Committee on the Judiciary.....................   794
A Statement from David Rivkin for the record submitted by the 
  Honorable Doug Collins, Ranking Member, Committee on the 
  Judiciary......................................................   802
A Statement from Randy Barnett for the record submitted by the 
  Honorable Doug Collins, Ranking Member, Committee on the 
  Judiciary......................................................   804
A Statement for the record submitted by the Honorable Sheila 
  Jackson Lee, a Representative in Congress from Texas...........   810
A Statement for the record submitted by the Honorable Martha 
  Roby, a Representative in Congress from Alabama................   814
  
  
  
  

 
THE IMPEACHMENT INQUIRY INTO PRESIDENT DONALD J. TRUMP: CONSTITUTIONAL 
                  GROUNDS FOR PRESIDENTIAL IMPEACHMENT

                              ----------                              


                      WEDNESDAY, DECEMBER 4, 2019

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The committee met, pursuant to call, at 10:10 a.m., in Room 
1100, Longworth House Office Building, Hon. Jerrold Nadler 
[chairman of the committee] presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Cohen, Johnson of Georgia, Deutch, Bass, Richmond, Jeffries, 
Cicilline, Swalwell, Lieu, Raskin, Jayapal, Demings, Correa, 
Scanlon, Garcia, Neguse, McBath, Stanton, Dean, Mucarsel-
Powell, Escobar, Collins, Sensenbrenner, Chabot, Gohmert, 
Jordan, Buck, Ratcliffe, Roby, Gaetz, Johnson of Louisiana, 
Biggs, McClintock, Lesko, Reschenthaler, Cline, Armstrong, and 
Steube.
    Staff Present: Amy Rutkin, Chief of Staff; Perry Apelbaum, 
Staff Director and Chief Counsel; Aaron Hiller, Deputy Chief 
Counsel and Chief Oversight Counsel; Barry Berke, Counsel; Norm 
Eisen, Counsel; Arya Hariharan, Deputy Chief Oversight Counsel; 
James Park, Chief Constitution Counsel; Joshua Matz, Counsel; 
Sarah Istel, Counsel; Matthew Morgan, Counsel; Kerry Tirrell, 
Counsel; Sophia Brill, Counsel; Charles Gayle, Counsel; Maggie 
Goodlander, Counsel; Matthew N. Robinson, Counsel; Ted Kalo, 
Counsel; Priyanka Mara, Professional Staff Member; William S. 
Emmons, Legislative Aide/Professional Staff Member; Madeline 
Strasser, Chief Clerk; Rachel Calanni, Legislative Aide/
Professional Staff Member; Julian Gerson, Professional Staff 
Member; Anthony Valdez, Fellow; Thomas Kaelin, Fellow; David 
Greengrass, Senior Counsel; John Doty, Senior Advisor; Moh 
Sharma, Member Services and Outreach Advisor; John Williams, 
Parliamentarian; Jordan Dashow, Professional Staff Member; 
Shadawn Reddick-Smith, Communications Director; Daniel Schwarz, 
Director of Strategic Communications; Kayla Hamedi, Deputy 
Press Secretary; Kingsley Animiey, Director of Administration; 
Janna Pinckney, IT Director; Fais al Siddiqui, Deputy IT 
Manager; Nick Ashley, Intern; Maria Villegas Bravo, Intern; 
Alex Espinoza, Intern; Alex Thomson, Intern; Manam Siddiqui, 
Intern; Catherine Larson, Intern; Kiah Lewis, Intern; Brendan 
Belair, Minority Staff Director; Bobby Parmiter, Minority 
Deputy Staff Director/Chief Counsel; Jon Ferro, Minority 
Parliamentarian/General Counsel; Erica Baker, Minority Deputy 
Parliamentarian; Paul Taylor, Minority Chief Counsel, 
Constitution Subcommittee; Ashley Callen, Minority Chief 
Oversight Counsel; Danny Johnson, Minority Oversight Counsel; 
Jake Greenberg, Minority Oversight Counsel; and Ryan 
Breitenbach, Minority Chief Counsel, National Security.
    Chairman Nadler. The House Committee on the Judiciary will 
come to order.
    Without objection, the chair is authorized to declare 
recesses of the committee at any time.
    Mr. Sensenbrenner. Mr. Chairman, we are reserving the right 
to object.
    Chairman Nadler. The objection is noted.
    Mr. Sensenbrenner. I reserve the right to object.
    Chairman Nadler. The gentleman is reserved.
    Mr. Sensenbrenner. Mr. Chairman, pursuant to clause 2(j)(1) 
of rule XI, I am furnishing you with a demand for minority day 
of hearings on this subject, signed by all of the Republicans 
members.
    Chairman Nadler. The gentleman will suspend. I could not 
understand what you were saying. Just repeat it more clearly.
    Mr. Sensenbrenner. Pursuant to clause 2(j)(1) of rule XI, I 
am furnishing you with a demand for a minority day of hearings 
on this subject, signed by all of the Republican members of the 
committee. And I would request that you set this date before 
the committee votes on any Articles of Impeachment.
    Chairman Nadler. It's a motion?
    Mr. Sensenbrenner. I withdraw my reservation.
    Chairman Nadler. We will confer and rule on this later.
    A quorum is present. This is the first hearing. This is the 
first hearing we are conducting pursuant to House Resolution 
660 and the special Judiciary Committee procedures that are 
described in section 4(a) of that resolution.
    Here is how the committee will proceed for this hearing: I 
will make an opening statement, and then I will recognize the 
ranking member for an opening statement. Each witness will have 
10 minutes to make their statements, and then we will proceed 
to questions.
    I will now recognize myself for an opening statement.
    Mr. Biggs. Mr. Chairman, parliamentary inquiry.
    Chairman Nadler. I have the time for an opening statement. 
The parliamentary inquiry is not in order at this time.
    The facts before us are undisputed. On July 25th, President 
Trump called President Zelensky of Ukraine and, in President 
Trump's words, asked him for a favor. That call was part of a 
concerted effort by the President and his men to solicit a 
personal advantage in the next election, this time in the form 
of an investigation of his political adversaries by a foreign 
government. To obtain that private political advantage, 
President Trump withheld both an official White House meeting 
from the newly elected President of a fragile democracy and 
withheld vital military aid from a vulnerable ally.
    When Congress found out about this scheme and began to 
investigate, President Trump took extraordinary and 
unprecedented steps to cover up his efforts and to withhold 
evidence from the investigators. And when witnesses disobeyed 
him, when career professionals came forward and told us the 
truth, he attacked them viciously, calling them traitors and 
liars, promising that they will, quote,'' go through some 
things,'' close quote.
    Of course, this is not the first time that President Trump 
has engaged in this pattern of conduct. In 2016, the Russian 
Government engaged in a sweeping and systematic campaign of 
interference in our elections. In the words of Special Counsel 
Robert Mueller, quote, ``The Russian Government perceived it 
would benefit from a Trump Presidency and worked to secure that 
outcome,'' close quote.
    The President welcomed that interference. We saw this in 
real time when President Trump asked Russia to hack his 
political opponent. The very next day, a Russian military 
intelligence unit attempted to hack that political opponent. 
When his own Justice Department tried to uncover the extent to 
which a foreign government had broken our laws, President Trump 
took extraordinary and unprecedented steps to obstruct the 
investigation, including ignoring subpoenas, ordering the 
creation of false records, and publicly attacking and 
intimidating witnesses. Then, as now, this administration's 
level of obstruction is without precedent.
    No other President has vowed to, quote, ``fight all of the 
subpoenas,'' unquote, as President Trump promised. In the 1974 
impeachment proceedings, President Nixon produced dozens of 
recordings. In 1998, President Clinton physically gave his 
blood. President Trump, by contrast, has refused to produce a 
single document and directed every witness not to testify. 
Those are the facts before us.
    The impeachment inquiry has moved back to the House 
Judiciary Committee; and as we begin a review of these facts, 
the President's pattern of behavior becomes clear. President 
Trump welcomed foreign interference in the 2016 election. He 
demanded it for the 2020 election. In both cases, he got 
caught, and in both cases, he did everything in his power to 
prevent the American people from learning the truth about his 
conduct.
    On July 24th, the special counsel testified before this 
committee. He implored us to see the nature of the threat to 
our country. Quote, ``Over the course of my career, I have seen 
a number of challenges to our democracy. The Russian 
Government's efforts to interfere in our elections is among the 
most serious. This deserves the attention of every American,'' 
close quote.
    Ignoring that warning, President Trump called the Ukrainian 
President the very next day to ask him to investigate the 
President's political opponent. As we exercise our 
responsibility to determine whether this pattern of behavior 
constitutes an impeachable offense, it is important to place 
President Trump's conduct into historical context. Since the 
founding of our country, the House of Representatives has 
impeached only two Presidents. A third was on his way to 
impeachment when he resigned. This committee has voted to 
impeach two Presidents for obstructing justice. We have voted 
to impeach one President for obstructing a congressional 
investigation.
    To the extent that President's conduct fits these 
categories, there is precedent for recommending impeachment 
here. But never before in the history of the Republic have we 
been forced to consider the conduct of a President who appears 
to have solicited personal political favors from a foreign 
government. Never before has a President engaged in a course of 
conduct that included all of the acts that most concerned the 
Framers.
    The patriots who founded our country were not fearful men. 
They fought a war. They witnessed terrible violence. They 
overthrew a king. But as they meant to frame our Constitution, 
those patriots still feared one threat above all: foreign 
interference in our elections. They had just deposed a tyrant. 
They were deeply worried we would lose our newfound liberty, 
not through a war--if a foreign army were to invade, we would 
see that coming--but through corruption from within. And in the 
early years of the Republic, they asked us, each of us, to be 
vigilant to that threat.
    Washington warned us, quote, ``to be constantly awake since 
history and experience prove that foreign influence is one of 
the most baneful foes of republican government.''
    Adams wrote to Jefferson, quote, ``as often as elections 
happen, the danger of foreign influence recurs.''
    Hamilton's warning was more specific and more dire. In the 
Federalist Papers he wrote that, quote, ``the most deadly 
adversaries of republican government,'' unquote, would almost 
certainly attempt to, quote, ``raise a creature of their own to 
the chief magistracy of the Union.''
    In short, the Founders warned us that we should expect our 
foreign adversaries to target our elections and that we will 
find ourselves in grave danger if the President willingly opens 
the door to their influence.
    What kind of President would do that? How will we know if 
the President has betrayed his country in this manner? How we 
will we know if he has betrayed his country in this manner for 
petty, personal gain? Hamilton had a response for that as well. 
He wrote, ``When a man unprincipled in private life, desperate 
in his fortune, bold in his temper, possessed of considerable 
talents, known to have scoffed in private at the principles of 
liberty, when such a man is seen to mount the hobbyhorse of 
popularity, to join the cry of danger to liberty, to take every 
opportunity of embarrassing the general government and bringing 
it under suspicion, it may justly be suspected that his object 
is to throw things into confusion that he may ride the storm 
and direct the whirlwind.''
    Ladies and gentlemen, the storm in which we find ourselves 
today was set in motion by President Trump. I do not wish this 
moment on the country. It is not a pleasant task that we 
undertake today, but we have each taken an oath to protect the 
Constitution, and the facts before us are clear. President 
Trump did not merely seek to benefit from foreign interference 
in our elections. He directly and explicitly invited foreign 
interference in our elections. He used the powers of his office 
to try to make it happen. He sent his agents to make clear that 
this is what he wanted and demanded. He was willing to 
compromise our security and his office for personal political 
gain.
    It does not matter that President Trump got caught and 
ultimately released the funds that Ukraine so desperately 
needed. It matters that he enlisted a foreign government to 
intervene in our elections in the first place.
    It does not matter that President Trump felt that these 
investigations were unfair to him. It matters that he used his 
office not merely to defend himself but to obstruct 
investigators at every turn.
    We are all aware that the next election is looming, but we 
cannot wait for the election to address the present crisis. The 
integrity of that election is one of the very things at stake. 
The President has shown us his pattern of conduct. If we do not 
act to hold him in check now, President Trump will almost 
certainly try again to solicit interference in the election for 
his personal political gain.
    Today, we will begin our conversation where we should, with 
the text of the Constitution. We are empowered to recommend the 
impeachment of President Trump to the House if we find that he 
has committed treason, bribery, or other high crimes and 
misdemeanors. Our witness panel will help us to guide that 
conversation. In a few days, we will reconvene and hear from 
the committees that worked to uncover the facts before us. And 
when we apply the Constitution to those facts, if it is true 
that President Trump has committed an impeachable offense or 
multiple impeachable offenses, then we must move swiftly to do 
our duty and charge him accordingly.
    I thank the witnesses for being here today.
    I now recognize the Ranking Member of the Judiciary 
Committee----
    Mr. Biggs. Mr. Chairman----
    Chairman Nadler [continuing]. The gentleman from Georgia--
--
    Mr. Biggs. Mr. Chairman----
    Chairman Nadler [continuing]. Mr. Collins, for his opening 
statement.
    Mr. Biggs. Mr. Chairman, may I make a parliamentary inquire 
question before you----
    Chairman Nadler. The gentleman is not in order for a 
parliamentary inquiry. I have recognized the Ranking Member for 
an opening statement.
    Mr. Collins. I thank the Chairman.
    And it is interesting that, again, parliamentary 
inquiries--and I believe some are actually some of the things I 
am going to discuss today because we are sort of coming here 
today in a different arena.
    But for everybody who has not been here before, this is a 
new room. It is new rules. It is a new month. We have even got 
cute little stickers for our staff so we can come in because we 
want to make this important and this is impeachment, because 
we've done such a terrible job of it in this committee before. 
But what is not new is basically what has just been reiterated 
by the chairman. What is not new is the facts. What is not new 
is it is the same, sad story.
    What is interesting, even before I get into my, part of my 
opening statement, was, is what was just said by the chairman. 
We went back to a redo of Mr. Mueller. We're also saying, 
quoting him, saying the attention of the American people should 
be on foreign interference. I agree with him completely, except 
I guess the American people did not include the Judiciary 
Committee because we didn't take it up. We didn't have 
hearings. We didn't do anything to delve deeply into this 
issue. We passed election bills but did not get into the in-
depth part of what Mr. Mueller talked about, taking his own 
report and having hearings about that. We didn't do it. So I 
guess the American people doesn't include the House Judiciary 
Committee.
    You know, the interesting--we also just heard an 
interesting discussion. We're going to have a lot of 
interesting discussion today about the Constitution and other 
things, but we also talked about the Founders. What's 
interesting is, is the chairman talked a lot about the Founders 
from the quotes--and, again, this is why we have the hearings--
about the Founders being concerned about foreign influence. But 
what he also didn't quote was the Founders being really, really 
concerned about political impeachment because you just don't 
like the guy. You haven't liked him since November of 2016.
    The chairman has talked about impeachment since last year 
when he was elected chairman, 2 years ago on November 17th, 
before he was even sworn in as chairman. So don't tell me this 
is about new evidence and new things and new stuff. We may have 
a new hearing room. We may have new mikes, and we may have 
chairs that aren't comfortable, but this is nothing new, folks. 
This is sad.
    So what do we have here today? You know what I'm thinking? 
I looked at this, and what is interesting is there's two things 
that have become very clear. This impeachment is not really 
about facts. If it was, I believe the other committees would 
have sent over recommendations for impeachment. No, they're 
putting it on this committee because, if it goes badly, I guess 
they want to blame--Adam Schiff's committee and the HPSCI and 
others want to blame this committee for it going bad, but 
they're already drafting articles. Don't be fooled. They are 
already getting ready for this.
    We've already went after this with the Ukraine after 
numerous failings of Mueller, Cohen, annulments. The list--
emoluments. The list goes on. But the American people are 
obviously failing to see us legislate. If you want to know 
what's really driving this, there's two things. It's called the 
clock and the calendar, the clock and the calendar. Most people 
in life, if you want to know what they truly value, you look at 
their checkbook and their calendar. You know what they value. 
That's what this committee values: time. They want to do it 
before the end of the year. Why? Because the chairman said it 
just a second ago: Because we're scared of the elections next 
year. We're scared of the elections, that we'll lose again. So 
we've got to do this now.
    The clock and the calendar are what's driving impeachment, 
not the facts. When we understand this, that's what the 
witnesses here will say today.
    What do we have here today? What is really interesting over 
today and for the next few weeks is Americans will see why most 
people don't go to law school. No offense to our professors. 
But, please, really? We're bringing you in here today to 
testify on stuff that most of you have already written about, 
all four, for the opinions that we already know, out of the 
classrooms that maybe you're getting ready for finals in, to 
discuss things that you probably haven't even had a chance to, 
unless you're really good on TV of watching the hearings for 
the last couple of weeks, you couldn't have possibly actually 
digested the Adam Schiff report from yesterday or the 
Republican response in any real way.
    Now, we can be theoretical all we want, but the American 
people is really going to look at this and say, ``Huh? What are 
we doing?'' because there's no fact witnesses planned for this 
committee. That's an interesting thing. Frankly, there's no 
plan at all except next week an ambiguous hearing on the 
presentation from the HPSCI, the other committee that sent us 
the report, and the Judiciary Committee, which I'm not still 
sure what they want us to present on, and nothing else, no 
plan. I asked the chairman before we left for Thanksgiving to 
stay in touch, let's talk about what we have, because history 
will shine a bright line on us starting this morning. Crickets 
until I asked for a witness the other day, and let's just say 
that didn't go well.
    There's no whistleblower. And, by the way, it was proved 
today that he's not or she's not afforded the protection of 
identity. It's not in the statute. It's just something that was 
discussed by Adam Schiff. We also don't have Adam Schiff, who 
wrote the report. He said yesterday in a press conference: I'm 
not going to. I'll send staff to do that.
    He's not going to. But, you know, to me, if he was wanting 
to, he'd come begging to us.
    But, you know, here's the problem. It sums it up very 
simply like this: Just 19 minutes after noon on inauguration 
day, 2017, The Washington Post ran the headline, ``The Campaign 
to Impeach the President has Begun.'' Mark Zaid, who would 
later become the attorney for the infamous whistleblower, 
tweeted in January 2017: The coup has started. The impeachment 
will follow ultimately.
    And in May of this year, Al Green says: If we don't impeach 
the President, he'll get reelected.
    You want to know what's happening? Here we go. Why did 
everything that I say up to this point about no fact witnesses, 
nothing for the Judiciary Committee, we spent 2 and a half 
weeks before this hearing was even held under Clinton--2 and a 
half weeks. We didn't even find your names out until less than 
48 hours ago. I don't know what we're playing hide the ball on. 
It's pretty easy what you're going say, but we can't even get 
that straight.
    So what are we doing for the next 2 weeks? I have no idea. 
The chairman just said an ambiguous hearing on the report but 
nothing else. If we're going to simply not have fact witnesses, 
then we are the rubber stamp hiding out back, the very rubber 
stamp the chairman talked about 20 years ago. What a disgrace 
to this committee to have the committee of impeachment simply 
take from other entities and rubber-stamp it.
    You see, why do the things that I say matter about fact 
witnesses and actually hearing and actually having us a due 
process? Because, by the way, just a couple of months ago, the 
Democrats got all sort of dressed up, if you would, and says: 
We're going to have due process protection for the President 
and good fairness throughout this.
    This is the only committee in which the President would 
even have a possibility.
    But no offense to you, the law professors. The President 
has nothing to ask you. You're not going to provide anything he 
can't read, and his attorneys have nothing to ask. Put 
witnesses in here that can be fact witnesses who can be 
actually cross-examined. That's fairness, and every attorney on 
this panel knows that. This is a sham.
    But you know what I also see here is quotes like this: 
There must never be a narrowly voted impeachment or an 
impeachment supported by one of our major political parties or 
imposed by another. Such an impeachment will produce 
decisiveness, bitterness, and politics for years to come and 
will call into question the very legitimacy of our political 
institutions.
    The American people are watching. They will not forget. You 
have the votes. You may have the muscle, but you do not have 
legitimacy of a national consensus or of a constitutional 
imperative. The partisan coup d'etat will go down in infamy in 
the history of the Nation.
    How about this one? I think the key point is that the 
Republicans are still running a railroad job with no attempt at 
fair procedure. And today, when the Democrats offered 
amendments, offered motions in committee to say we should first 
discuss and adopt standards so that we know what we're dealing 
with, standards for impeachment that was voted down or ruled 
out of order; when we say the important thing is to start 
looking at the question before we simply have a vote with no 
inquiry first, that was voted down and ruled out of order. So, 
frankly, the whole question of what materials should be 
released and what is secondary, but that's all we discussed. 
The essential question--and here it is--which is to set up a 
fair process as to whether the country put this country through 
an impeachment proceeding. That was ruled out of order. The 
Republicans refused to let us discuss it.
    Those were all Chairman Nadler before he was chairman. I 
guess 20 years makes a difference.
    It's an interesting time. We're having a factless 
impeachment. You just heard a one-sided presentation of facts 
about this President. Today, we will present the other side, 
which gets so conveniently left out. Remember fairness does 
dictate that, but maybe not here because we're not scheduling 
anything else.
    I have a Democratic majority who has poll tested what they 
think they ought to call what the President they think he did. 
Wow. That's not following the facts. We have just a deep-seated 
hatred of a man who came to the White House and did what he 
said he was going do. The most amazing question I got in first 
3 months of this gentleman's Presidency from reporters was 
this: Can you believe he's putting forward those ideas?
    I said: Yes, he ran on them. He told the truth, and he did 
what he said.
    The problem here today is this will also be one of the 
first impeachments--the chairman mentioned there was two of 
them, one that before he resigned before and then the one in 
Clinton--in which the facts even by Democrats and Republicans 
were not really disputed. In this one, they're not only 
disputed; they're counterdictive of each other. There are no 
set facts here. In fact, they're not anything that presents an 
impeachment here, except a President carrying out his job in 
the way the Constitution saw that he sees fit to do it. This is 
where we're at today.
    So the interesting thing that I come to with most everybody 
here is this may be a new time, a new place, and we may be all 
scrubbed up and looking pretty for impeachment, but this is not 
an impeachment. This is just a simple railroad job, and today's 
is a waste of time because this is where we're at.
    So I close today with this. It didn't start with Mueller. 
It didn't start with a phone call. You know where this started? 
It started with tears in Brooklyn in November 2016, when an 
election was lost. So we are here, no plan, no fact witnesses, 
simply being a rubber stamp for what we have; but, hey, we got 
law professors here. What a start of a party.
    Mr. Chairman, before I yield back, I have a motion. Under 
clause 2, rule XI.
    Chairman Nadler. The gentleman is recognized for the 
purpose of an opening statement, not for the purpose of making 
a motion.
    Mr. Collins. I yield back and now ask for the recognition 
under clause 2, rule XI.
    Chairman Nadler. The gentleman is recognized.
    Mr. Collins. Mr. Chairman, pursuant to clause 2 of rule XI, 
I move to require the attendance and testimony of Chairman 
Schiff before this committee and transmit this letter 
accordingly.
    Chairman Nadler. For what purposes does the gentlelady seek 
recognition?
    Ms. Lofgren. I move to table the motion.
    Chairman Nadler. The motion to table is made and not 
debatable.
    All in favor of the motion to table, say aye.
    Opposed, no.
    The motion to table is agreed to.
    Mr. Collins. Recorded vote.
    Chairman Nadler. A recorded vote is requested. The clerk 
will call the roll.
    Mr. Collins. Parliamentary inquiry, Mr. Chairman.
    Chairman Nadler. The clerk will call the roll.
    Mr. Collins. Parliamentary inquiry, Mr. Chairman.
    Chairman Nadler. You're not recognized for parliamentary 
inquiry at this time. There's a vote in process.
    Mr. Collins. Just a reminder, any ``no'' votes mean you 
don't want Chairman Schiff coming, correct?
    Chairman Nadler. The clerk will call the roll.
    Ms. Strasser. Mr. Nadler?
    Chairman Nadler. Aye.
    Ms. Strasser. Mr. Nadler votes aye.
    Ms. Lofgren?
    Ms. Lofgren. Aye.
    Ms. Strasser. Ms. Lofgren votes aye.
    Ms. Jackson Lee?
    Ms. Jackson Lee. Aye.
    Ms. Strasser. Ms. Jackson Lee votes aye.
    Mr. Cohen?
    Mr. Cohen. Aye.
    Ms. Strasser. Mr. Cohen votes aye.
    Mr. Johnson of Georgia?
    Mr. Johnson of Georgia. Aye.
    Ms. Strasser. Mr. Johnson of Georgia votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Strasser. Mr. Deutch votes aye.
    Ms. Bass?
    [No response.]
    Ms. Strasser. Mr. Richmond?
    Mr. Richmond. Yes.
    Ms. Strasser. Mr. Richmond votes yes.
    Mr. Jeffries?
    Mr. Jeffries. Aye.
    Ms. Strasser. Mr. Jeffries votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Strasser. Mr. Cicilline votes aye.
    Mr. Swalwell?
    Mr. Swalwell. Yes.
    Ms. Strasser. Mr. Swalwell votes yes.
    Mr. Lieu?
    Mr. Lieu. Aye.
    Ms. Strasser. Mr. Lieu votes aye.
    Mr. Raskin?
    Mr. Raskin. Aye.
    Ms. Strasser. Mr. Raskin votes aye.
    Ms. Jayapal?
    Ms. Jayapal. Aye.
    Ms. Strasser. Ms. Jayapal votes aye.
    Mrs. Demings?
    Mrs. Demings. Aye.
    Ms. Strasser. Mrs. Demings votes aye.
    Mr. Correa?
    Mr. Correa. Aye.
    Ms. Strasser. Mr. Correa votes aye.
    Ms. Scanlon?
    Ms. Scanlon. Aye.
    Ms. Strasser. Ms. Scanlon votes aye.
    Ms. Garcia?
    Ms. Garcia. Aye.
    Ms. Strasser. Ms. Garcia votes aye.
    Mr. Neguse?
    Mr. Neguse. Aye.
    Ms. Strasser. Mr. Neguse votes aye.
    Mrs. McBath?
    Mrs. McBath. Aye.
    Ms. Strasser. Mrs. McBath votes aye.
    Mr. Stanton?
    Mr. Stanton. Aye.
    Ms. Strasser. Mr. Stanton votes aye.
    Ms. Dean?
    Ms. Dean. Aye.
    Ms. Strasser. Ms. Dean votes aye.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. Aye.
    Ms. Strasser. Ms. Mucarsel-Powell votes aye.
    Ms. Escobar?
    Ms. Escobar. Aye.
    Ms. Strasser. Ms. Escobar votes aye.
    Mr. Collins?
    Mr. Collins. No.
    Ms. Strasser. Mr. Collins votes no.
    Mr. Sensenbrenner?
    Mr. Sensenbrenner. No.
    Ms. Strasser. Mr. Sensenbrenner votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    Ms. Strasser. Mr. Chabot votes no.
    Mr. Gohmert?
    Mr. Gohmert. No.
    Ms. Strasser. Mr. Gohmert votes no.
    Mr. Jordan?
    Mr. Jordan. No.
    Ms. Strasser. Mr. Jordan votes no.
    Mr. Buck?
    Mr. Buck. No.
    Ms. Strasser. Mr. Buck votes no.
    Mr. Ratcliffe?
    Mr. Ratcliffe. No.
    Ms. Strasser. Mr. Ratcliffe votes no.
    Mrs. Roby?
    Mrs. Roby. No.
    Ms. Strasser. Ms. Roby votes no.
    Mr. Gaetz?
    Mr. Gaetz. No.
    Ms. Strasser. Mr. Gaetz votes no.
    Mr. Johnson of Louisiana?
    Mr. Johnson of Louisiana. No.
    Ms. Strasser. Mr. Johnson of Louisiana votes no.
    Mr. Biggs?
    Mr. Biggs. No.
    Ms. Strasser. Mr. Biggs votes no.
    Mr. McClintock?
    Mr. McClintock. No.
    Ms. Strasser. Mr. McClintock votes no.
    Ms. Lesko?
    Ms. Lesko. No.
    Ms. Strasser. Ms. Lesko votes no.
    Mr. Reschenthaler?
    Mr. Reschenthaler. No.
    Ms. Strasser. Mr. Reschenthaler votes no.
    Mr. Cline?
    Mr. Cline. No.
    Ms. Strasser. Mr. Cline votes no.
    Mr. Armstrong?
    Mr. Armstrong. No.
    Ms. Strasser. Mr. Armstrong votes no.
    Mr. Steube?
    Mr. Steube. No.
    Ms. Strasser. Mr. Steube votes no.
    Chairman Nadler. Everybody's voted--has everyone voted who 
wishes to vote? Ms. Bass?
    Ms. Bass. Aye.
    Ms. Strasser. Ms. Bass votes aye.
    Chairman Nadler. The clerk will report.
    Ms. Strasser. Mr. Chairman, there are 24 ayes and 17 noes.
    Chairman Nadler. The motion to table is agreed to.
    Mr. Biggs. Mr. Chairman, I have a parliamentary inquiry.
    Chairman Nadler. The gentleman will state his parliamentary 
inquiry.
    Mr. Biggs. Thank you, Mr. Chairman.
    Clause (c)(2) of the Judiciary Committee's impeachment 
inquiry procedures states that members of the committee can 
raise objections relating to the admissibility of testimony and 
evidence, but it doesn't say what rules apply to admissibility. 
So I'm hoping you can explain to us what the objections may be 
made under this clause and if you intend to use the Federal 
Rules of Evidence.
    Chairman Nadler. The gentleman will suspend. That is not a 
proper parliamentary inquiry.
    Mr. Collins. It is a proper parliamentary inquiry.
    Chairman Nadler. It is not.
    Mr. Biggs. I stated the rule.
    Mr. Collins. He stated the rule, Mr. Chairman. You can 
ignore it and not answer it, but you can't just say it's not a 
proper parliamentary inquiry.
    Mr. Biggs. I'm not asking for the application of the rule, 
but for an explanation, Mr. Chairman. I don't know how that's 
not parliamentary.
    Chairman Nadler. We will apply the rules, period.
    Mr. Biggs. You won't help us understand that? There's no 
clarity there.
    Mr. Collins. Which rule are you citing? How are citing 
that?
    Mr. Biggs. Clause (c)(2) of the Judiciary Committee's 
impeachment inquiry procedures. How is that unclear?
    Chairman Nadler. It's the rules of the House, and they will 
be applied, period. That's the----
    Mr. Biggs. I'm asking, how will they be applied here, sir?
    Chairman Nadler. They will be applied according to the 
rules.
    Mr. Collins. But not answering your question.
    Mr. Biggs. A circular response. Thank you.
    Mr. Chairman, can you please also iterate the schedule 
going forward? In other words, are they applying to additional 
hearings, and if so, when----
    Chairman Nadler. The gentleman will suspend. That is not a 
proper parliamentary inquiry.
    Without objection, all other opening statements will be 
included in the record. I will now introduce today's witnesses.
    Mr. Reschenthaler. Mr. Chairman----
    Chairman Nadler. Noah Feldman----
    Mr. Reschenthaler. Mr. Chairman, I seek recognition.
    Chairman Nadler. The gentleman is--I am not going to 
recognize you now. I am introducing the witnesses.
    Noah Feldman is the Felix Frankfurter Professor of Law at 
Harvard Law School. Professor Feldman has authored seven books, 
including a biography of James Madison and the Constitutional 
Law Casebook, as well as many essays and articles on 
constitutional subjects.
    Professor Feldman received his undergraduate degree from 
Harvard College, a Doctor of Philosophy from Oxford University, 
where he was also a Rhodes Scholar, and a J.D. from Yale Law 
School. He also served as a law clerk to Justice David Souter 
of the United States Supreme Court.
    Pamela Karlan serves as the Kenneth and Harle Montgomery 
Professor of Public Interest Law and the co-director of the 
Supreme Court Litigation Clinic at Stanford Law School. She's 
the coauthor of several leading casebooks, including a 
monograph entitled ``Keeping Faith With the Constitution'' and 
dozens of scholarly articles. She served as a law clerk to 
Justice Harry Blackmun of the United States Supreme Court and 
as a Deputy Assistant Attorney General in the Civil Rights 
Division of the United States Department of Justice, where she 
was responsible, among other things, for reviewing the work of 
the Department's voting section. Professor Karlan earned three 
degrees from Yale University, a B.A. in history, an M.A. in 
history, and a J.D. from Yale Law School.
    Michael Gerhardt is the Burton Craige Distinguished 
Professor of Jurisprudence at the University of North Carolina 
School of Law and director of UNC's Center for Law and 
Government. Professor Gerhardt is the author of many books, 
including ``The Federal Impeachment Process: A Constitutional 
and Historical Analysis,'' as well as more than 50 law review 
publications on a diverse range of topics in constitutional 
law, Federal jurisdiction, and the legislative process. He 
received his J.D. from the University of Chicago Law School, 
his M.S. from the London School of Economics, and his B.A. from 
Yale University.
    Jonathan Turley is the J.B. and Maurice C. Shapiro Chair of 
Public Interest Law at George Washington University Law School 
where he teaches torts, criminal procedure, and constitutional 
law. After a stint at Tulane Law School, Professor Turley 
joined the GW law faculty in 1990 and, in 1998, became the 
youngest chaired professor in the school's history. He has 
written over three dozen academic articles for a variety of 
leading law schools--of leading law journals--I'm sorry--and 
his articles on legal and policy issues appear frequently in 
national publications. A Chicago native, Professor Turley 
earned degrees from the University of Chicago and Northwestern 
University School of Law.
    I will now--we welcome all our distinguished witnesses. We 
thank them for participating in today's hearing. Now, if you 
would please rise, I will begin by swearing you in.
    Do you swear or affirm under penalty of perjury that the 
testimony you're about to give is true and correct to the best 
of your knowledge, information, and belief so help you God?
    Let the record show the witnesses answered in the 
affirmative. Thank you and please be seated.
    Please note that each of your written statements will be 
entered into the record in its entirety. Accordingly, I ask 
that you summarize your testimony in 10 minutes. To help you 
stay within that time, there is a timing light on your table. 
When the light switches from green to yellow, you have 1 minute 
to conclude your testimony. When the light turns red, it 
signals your 10 minutes have expired.
    Professor Feldman, you may begin.
    Mr. Feldman. Mr. Chairman, Mr. Chairman and members of the 
committee----
    Chairman Nadler. I don't think you're on the mic.
    Mr. Armstrong. Mr. Chairman, before we begin----
    Mr. Feldman. Mr. Chairman and members of the committee----
    Mr. Armstrong. Mr. Chairman, I have a motion.
    Chairman Nadler. The gentleman is not in order to offer a 
motion at this time.
    Mr. Armstrong. Mr. Chairman, I seek recognition for a 
privilege motion.
    Mr. Feldman. Mr. Chairman and members of the committee, 
thank you very much for the opportunity to appear. My name is 
Noah Feldman. I serve----
    Chairman Nadler. The witness will proceed.
    Mr. Feldman. I serve as the Felix Frankfurter Professor of 
Law at the Harvard Law School.
    Mr. Armstrong. I seek recognition for a motion.
    Chairman Nadler. The gentleman will suspend. The time is 
the witness'.
    Mr. Collins. The privilege motion needs to be recognized. 
You can call it not a privilege, but you need to be recognized.
    Chairman Nadler. In between the witnesses, it may be 
recognized, not once I recognize the witnesses.
    Mr. Collins. So whenever you want to?
    Chairman Nadler. The witness will proceed.
    We'll entertain the motion after the first witness.
    Mr. Collins. He started before he recognized.

 TESTIMONY OF NOAH FELDMAN, FELIX FRANKFURTER PROFESSOR OF LAW 
 AND DIRECTOR, JULIS-RABINOWITZ PROGRAM ON JEWISH AND ISRAELI 
 LAW, HARVARD LAW SCHOOL; PAMELA S. KARLAN, KENNETH AND HARLE 
 MONTGOMERY PROFESSOR OF PUBLIC INTEREST LAW AND CO-DIRECTOR, 
 SUPREME COURT LITIGATION CLINIC, STANFORD LAW SCHOOL; MICHAEL 
      GERHARDT, BURTON CRAIGE DISTINGUISHED PROFESSOR OF 
JURISPRUDENCE, THE UNIVERSITY OF NORTH CAROLINA SCHOOL OF LAW; 
   JONATHAN TURLEY, J.B. AND MAURICE C. SHAPIRO PROFESSOR OF 
   PUBLIC INTEREST LAW, THE GEORGE WASHINGTON UNIVERSITY LAW 
                            SCHOOL.

                   TESTIMONY OF NOAH FELDMAN

    Mr. Feldman. My job is to study and to teach the 
Constitution from its origins until the present.
    I'm here today to describe three things: why the Framers of 
our Constitution included a provision for the impeachment of 
the President; what that provision providing for impeachment 
for high crimes and misdemeanors means; and, last, how it 
applies to the question before you and before the American 
people, whether President Trump has committed impeachable 
offenses under the Constitution.
    Let me begin by stating my conclusions. The Framers 
provided for the impeachment of the President because they 
feared that the President might abuse the power of his office 
for personal benefit, to corrupt the electoral process and 
ensure his reelection, or to subvert the national security of 
the United States.
    High crimes and misdemeanors are abuses of power and of 
public trust connected to the office of the Presidency. On the 
basis of the testimony and the evidence before the House, 
President Trump has committed impeachable high crimes and 
misdemeanors by corruptly abusing the office of the Presidency. 
Specifically, President Trump has abused his office by 
corruptly soliciting President Volodymyr Zelensky of Ukraine to 
announce investigations of his political rivals in order to 
gain personal advantage including in the 2020 Presidential 
election.
    Let me begin now with the question of why the Framers 
provided for impeachment in the first place. The Framers 
borrowed the concept of impeachment from England but with one 
enormous difference. The House of Commons and the House of 
Lords could use impeachment in order to limit the Ministers of 
the King, but they could not impeach the King, and in that 
sense, the King was above the law. In stark contrast, the 
Framers from the very outset of the Constitutional Convention 
in 1787 made it crystal clear that the President would be 
subject to impeachment in order to demonstrate that the 
President was subordinate to the law.
    If you will, I would like you to think now about a specific 
date in the Constitutional Convention, July 20, 1787. It was 
the middle of a long, hot summer. And on that day, two members 
of the Constitutional Convention actually moved to take out the 
impeachment provision from the draft Constitution. And they had 
a reason for that, and the reason was they said: Well, the 
President will have to stand for reelection, and if the 
President has to stand for reelection, that is enough. We don't 
need a separate provision for impeachment.
    When that proposal was made, significant disagreement 
ensued. The Governor of North Carolina, a man called William 
Davie, immediately said: If the President cannot be impeached, 
quote, he will spare no efforts or means whatever to get 
himself reelected.
    Following Davie, George Mason of Virginia, a fierce 
Republican critic of executive power, said: No point is more 
important than that impeachment be included in the 
Constitution. Shall any man be above justice, he asked, thus 
expressing the core concern that the President must be 
subordinate to the law and not above the law.
    James Madison, the principal draftsman of the U.S. 
Constitution, then spoke up. He said it was, quote, 
indispensable that some provision be made for impeachment. Why? 
Because, he explained, standing for reelection was, quote, not 
a sufficient security, close quote, against Presidential 
misconduct or corruption. A President, he said, might betray 
his trust to foreign powers. A President who in a corrupt 
fashion abused the office of the Presidency, said James 
Madison, quote, might be fatal to the Republic, close quote.
    And then a remarkable thing happened in the Convention. 
Gouverneur Morris of Pennsylvania, one of the two people who 
had introduced the motion to eliminate impeachment from the 
Constitution, got up and actually said the words ``I was 
wrong.'' He told the other Framers present that he had changed 
his mind on the basis of the debate on July 20th and that it 
was now his opinion that, in order to avoid corruption of the 
electoral process, a President would have to be subject to 
impeachment, regardless of the availability of a further 
election.
    The upshot of this debate is that the Framers kept 
impeachment in the Constitution specifically in order to 
protect against the abuse of office with the capacity to 
corrupt the electoral process or lead to personal gain.
    Now, turning to the language of the Constitution, the 
Framers used the words ``high crimes and misdemeanors'' to 
describe those forms of action that they considered 
impeachable. These were not vague or abstract terms to the 
Framers. High crimes and misdemeanors was very--the words 
``high crimes and misdemeanors'' represented very specific 
language that was well understood by the entire generation of 
the Framers. Indeed, they were borrowed from an impeachment 
trial in England that was taking place as the Framers were 
speaking, which was referred to, in fact, by George Mason. The 
words ``high crimes and misdemeanors'' referred to abuse of the 
office of the Presidency for personal advantage or to corrupt 
the electoral process or to subvert the national security of 
the United States.
    There's no mystery about the words ``high crimes and 
misdemeanors.'' The word ``high'' modifies both crimes and 
misdemeanors. So they're both high. And ``high'' means 
connected to the office of the Presidency, connected to office.
    The classic form that was familiar to the Framers was the 
abuse of office for personal gain or advantage. And when the 
Framers specifically named bribery as a high crime and 
misdemeanor, they were naming one particular version of this 
abuse of office, the abuse of office for personal or individual 
gain. The other forms of abuse of office, abuse of office to 
affect elections and abuse of office to compromise national 
security, were further forms that were familiar to the Framers.
    Now how does this language of high crimes and misdemeanors 
apply to President Trump's alleged conduct? Let me be clear. 
The Constitution gives the House of Representatives, that is, 
the members of this committee and the other members of the 
House, quote, sole power of impeachment. It's not my 
responsibility or my job to determine the credibility of the 
witnesses who appeared before the House thus far. That is your 
constitutional responsibility. My comments will, therefore, 
follow my role which is to describe and apply the meaning of 
impeachable offenses to the facts described by the testimony 
and evidence before the House.
    President Trump's conduct as described in the testimony and 
evidence clearly constitutes impeachable high crimes and 
misdemeanors under the Constitution. In particular, the 
memorandum and other testimony relating to the July 25, 2019, 
phone call between the two Presidents, President Trump and 
President Zelensky, more than sufficiently indicates that 
President Trump abused his office by soliciting the President 
of Ukraine to investigate his political rivals in order to gain 
personal political advantage, including in relation to the 2020 
election.
    Again, the words ``abuse of office'' are not mystical or 
magical. They are very clear. The abuse of office occurs when 
the President uses a feature of his power, the awesome power of 
his office, not to serve the interests of the American public 
but to serve his personal, individual partisan electoral 
interests. That is what the evidence before the House 
indicates.
    Finally, let me be clear that on its own soliciting the 
leader of a foreign government in order to announce 
investigations of political rivals and perform those 
investigations would constitute a high crime and misdemeanor. 
But the House also has evidence before it that the President 
committed two further acts that also qualify as high crimes and 
misdemeanors. In particular, the House heard evidence that the 
President placed a hold on critical U.S. aid to Ukraine and 
conditioned its release on announcement of the investigations 
of the Bidens and of the discredited CrowdStrike conspiracy 
theory. Furthermore, the House also heard evidence that the 
President conditioned a White House visit desperately sought by 
the Ukrainian President on announcement of the investigations.
    Both of these acts constitute impeachable high crimes and 
misdemeanors under the Constitution. They each encapsulate the 
Framers' worry that the President of the United States would 
take any means whatever to ensure his reelection, and that is 
the reason that the Framers provided for impeachment in a case 
like this one.
    [The statement of Mr. Feldman follows:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Armstrong. Mr. Chairman, I seek----
    Chairman Nadler. The gentleman's time has expired.
    Mr. Armstrong. Mr. Chairman, I seek recognition.
    Chairman Nadler. The gentleman's recognized.
    Mr. Armstrong. I offer a motion to postpone to a date 
certain.
    Ms. Lofgren. I move to table the motion.
    Chairman Nadler. The motion to table is heard and is not 
debatable. All in favor of the motion----
    Mr. Sensenbrenner. Mr. Chairman----
    Chairman Nadler. All in favor----
    Mr. Sensenbrenner. Mr. Chairman, may we have the motion 
read, please?
    Chairman Nadler. The motion was stated as to adjourn to----
    Mr. Sensenbrenner. May we have the motion read, please?
    Chairman Nadler. The motion will be read as to what date.
    Mr. Armstrong. The motion to be read to a date certain, 
Wednesday, December 11, 2019, so we can actually get a response 
to the six letters we've----
    Chairman Nadler. The gentleman has stated his motion.
    The motion to table is made.
    Ms. Lofgren. Correct.
    Chairman Nadler. The motion is made and not debatable.
    All in favor say aye.
    Opposed, no.
    The motion to table is agreed to.
    Mr. Armstrong. Roll call.
    Chairman Nadler. A roll call is requested. The clerk will 
call the roll.
    Ms. Strasser. Mr. Nadler?
    Chairman Nadler. Aye.
    Ms. Strasser. Mr. Nadler votes aye.
    Ms. Lofgren?
    Ms. Lofgren. Aye.
    Ms. Strasser. Ms. Lofgren votes aye.
    Ms. Jackson Lee?
    Ms. Jackson Lee. Aye.
    Ms. Strasser. Ms. Jackson Lee votes aye.
    Mr. Cohen?
    Mr. Cohen. Aye.
    Ms. Strasser. Mr. Cohen votes aye.
    Mr. Johnson of Georgia?
    Mr. Johnson of Georgia. Aye.
    Ms. Strasser. Mr. Johnson of Georgia votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Strasser. Mr. Deutch votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Strasser. Ms. Bass votes aye.
    Mr. Richmond?
    Mr. Richmond. Yes.
    Ms. Strasser. Mr. Richmond votes yes.
    Mr. Jeffries?
    Mr. Jeffries. Aye.
    Ms. Strasser. Mr. Jeffries votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Strasser. Mr. Cicilline votes aye.
    Mr. Swalwell?
    Mr. Swalwell. Yes.
    Ms. Strasser. Mr. Swalwell votes yes.
    Mr. Lieu?
    Mr. Lieu. Aye.
    Ms. Strasser. Mr. Lieu votes aye.
    Mr. Raskin?
    Mr. Raskin. Aye.
    Ms. Strasser. Mr. Raskin votes aye.
    Ms. Jayapal?
    Ms. Jayapal. Aye.
    Ms. Strasser. Ms. Jayapal votes aye.
    Mrs. Demings?
    Mrs. Demings. Aye.
    Ms. Strasser. Mrs. Demings votes aye.
    Mr. Correa?
    Mr. Correa. Aye.
    Ms. Strasser. Mr. Correa votes aye.
    Ms. Scanlon?
    Ms. Scanlon. Aye.
    Ms. Strasser. Ms. Scanlon votes aye.
    Ms. Garcia?
    Ms. Garcia. Aye.
    Ms. Strasser. Ms. Garcia votes aye.
    Mr. Neguse?
    Mr. Neguse. Aye.
    Ms. Strasser. Mr. Neguse votes aye.
    Mrs. McBath?
    Mrs. McBath. Aye.
    Ms. Strasser. Mrs. McBath votes aye.
    Mr. Stanton?
    Mr. Stanton. Aye.
    Ms. Strasser. Mr. Stanton votes aye.
    Ms. Dean?
    Ms. Dean. Aye.
    Ms. Strasser. Ms. Dean votes aye.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. Aye.
    Ms. Strasser. Ms. Mucarsel-Powell votes aye.
    Ms. Escobar?
    Ms. Escobar. Aye.
    Ms. Strasser. Ms. Escobar votes aye.
    Mr. Collins?
    Mr. Collins. No.
    Ms. Strasser. Mr. Collins votes no.
    Mr. Sensenbrenner?
    Mr. Sensenbrenner. No.
    Ms. Strasser. Mr. Sensenbrenner votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    Ms. Strasser. Mr. Chabot votes no.
    Mr. Gohmert?
    Mr. Gohmert. No.
    Ms. Strasser. Mr. Gohmert votes no.
    Mr. Jordan?
    Mr. Jordan. No.
    Ms. Strasser. Mr. Jordan votes no.
    Mr. Buck?
    Mr. Buck. No.
    Ms. Strasser. Mr. Buck votes no.
    Mr. Ratcliffe?
    Mr. Ratcliffe. No.
    Ms. Strasser. Mr. Ratcliffe votes no.
    Mrs. Roby?
    Mrs. Roby. No.
    Ms. Strasser. Mrs. Roby votes no.
    Mr. Gaetz?
    Mr. Gaetz. No.
    Ms. Strasser. Mr. Gaetz votes no.
    Mr. Johnson of Louisiana?
    Mr. Johnson of Louisiana. No.
    Ms. Strasser. Mr. Johnson of Louisiana votes no.
    Mr. Biggs?
    Mr. Biggs. No.
    Ms. Strasser. Mr. Biggs votes no.
    Mr. McClintock?
    Mr. McClintock. No.
    Ms. Strasser. Mr. McClintock votes no.
    Mrs. Lesko?
    Mrs. Lesko. No.
    Ms. Strasser. Mrs. Lesko votes no.
    Mr. Reschenthaler?
    Mr. Reschenthaler. No.
    Ms. Strasser. Mr. Reschenthaler votes no.
    Mr. Cline?
    Mr. Cline. No.
    Ms. Strasser. Mr. Cline votes no.
    Mr. Armstrong?
    Mr. Armstrong. No.
    Ms. Strasser. Mr. Armstrong votes no.
    Mr. Steube?
    Mr. Steube. No.
    Ms. Strasser. Mr. Steube votes no.
    Chairman Nadler. Has everyone voted who wishes to vote?
    The clerk will report.
    Ms. Strasser. Mr. Chairman, there are 24 ayes and 17 noes.
    Chairman Nadler. The motion to table is adopted.
    I now recognize Professor Karlan for her testimony.

                 TESTIMONY OF PAMELA S. KARLAN

    Ms. Karlan. Mr. Chairman and members of the committee, 
thank you so much for the opportunity to testify. Twice I have 
had the privilege of representing this committee and its 
leadership in voting rights cases before the Supreme Court, 
once when it was under the leadership of Chairman 
Sensenbrenner--it's good to see you again, sir--and with Mr. 
Chabot as one of my other clients, and once under leadership of 
Chairman Conyers. It was a great honor for me to represent this 
committee because of this committee's key role over the past 50 
years in ensuring that American citizens have the right to vote 
in free and fair elections.
    Today, you're being asked to consider whether protecting 
those elections requires impeaching a President. That is an 
awesome responsibility, that everything I know about our 
Constitution and its values and my review of the evidentiary 
record--and here, Mr. Collins, I would like to say to you, sir, 
that I read transcripts of every one of the witnesses who 
appeared in the live hearing because I would not speak about 
these things without reviewing the facts. So I'm insulted by 
the suggestion that, as a law professor, I don't care about 
those facts. But everything I read on those occasions tells me 
that when President Trump invited--indeed, demanded--foreign 
involvement in our upcoming election, he struck at the very 
heart of what makes this a republic to which we pledge 
allegiance. That demand as, Professor Feldman just explained, 
constituted an abuse of power.
    Indeed, as I want to explain in my testimony, drawing a 
foreign government into our elections is an especially serious 
abuse of power because it undermines democracy itself. Our 
Constitution begins with the words ``We the people'' for a 
reason. Our government, in James Madison's words, derives all 
its powers directly or indirectly from the great body of the 
people, and the way it derives these powers is through 
elections. Elections matter, both to the legitimacy of our 
government and to all of our individual freedoms, because, as 
the Supreme Court declared more than a century ago, voting is 
preservative of all rights.
    So it is hardly surprising that the Constitution is marbled 
with provisions governing elections and guaranteeing 
governmental accountability. Indeed, a majority of the 
amendments to our Constitution since the Civil War have dealt 
with voting or with terms of office. And among the most 
important provisions of our original Constitution is the 
guarantee of periodic elections for the Presidency, one every 4 
years.
    America has kept that promise for more than two centuries, 
and it has done so even during wartime. For example, we 
invented the idea of absentee voting so that Union troops who 
supported President Lincoln could stay in the field during the 
election of 1864. And, since then, countless other Americans 
have fought and died to protect our right to vote.
    But the Framers of our Constitution realized that elections 
alone could not guarantee that the United States would remain a 
republic.
    One of the key reasons for including the impeachment power 
was a risk that unscrupulous officials might try to rig the 
election process. Now you've already heard two people give 
William Davie his props. You know, Hamilton got a whole 
musical, and William Davie is just going to get this committee 
hearing, but he warned that, unless the Constitution contained 
an impeachment provision, a President might spare no efforts or 
means whatsoever to get himself reelected. And George Mason 
insisted that a President who procured his appointment in the 
first instance through improper and corrupt acts should not 
escape punishment by repeating his guilt.
    And Mason was the person responsible for adding high crimes 
and misdemeanors to the list of impeachable offenses. So we 
know from that that the list was designed to reach a President 
who acts to subvert an election, whether that election is the 
one that brought him into office or it's an upcoming election 
where he seeks an additional term.
    Moreover, the Founding generation, like every generation of 
Americans since, was especially concerned to protect our 
government and our democratic process from outside 
interference. For example, John Adams during the ratification 
expressed concern with the very idea of having an elected 
President, writing to Thomas Jefferson that: ``You are 
apprehensive of foreign interference, intrigue, influence. So 
am I. But as often as elections happen, the danger of foreign 
influence recurs.''
    And in his farewell address, President Washington warned 
that ``history and experience prove that foreign influence is 
one of the most baneful foes of republican government.'' And he 
explained that this was in part because foreign governments 
would try and foment disagreement among the American people and 
influence what we thought.
    The very idea that a President might seek the aid of a 
foreign government in his reelection campaign would have 
horrified them. But based on the evidentiary record, that is 
what President Trump has done. The list of impeachable offenses 
that the Framers included in the Constitution shows that the 
essence of an impeachable offense is a President's decision to 
sacrifice the national interest for his own private ends.
    Treason, the first thing listed, lay in an individual's 
giving aid to a foreign enemy, that is, putting a foreign enemy 
adversary's interests above the interests of the United States. 
Bribery occurred when an official solicited, received, or 
offered a personal favor or benefit to influence official 
action, risking that he would put his private welfare above the 
national interest. And high crimes and misdemeanors captured 
the other ways in which a high official might, as Justice 
Joseph Story explained, disregard public interests in the 
discharge in the duties of political office.
    Based on the evidentiary record before you, what has 
happened in the case today is something that I do not think we 
have ever seen before, a President who has doubled down on 
violating his oath to faithfully execute the laws and to 
protect and defend the Constitution. The evidence reveals a 
President who used the powers of his office to demand that a 
foreign government participate in undermining a competing 
candidate for the Presidency.
    As President John Kennedy declared, ``the right to vote in 
a free American election is the most powerful and precious 
right in the world,'' but our elections become less free when 
they are distorted by foreign interference. What happened in 
2016 was bad enough. There is widespread agreement that Russian 
operatives intervened to manipulate our political process, but 
that distortion is magnified if a sitting President abuses the 
powers of his office actually to invite foreign intervention.
    To see why, imagine living in a part of Louisiana or Texas 
that's prone to devastating hurricanes and flooding. What would 
you think if you lived there and your Governor asked for a 
meeting with the President to discuss getting disaster aid that 
Congress has provided for, what would you think if that 
President said, ``I would like to do you--I would like you to 
do us a favor; I'll meet with you and I'll send the disaster 
relief once you brand my opponent a criminal''? Wouldn't you 
know in your gut that such a President had abused his office, 
that he betrayed the national interests, and that he was trying 
to corrupt the electoral process?
    I believe that the evidentiary record shows wrongful acts 
on that scale here. It shows a President who delayed meeting a 
foreign leader and providing assistance that Congress and his 
own advisers agreed serves our national interests in promoting 
democracy and in limiting Russian aggression, saying, ``Russia, 
if you're listening''--you know, a President who cared about 
the Constitution would say: Russia, if you're listening, butt 
out of our elections.
    And it shows a President who did this to strong arm a 
foreign leader into smearing one of the President's opponents 
in our ongoing election season.
    That's not politics as usual, at least not in the United 
States or not in any mature democracy. It is instead a cardinal 
reason why the Constitution contains an impeachment power. Put 
simply, a President should resist foreign interference in our 
elections, not demand it and not welcome it. If we are to keep 
faith with our Constitution and with our republic, President 
Trump must be held to account.
    Thank you.
    [The statement of Ms. Karlan follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Nadler. Thank you.
    Professor Gerhardt.

                 TESTIMONY OF MICHAEL GERHARDT

    Mr. Gerhardt. Thank you, Mr. Chairman, Ranking Member, 
other distinguish members of the committee.
    It's an honor and a privilege to join the other 
distinguished witnesses to discuss a matter of grave concern to 
our country and to our Constitution. Because this House, the 
people's House, has the sole power of impeachment, there is no 
better forum to discuss the constitutional standard for 
impeachment and whether that standard has been met in the case 
of the current President of the United States.
    As I explain in the remainder and balance of my opening 
statement, the record compiled thus far shows the President has 
committed several impeachable offenses, including bribery, 
abuse of power, and soliciting of personal favor from a foreign 
leader to benefit himself personally, obstructing justice, and 
obstructing Congress.
    Our hearing today should serve as a reminder of one of the 
fundamental principles that drove the Founders of our 
Constitution to break from England and to draft their own 
Constitution, the principle that, in this country, no one is 
King. We have followed that principle since before the founding 
of the Constitution. And it is recognized around the world as a 
fixed, inspiring American ideal.
    In his third message to Congress in 1903, President 
Theodore Roosevelt delivered one of the finest articulations of 
this principle. He said: No one is above the law, and no man is 
below, nor do we ask any man's permission when we require him 
to obey it. Obedience to the law is demanded as a right, not 
asked for as a favor.
    Three features of our Constitution protect the fundamental 
principle that no one, not even the President, is above the 
law. First, in the British system, the public had no choice 
over the monarch who ruled them. In our Constitution, the 
Framers allowed elections to serve as a crucial means for 
ensuring Presidential accountability.
    Second, in the British system, the King could do no wrong. 
And no other parts of the government could check his 
misconduct. In our Constitution, the Framers developed the 
concept of separation of powers, which consists of checks and 
balances designed to prevent any branch, including the 
Presidency, from becoming tyrannical.
    Third, in the British system, everyone but the King was 
impeachable. Our Framers' generation pledged their lives and 
fortunes to rebel against a monarch whom they saw as corrupt, 
tyrannical, and entitled to do no wrong.
    In our Declaration of Independence, the Framers set forth a 
series of impeachable offenses that the King had committed 
against the American colonists. When the Framers later convened 
in Philadelphia to draft our Constitution, they were united 
around a simple indisputable principle that was a major 
safeguard for the public. We, the people, against tyranny of 
any kind, a people who had overthrown a King were not going to 
turn around just after securing their independence from corrupt 
monarchial tyranny and create an office that, like the King, 
was above the law and could do no wrong. The Framers created a 
chief executive to bring energy to the administration of 
Federal laws but to be accountable to Congress for treason, 
bribery, or other high crimes and misdemeanors.
    The Framers' concern about the need to protect against a 
corrupt President was evident throughout the Convention. And 
here I must thank my prior two friends who have spoken and 
referred to a North Carolinian, William Davie. I will refer to 
another North Carolinian in the Constitutional Convention, 
James Iredell, whom President Washington later appointed to the 
Supreme Court, assured his fellow delegates the President, 
quote, is of a very different nature from a monarch. He is to 
be personally responsible for any abuse of the great trust 
placed in him, unquote.
    This brings us, of course, to the crucial question we're 
here to talk about today: the standard for impeachment. The 
Constitution defines treason, and the term ``bribery'' 
basically means using an office for personal gain, or I should 
say misusing office for personal gain.
    As Professor Feldman pointed out, these terms derive from 
the British who understood the class of cases that would be 
impeachable to refer to political crimes, which included great 
offenses against the United States, attempts to subvert the 
Constitution, when the President deviates from his duty, or 
dares to abuse the power invested in him by the people, 
breaches the public trust, and serious injuries to the 
Republic.
    In his influential essay in The Federalist Papers, 
Alexander Hamilton declared that impeachable offenses are those 
offenses which proceed from the misconduct of public men or, in 
other words, the abuse or violation of some public trust and 
relate chiefly to injuries done immediately to the society 
itself.
    Several themes emerge from the Framers' discussion of the 
scope of the impeachable offenses and impeachable practice. We 
know that not all impeachment offenses are criminal, and we 
know that not all felonies are impeachable offenses. We know 
further that what matters in determining whether particular 
misconduct constitutes a high crime and misdemeanor is 
ultimately the context and the gravity of the misconduct in 
question.
    After reviewing the evidence that's been made public, I 
cannot help but conclude that this President has attacked each 
of the Constitution's safeguards against establishing a 
monarchy in this country. Both the context and gravity of the 
President's misconduct are clear. The favor he requested from 
Ukraine's President was to receive, in exchange for his use of 
Presidential power, Ukraine's announcement of a criminal 
investigation of a political rival. The investigation was not 
the important action for the President. The announcement was, 
because it could then be used in this country to manipulate the 
public into casting aside the President's political rival 
because of concerns about his corruption.
    Mr. Gerhardt. The gravity of the President's misconduct is 
apparent when we compare it to the misconduct of the one 
President who resigned from office to avoid impeachment, 
conviction, and removal.
    The House Judiciary Committee in 1974 approved three 
articles of impeachment against Richard Nixon who resigned a 
few days later. The first article charged him with obstruction 
of justice.
    If you read the Mueller report, it identifies a number of 
facts--I won't lay them out here right now--that suggest the 
President himself has obstructed justice. If you look at the 
second article of impeachment approved against Richard Nixon, 
it charged him with abuse of power for ordering the heads of 
the FBI, IRS, and CIA to harass his political enemies.
    In the present circumstance, the President is engaged in a 
pattern of abusing the trust placed in him by the American 
people by soliciting foreign countries, including China, 
Russia, and Ukraine to investigate his political opponents and 
interfere on his behalf in elections in which he is a 
candidate.
    The third article approved against President Nixon charged 
that he had failed to comply with four legislative subpoenas. 
In the present circumstance, the President has refused to 
comply with and directed at least ten others in his 
administration not to comply with lawful congressional 
subpoenas, including Secretary of State Mike Pompeo, Energy 
Secretary Rick Perry, and acting chief of staff and head of the 
Office of Management and Budget Mick Mulvaney.
    As Senator Lindsey Graham, now chair of the Senate 
Judiciary Committee, said, when he was a Member of the House on 
the verge of impeaching President Clinton, ``The day Richard 
Nixon failed to answer that subpoena is the day he was subject 
to impeachment because he took the power from Congress over the 
impeachment process away from Congress and he became the judge 
and jury.'' That is a perfectly good articulation of why 
obstruction of Congress is impeachable.
    The President's defiance of Congress is all the more 
troubling due to the rationale he claims for his obstruction. 
His arguments and those of his subordinates, including his 
White House counsel, in his October 8th letter to the Speaker 
and three committee chairs, boils down to the assertion that he 
is above the law.
    I won't reread that letter here, but I do want to disagree 
with the characterization in the letter of these proceedings, 
since the Constitution expressly says, and the Supreme Court 
has unanimously affirmed, that the House has the sole power of 
impeachment that like the Senate the House has the power to 
determine the rules for its proceedings.
    The President and his subordinates have argued further that 
the President is entitled to absolute immunity from criminal 
procedure, even investigation for any criminal wrongdoing, 
including shooting someone on 5th Avenue. The President has 
claimed further he's entitled to absolute executive privilege 
not to share any information he doesn't want to share with 
another branch.
    He's also claimed the entitlement to be able to order the 
executive branch--as he's done--not to cooperate with this body 
when it conducts an investigation of the President. If left 
unchecked, the President will likely continue his pattern of 
soliciting foreign interference on behalf of the next election 
and, of course, his obstruction of Congress.
    The fact that we can easily transpose the articles of 
impeachment against President Nixon onto the actions of this 
President speaks volumes, and that does not even include the 
most serious national security concerns and election 
interference concerns at the heart of this President's 
misconduct.
    No misconduct is more antithetical to our democracy, and 
nothing injures the American people more than a President who 
uses his power to weaken their authority under the Constitution 
as well as the authority of the Constitution itself.
    May I read one more sentence or--I'm sorry.
    Chairman Nadler. The witness may have another sentence or 
two.
    Mr. Gerhardt. Thank you. If Congress fails to impeach here 
then the impeachment process has lost all meaning, and along 
with that our Constitution's carefully crafted safeguards 
against the establishment of a king on American soil. And, 
therefore, I stand with the Constitution, and I stand with the 
Framers who were committed to ensure that no one is above the 
law.
    [The statement of Mr. Gerhardt follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. Thank you, Professor.
    Professor Turley.

             TESTIMONY OF PROFESSOR JONATHAN TURLEY

    Mr. Turley. Thank you. Chairman Nadler, Ranking Member 
Collins, members of the Judiciary Committee, it's an honor to 
appear before you today to discuss one of the most 
consequential functions you were given by the Framers, and that 
is the impeachment of a President of the United States.
    Twenty-one years ago I sat before you, Chairman Nadler, and 
this committee, to testify at the impeachment of President 
William Jefferson Clinton. I never thought that I would have to 
appear a second time to address the same question with regard 
to another sitting President, yet here we are.
    The elements are strikingly similar. The intense rancor and 
rage of the public debate is the same. The atmosphere that the 
Framers anticipated, the stifling intolerance of opposing 
views, is the same. I'd like to start therefore, perhaps 
incongruously, by stating an irrelevant fact: I'm not a 
supporter of President Trump. I voted against him. My personal 
views of President Trump are as irrelevant to my impeachment 
testimony as they should be to your impeachment vote.
    President Trump will not be our last President. And what we 
leave in the wake of this scandal will shape our democracy for 
generations to come. I'm concerned about lowering impeachment 
standards to fit a paucity of evidence and an abundance of 
anger. I believe this impeachment not only fails to satisfy the 
standard of past impeachments but would create a dangerous 
precedent for future impeachments.
    My testimony lays out the history of impeachment from early 
English cases to colonial cases to the present day. The early 
impeachments were raw political exercises using fluid 
definitions of criminal and noncriminal acts. When the Framers 
met in Philadelphia they were quite familiar with impeachment 
and its abuses, including the Hastings case, which was 
discussed in the convention, a case that was still pending for 
trial in England.
    Unlike the English impeachments, the American model was 
more limited not only in its application to judicial and 
executive officials but its grounds. The Framers rejected a 
proposal to add maladministration because Madison objected that 
so vague a term would be equivalent to a tenure during the 
pleasure of the Senate.
    In the end, various standards that had been used in the 
past were rejected, corruption, obtaining office by improper 
means, betraying the trust of a foreign--to a foreign power, 
negligence, perfidy, peculation, and oppression. Perfidy, or 
lying, and peculation, self-dealing, are particularly 
irrelevant to our current controversy.
    My testimony explores the impeachment cases of Nixon, 
Johnson, and Clinton. The closest of these three cases is to 
the 1868 impeachment of Andrew Johnson. It is not a model or an 
association that this committee should relish. In that case, a 
group of opponents of the Presidents, called the ``Radical 
Republicans,'' created a trap-door crime in order to impeach 
the President. They even defined it as a high misdemeanor.
    There was another shared aspect besides the atmosphere of 
that impeachment and also the unconventional style of the two 
Presidents, and that shared element is speed. This impeachment 
would rival the Johnson impeachment as the shortest in history, 
depending on how one counts the relevant days.
    Now, there are three distinctions when you look at these--
or three commonalties when you look at these past cases. All 
involved established crimes. This would be the first 
impeachment in history where there would be considerable 
debate, and in my view, not compelling evidence of the 
commission of a crime.
    Second, is the abbreviated period of this investigation, 
which is problematic and puzzling. This is a facially 
incomplete and inadequate record in order to impeach a 
President.
    Allow me to be candid in my closing remarks because we have 
limited time. We are living in the very period described by 
Alexander Hamilton, a period of agitated passions. I get it. 
You're mad. The President is mad. My Republican friends are 
mad. My Democratic friends are mad. My wife is mad. My kids are 
mad. Even my dog seems mad, and Luna is a Goldendoodle and they 
don't get mad.
    So we're all mad. Where has that taken us? Will a slip-shot 
impeachment make us less mad? Will it only invite an invitation 
for the madness to follow every future administration? That is 
why this is wrong. It's not wrong because President Trump is 
right. His call was anything but perfect. It's not wrong 
because the House has no legitimate reason to investigate the 
Ukrainian controversy. It's not wrong because we're in an 
election year. There is no good time for an impeachment.
    No, it's wrong because this is not how you impeach an 
American President. This case is not a case of the unknowable. 
It's a case of the peripheral. We have a record of conflicts, 
defenses that have not been fully considered, un-subpoenaed 
witness with material evidence.
    To impeach a President on this record would expose every 
future President to the same type of inchoate impeachment. 
Principle often takes us to a place we would prefer not to be. 
That was the place seven Republicans found themselves in the 
Johnson trial when they saved a President from acquittal that 
they despised. For generations they even celebrated his 
profiles of courage.
    Senator Edmund Ross said it was like looking down into his 
open grave, and then he jumped because he didn't have any 
alternative. It's easy to celebrate those people from the 
distance of time and circumstance in an age of rage. It's 
appealing to listen to those saying, forget the definitions of 
crimes. Just do it, like this is some impulse buy Nike sneaker.
    You can certainly do that. You can declare the definitions 
of crimes alleged are immaterial and just an exercise of 
politics, not the law. However, those legal definitions and 
standards, which I've addressed in my testimony, are the very 
thing that divide rage from reason.
    This all brings up to me--and I will conclude with this--of 
a scene from ``A Man for All Seasons'' by--with Sir Thomas More 
when his son-in-law, William Roper, put the law--suggested that 
More was putting the law ahead of morality.
    He said, More would give the devil the benefit of the law. 
When More asks Roper would he instead cut a great road through 
the law to get after the devil? Roper proudly declares, yes, 
I'd cut down every law of England to do that. More responds, 
and when the last law is cut down and the devil turned around 
on you, where would you hide, Roper, all the laws being flat?
    He said, this country is planted thick with laws from coast 
to coast, man's laws, not God's. And if you cut them down, and 
you're just the man to do it, do you really think you could 
stand upright in the winds that would blow then? And he 
finished by saying, yes, I'd give the devil the benefit of the 
law for my own sake.
    So I will conclude with this: Both sides of this 
controversy have demonized the other to justify any measure in 
their defense, much like Roper. Perhaps that's the saddest part 
of all of this. We have forgotten the common article of faith 
that binds each of us to each other in our Constitution.
    However, before we cut down the tree so carefully planted 
by the Framers, I hope you will consider what you will do when 
the wind blows again, perhaps for a Democratic President. Where 
will you stand then when all the laws being flat?
    Thank you again for the honor of testifying today, and I'd 
be happy to answer any questions.
    [The statement of Mr. Turley follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Nadler. I thank the witnesses.
    Mr. Reschenthaler. Mr. Chairman, I seek recognition.
    Chairman Nadler. Who seeks recognition?
    Mr. Reschenthaler. Me, Mr. Chairman.
    Chairman Nadler. For what purpose does the gentleman seek 
recognition?
    Mr. Reschenthaler. Mr. Chairman, I have a motion pursuant 
to Rule 11, specifically 2(k)(6), I move to subpoena the 
individual commonly referred to as the whistleblower. I ask to 
do this in executive session----
    Chairman Nadler. The gentleman has stated his motion. Do I 
hear a motion to table?
    Ms. Lofgren. I move to table the motion.
    Chairman Nadler. The motion is tabled.
    All in favor say aye.
    Opposed no.
    The motion to table----
    Mr. Reschenthaler. Mr. Chairman, roll call vote.
    Chairman Nadler [continuing]. Is approved. The roll call is 
requested.
    The clerk will call the roll.
    Ms. Strasser. Mr. Nadler?
    Chairman Nadler. Aye.
    Ms. Strasser. Mr. Nadler votes aye.
    Ms. Lofgren?
    Ms. Lofgren. Aye.
    Ms. Strasser. Ms. Lofgren votes aye.
    Ms. Jackson Lee?
    Ms. Jackson Lee. Aye.
    Ms. Strasser. Ms. Jackson Lee votes aye.
    Mr. Cohen?
    Mr. Cohen. Aye.
    Ms. Strasser. Mr. Cohen votes aye.
    Mr. Johnson of Georgia?
    Mr. Johnson of Georgia. Aye.
    Ms. Strasser. Mr. Johnson of Georgia votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Strasser. Mr. Deutch votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Strasser. Ms. Bass votes aye.
    Mr. Richmond?
    Mr. Richmond. Aye.
    Ms. Strasser. Mr. Richmond votes aye.
    Mr. Jeffries?
    Mr. Jeffries. Aye.
    Ms. Strasser. Mr. Jeffries votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Strasser. Mr. Cicilline votes aye.
    Mr. Swalwell?
    Mr. Swalwell. Aye.
    Ms. Strasser. Mr. Swalwell votes aye.
    Mr. Lieu?
    Mr. Lieu. Aye.
    Ms. Strasser. Mr. Lieu votes aye.
    Mr. Raskin?
    Mr. Raskin. Aye.
    Ms. Strasser. Mr. Raskin votes aye.
    Ms. Jayapal?
    Ms. Jayapal. Aye.
    Ms. Strasser. Ms. Jayapal votes aye.
    Mrs. Demings?
    Mrs. Demings. Aye.
    Ms. Strasser. Mrs. Demings votes aye.
    Mr. Correa?
    Mr. Correa. Aye.
    Ms. Strasser. Mr. Correa votes aye.
    Ms. Scanlon?
    Ms. Scanlon. Aye.
    Ms. Strasser. Ms. Scanlon votes aye.
    Ms. Garcia?
    Ms. Garcia. Aye.
    Ms. Strasser. Ms. Garcia votes aye.
    Mr. Neguse?
    Mr. Neguse. Aye.
    Ms. Strasser. Mr. Neguse votes aye.
    Mrs. McBath?
    Mrs. McBath. Aye.
    Ms. Strasser. Mrs. McBath votes aye.
    Mr. Stanton?
    Mr. Stanton. Aye.
    Ms. Strasser. Mr. Stanton votes aye.
    Ms. Dean?
    Ms. Dean. Aye.
    Ms. Strasser. Ms. Dean votes aye.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. Aye.
    Ms. Strasser. Ms. Mucarsel-Powell votes aye.
    Ms. Escobar?
    Ms. Escobar. Aye.
    Ms. Strasser. Ms. Escobar votes aye.
    Mr. Collins?
    [No response.]
    Ms. Strasser. Mr. Sensenbrenner?
    [No response.]
    Ms. Strasser. Mr. Chabot?
    Mr. Chabot. No.
    Ms. Strasser. Mr. Chabot votes no.
    Mr. Gohmert?
    Mr. Gohmert. No.
    Ms. Strasser. Mr. Gohmert votes no.
    Mr. Jordan?
    Mr. Jordan. No.
    Ms. Strasser. Mr. Jordan votes no.
    Mr. Buck?
    Mr. Buck. No.
    Ms. Strasser. Mr. Buck votes no.
    Mr. Ratcliffe?
    Mr. Ratcliffe. No.
    Ms. Strasser. Mr. Ratcliffe votes no.
    Mrs. Roby?
    Mrs. Roby. No.
    Ms. Strasser. Mrs. Roby votes no.
    Mr. Gaetz?
    Mr. Gaetz. No.
    Ms. Strasser. Mr. Gaetz votes no.
    Mr. Johnson of Louisiana?
    Mr. Johnson of Louisiana. No.
    Ms. Strasser. Mr. Johnson of Louisiana votes no.
    Mr. Biggs?
    Mr. Biggs. No.
    Ms. Strasser. Mr. Biggs votes no.
    Mr. McClintock?
    Mr. McClintock. No.
    Ms. Strasser. Mr. McClintock votes no.
    Mrs. Lesko?
    Mrs. Lesko. No.
    Ms. Strasser. Mrs. Lesko votes no.
    Mr. Reschenthaler?
    Mr. Reschenthaler. No.
    Ms. Strasser. Mr. Reschenthaler votes no.
    Mr. Cline?
    Mr. Cline. No.
    Ms. Strasser. Mr. Cline votes no.
    Mr. Armstrong?
    Mr. Armstrong. No.
    Ms. Strasser. Mr. Armstrong votes no.
    Mr. Steube?
    Mr. Steube. No.
    Ms. Strasser. Mr. Steube votes no.
    Chairman Nadler. Has everyone voted who wishes to vote?
    Mr. Collins. Mr. Chairman, how am I recorded?
    Ms. Strasser. Mr. Collins, you are not recorded.
    Mr. Collins. No.
    Ms. Strasser. Mr. Collins votes no.
    Chairman Nadler. Is there anyone else who wishes to vote?
    Mr. Sensenbrenner. Mr. Chairman, how am I recorded?
    Ms. Strasser. Mr. Sensenbrenner, you are not recorded.
    Mr. Sensenbrenner. No.
    Ms. Strasser. Mr. Sensenbrenner votes no.
    Chairman Nadler. Anyone else?
    The clerk will report.
    Ms. Strasser. Mr. Chairman, there are 24 ayes and 17 noes.
    Chairman Nadler. The motion to table is adopted.
    We will now proceed to the first round of questions.
    Pursuant to House Resolution 660 and its accompanying 
Judiciary Committee procedures, there will be 45 minutes of 
questions conducted by the chairman or majority counsel 
followed by 45 minutes for the ranking member or minority 
counsel. Only the chair and ranking member and their respective 
counsels may question witnesses during this period.
    Following that, unless I specify additional equal time for 
extended questioning, we will proceed under the 5-minute rule, 
and every member will have the chance to ask questions.
    I now recognize myself for the first round of questions.
    Professors, thank you for being here today. The committee 
has been charged with the grave responsibility of considering 
whether to recommend articles of impeachment against the 
President. I speak for my colleagues when I say that we do not 
take this lightly and we are committed to ensuring that today's 
hearing, as well as the larger responsibility before us, are 
grounded in the Constitution.
    The Intelligence Committee's report concluded that the 
President pressured a foreign leader to interfere in our 
elections by initiating and announcing investigations into 
President Trump's political adversaries. He then sought to 
prevent Congress from investigating his conduct by ordering his 
administration and everyone in it to defy House subpoenas.
    Professor Karlan, as you said, the right to vote is the 
most precious legal right we have in this country. Does the 
President's conduct endanger that right?
    Ms. Karlan. Yes, Mr. Chairman, it does.
    Chairman Nadler. Thank you. And how does it do so?
    Ms. Karlan. The way that it does it is exactly what 
President Washington warned about, by inviting a foreign 
government to influence our elections. It takes the right away 
from the American people and it turns that into a right that 
foreign governments decide to interfere for their own benefit. 
Foreign governments don't interfere in our elections to benefit 
us; they intervene to benefit themselves.
    Chairman Nadler. Thank you.
    Professor Gerhardt, you have written extensively about our 
system of checks and balances. What happens to that system when 
a President undertakes a blockade of Congress' impeachment 
inquiry when he orders all witnesses not to testify, and what 
is our recourse?
    Mr. Gerhardt. When a President does that separation of 
powers means nothing. The subpoenas that have been issued, of 
course, are lawful orders. In our law schools we would teach 
our students, this is an easy, straightforward situation. You 
comply with the law. Lawyers all the time have to comply with 
subpoenas.
    But in this situation the full-scale obstruction, full-
scale obstruction of those subpoenas, I think, torpedoes 
separation of powers, and therefore your only recourse is to, 
in a sense, protect your institutional prerogatives, and that 
would include impeachment.
    Chairman Nadler. And the same is true of defying 
congressional subpoenas on a wholesale basis with respect to 
oversight not just through impeachment?
    Mr. Gerhardt. Absolutely, yes, sir.
    Chairman Nadler. Thank you.
    Professor Feldman, as I understand it, the Framers intended 
impeachment to be used infrequently, not as punishment, but to 
save our democracy from threats so significant that we cannot 
wait for the next election. In your testimony you suggest that 
we face that kind of threat. Can you explain why you think 
impeachment is the appropriate recourse here, why we cannot 
wait for the next election?
    Those are two questions if you want them to be.
    Mr. Feldman. The Framers reserved impeachment for 
situations where the President abused his office, that is, used 
it for his personal advantage. And, in particular, they were 
specifically worried about a situation where the President used 
his office to facilitate corruptly his own reelection. That's, 
in fact, why they thought they needed impeachment and why 
waiting for the next election wasn't good enough.
    On the facts that we have before the House right now, the 
President solicited assistance from a foreign government in 
order to assist his own reelection; that is, he used the power 
of his office that no one else could possibly have used in 
order to gain personal advantage for himself distorting the 
election, and that's precisely what the Framers anticipated.
    Chairman Nadler. Thank you very much.
    I now yield the remainder of my time to Mr. Eisen for 
counsel questions.
    Mr. Eisen.
    Mr. Eisen. Professors, good morning. Thank you for being 
here. I want to ask you some questions about the following high 
crimes and misdemeanors that were mentioned in the opening 
statements: Abuse of power and bribery, obstruction of 
Congress, and obstruction of justice.
    Professor Feldman, what is abuse of power?
    Mr. Feldman. Abuse of power is when the President uses his 
office, takes an action that is part of the presidency, not to 
serve the public interest but to serve his private benefit. 
And, in particular, it's an abuse of power if he does it to 
facilitate his reelection or to gain an advantage that is not 
available to anyone who is not the President.
    Mr. Eisen. Sir, why is that impeachable conduct?
    Mr. Feldman. If the President uses his office for personal 
gain, the only recourse available under the Constitution is for 
him to be impeached because the President cannot be, as a 
practical matter, charged criminally while he is in office 
because the Department of Justice works for the President. So 
the only mechanism available for a President who tries to 
distort the electoral process for personal gain is to impeach 
him. That is why we have impeachment.
    Mr. Eisen. Professor Karlan, do scholars of impeachment 
generally agree that abuse of power is an impeachable offense?
    Ms. Karlan. Yes, they do.
    Mr. Eisen. Professor Gerhardt, do you agree that abuse of 
power is impeachable?
    Mr. Gerhardt. Yes, sir.
    Mr. Eisen. I'd like to focus the panel on the evidence they 
considered and the findings in the Intelligence Committee 
report that the President solicited the interference of a 
foreign government, Ukraine, in the 2020 U.S. presidential 
election.
    Professor Feldman, did President Trump commit the 
impeachable high crime and misdemeanor of abuse of power based 
on that evidence and those findings?
    Mr. Feldman. Based on that evidence and those findings, the 
President did commit an impeachable abuse of office.
    Mr. Eisen. Professor Karlan, same question.
    Ms. Karlan. Same answer.
    Mr. Eisen. And, Professor Gerhardt, did President Trump 
commit the impeachable high crime and misdemeanor of abuse of 
power?
    Mr. Gerhardt. We three are unanimous, yes.
    Mr. Eisen. Professor Feldman, I'd like to quickly look at 
the evidence in the report. On July 25th, President Trump told 
the President of Ukraine, and I quote, ``I would like you to do 
us a favor though,'' and he asked about looking into the 
Bidens. Was the memorandum of that call relevant to your 
opinion that the President committed abuse of power?
    Mr. Feldman. The memorandum of that call between the two 
Presidents is absolutely crucial to the determination--to my 
determination that the President abused his office.
    Mr. Eisen. And did you consider the findings of fact that 
the Intelligence Committee made, including that--and again I 
quote--the President withheld official acts of value to Ukraine 
and conditioned their fulfilment on actions by Ukraine that 
would benefit his personal political interests?
    Mr. Feldman. Yes. In making the determination that the 
President committed an impeachable offense, I relied on the 
evidence that was before the House and the testimony. And then 
when this report was issued, I continued to rely on that.
    Mr. Eisen. Sir, did you review the following testimony from 
our Ambassador to Ukraine, Ambassador William Tayleur?
    [Video played.]
    Mr. Feldman. Yes, that evidence underscored the way that 
the President's actions undercut national security.
    Mr. Eisen. Professor Feldman, will you please explain why 
you concluded that the President committed the high crime of 
abuse of power and why it matters?
    Mr. Feldman. The abuse of power occurs when the President 
uses his office for personal advantage or gain. That matters 
fundamentally to the American people, because if we cannot 
impeach a President who abuses his office for personal 
advantage, we no longer live in a democracy; we live in a 
monarchy or we live under a dictatorship. That's why the 
Framers created the possibility of impeachment.
    Mr. Eisen. Now, Professor Karlan, this high crime and 
misdemeanor of abuse of power, was it some kind of loose or 
undefined concept to the founders of our country and the 
Framers of our Constitution?
    Ms. Karlan. No, I don't think it was an--it was a loose 
concept at all. It had a long lineage in the common law in 
England of parliamentary impeachments of lower-level officers. 
Obviously they had not talked about impeaching, as you've heard 
earlier, the king or the like.
    Mr. Eisen. And can you share a little bit about that 
lineage, please?
    Ms. Karlan. Yes. So the--you know, the parliament in 
England impeached officers of the crown when those people 
abused their power, and if I could give you one example that 
might be a little helpful here.
    Right after the restoration of the kingship in England, 
there was an impeachment. And, you know, when they impeach 
somebody, they had to say what were they impeaching him for. So 
sometimes it would be, we're impeaching him for treason or the 
like, and sometimes they would use the phrase ``high crime or 
misdemeanor.''
    And there was an impeachment of Viscount Mordaunt, which is 
a great name to have, but Viscount Mordaunt, and he was 
impeached because he was the sheriff of Windsor. And as the 
parliamentary election was coming up, he arrested William 
Tayleur. And I just want to read to you from the article of 
impeachment in front of the House of Commons because it's so 
telling.
    Here's what article I of the impeachment said. It said, 
understanding that one William Tayleur did intend to stand for 
the election of one of the burgesses of the Borough of Windsor 
to serve in this present parliament--in other words, he was 
running as a member of parliament, this is what Viscount 
Mordaunt did--to disparage and prevent the free election of the 
said William Tayleur and strike a terror into those of the said 
borough which should give their voices for him and deprive them 
of the freedom of their voices at the election, Viscount 
Mordaunt did command and cause the said William Tayleur to be 
forcibly, illegally, and arbitrarily seized upon by soldiers, 
and then he detained him. In other words, he went after a 
political opponent, and that was a high crime or misdemeanor to 
use your office to go after a political opponent.
    Mr. Eisen. Now, Professor Gerhardt, does a high crime and 
misdemeanor require an actual statutory crime?
    Mr. Gerhardt. No. It plainly does not. Everything we know 
about the history of impeachment reinforces the conclusion that 
impeachable offenses do not have to be crimes. And, again, not 
all crimes are impeachable offenses. We look, again, at the 
context and gravity of the misconduct.
    Mr. Eisen. And, Professor Turley, you recently wrote in the 
Wall Street Journal, and I quote, ``There is much that is 
worthy of investigation in the Ukraine scandal, and it is true 
that impeachment doesn't require a crime.''
    Mr. Turley. That's true, but I also added an important 
caveat. First of all----
    Mr. Eisen. Sir, it was a yes or a no question. Did you 
write in the Wall Street Journal, ``There is much that is 
worthy of investigation in the Ukraine scandal, and it is true 
that impeachment does not require a crime''?
    Is that an accurate quote, sir?
    Mr. Turley. That's--you read it well.
    Mr. Eisen. So, Professors Feldman, Karlan, and Gerhardt, 
you have identified that on the evidence here there is an 
impeachable act, a high crime and misdemeanor of abuse of 
power, correct?
    Mr. Gerhardt. Correct.
    Ms. Karlan. Yes.
    Mr. Feldman. Yes.
    Mr. Eisen. And, Professor Feldman, what does the 
Constitution say is the responsibility of the House of 
Representatives in dealing with presidential high crimes and 
misdemeanors like abuse of power?
    Mr. Feldman. The Constitution gives the House of 
Representatives the sole power of impeachment. That means the 
House has the right and the responsibility to investigate 
presidential misconduct and, where appropriate, to create and 
pass articles of impeachment.
    Mr. Eisen. And, Professor Karlan, what does that 
responsibility mean for this committee with respect to 
President Trump's abuse of power?
    Ms. Karlan. Well, because this is an abuse that cuts to the 
heart of democracy, you need to ask yourselves, if you don't 
impeach a President who has done what this President has done, 
or at least you don't investigate and then impeach if you 
conclude that the House Select Committee on Intelligence 
findings are correct, then what you're saying is it's fine to 
go ahead and do this again.
    And I think that as the--you know, in the report that came 
out last night, the report talks about the clear and present 
danger to the elections system. And it's your responsibility to 
make sure that all Americans get to vote in a free and fair 
election next November.
    Mr. Eisen. Professor Karlan, I'd like to direct you to the 
words in the Constitution, other high crimes and misdemeanors. 
And we're still going to talk about abuse of power. Can I ask, 
did the Constitution spell out every other high crime and 
misdemeanor?
    Ms. Karlan. No, it did not. It----
    Mr. Eisen. Why--please. Please answer.
    Ms. Karlan. Well, in part because they recognize that the 
inventiveness of man and the likelihood that this Constitution 
would endure for generations meant they couldn't list all of 
the crimes that might be committed. They couldn't imagine an 
abuse of power, for example, that involved burglarizing and 
stealing computer files from an adversary because they couldn't 
have imagined computers. They couldn't necessarily have 
imagined wiretapping because we had no wires in 1789.
    So what they did is they put in a phrase that the English 
had used and had adapted over a period of centuries to take 
into account that the idea of high crimes and misdemeanors is 
to get at things that people in office use to strike at the 
very heart of our democracy.
    Mr. Eisen. And, Professor, in your written testimony you 
mention two additional aspects of high crimes and misdemeanors 
besides abuse of power. You talked about betrayal of the 
national interest and corruption of the electoral process.
    And can you say a little bit more about what the Framers' 
concerns were about corruption of elections and betrayal of the 
national interest involving foreign powers and how they come 
into play here.
    Ms. Karlan. Sure. So let me start with the Framers and what 
they were concerned with and then bring it up to date, because 
I think there's some modern stuff as well that's important. So 
the Framers were very worried that elections could be 
corrupted, they could be corrupted in a variety of different 
ways, and they spent a lot of time trying to design an election 
system that wouldn't be subject to that kind of corruption.
    And there are a number of different provisions in the 
Constitution that deal with the kinds of corruption they were 
worried about, two that I'd just like to highlight here because 
I think they go to this idea about the national interest and 
foreign governments, are one that seems today I think to most 
of us to be really a kind of remnant of a past time, which is 
if you become an American citizen, almost everything in this 
country is open to you.
    You can become Chief Justice of the United States. You can 
become Secretary of State. But the one office that's not open 
to you, even though you're a citizen just like all of the rest 
of us, is the presidency because of the natural-born citizen 
clause of the Constitution. And the reason they put that in is 
they were so worried about foreign influence over a President.
    The other clause, which, you know, probably no one had 
heard of, you know, 5 years ago but now everybody talks about 
is the Emoluments Clause. They were really worried that the 
President, because he was only going to be in office for a 
little while, would use it to get everything he could and he 
would take gifts from foreign countries, not even necessarily 
bribes but just gifts, and they were worried about that as 
well.
    So they were very concerned about those elections. But it's 
not just them. And I want to say something about what our 
national interest is today, because our national interest today 
is different in some important ways than it was in 1789. What 
the Framers were worried about was that we would be a weak 
country and we could be exploited by foreign countries.
    Now, we're a strong power now, the strongest power in the 
world. We can still be exploited by foreign countries. But the 
other thing that we've done--and this is one of the things that 
I think we as Americans should be proudest of--is we have 
become what John Winthrop said in his sermon in 1640 and what 
Ronald Reagan said in his final address to the country as he 
left office, we have become the shining city on a hill. We have 
become the Nation that leads the world in understanding what 
democracy is.
    And one of the things we understand most profoundly is, 
it's not a real democracy, it's not a mature democracy if the 
party in power uses the criminal process to go after its 
enemies.
    And I think you heard testimony that--the Intelligence 
Committee heard testimony about how it isn't just our national 
interest in protecting our own elections, it's not just our 
national interest in making sure that the Ukraine remains 
strong and on the front lines so they fight the Russians there 
and we don't have to fight them here, but it's also our 
national interest in promoting democracy worldwide.
    And if we look hypocritical about this, if we look like 
we're asking other countries to interfere in our election, if 
we look like we're asking other countries to engage in criminal 
investigations of our President's political opponents, then we 
are not doing our job of promoting our national interest in 
being that shining city on a hill.
    Mr. Eisen. Professor Feldman, anything to add?
    Mr. Feldman. Ultimately, the reason that the Constitution 
provided for impeachment was to anticipate a situation like the 
one that is before you today. The Framers were not prophets, 
but they were very smart people with a very sophisticated 
understanding of human incentives.
    And they understood that a President would be motivated 
naturally to try to use the tremendous power of office to gain 
personal advantage to keep himself in office, to corrupt the 
electoral process, and potentially to subvert the national 
interest.
    The facts strongly suggest that this is what President 
Trump has done, and under those circumstances, the Framers 
would expect the House of Representatives to take action in the 
form of impeachment.
    Mr. Eisen. And, Professor Feldman, did you review the 
Intelligence Committee report finding that President Trump 
compromised national security to advance his personal political 
interests?
    Mr. Feldman. I did.
    Mr. Eisen. And will you explain, in your view, how that 
happened?
    Mr. Feldman. The President sought personal gain and 
advantage by soliciting the announcement of investigations, and 
presumably investigations, from Ukraine, and to do so he 
withheld critical assistance that the Government of Ukraine 
needed, and by doing so, he undermined the national security 
interest of the United States in helping Ukraine, our ally, in 
a war that it is fighting against Russia.
    So in the simplest possible terms, the President put his 
personal gain ahead of the national security interest as 
expressed, according to the evidence before you, by the 
entirety of a unanimous national security community.
    Mr. Eisen. Sir, is it your view that the Framers would 
conclude that there was a betrayal of the national interest or 
national security by President Trump on these facts?
    Mr. Feldman. In my view, if the Framers were aware that a 
President of the United States had put his personal gain and 
interest ahead of the national security of the United States by 
conditioning aid to a crucial ally that's in the midst of a war 
on investigations aimed at his own personal gain, they would 
certainly conclude that that was an abuse of the office of the 
presidency, and they would conclude that that conduct was 
impeachable under the Constitution.
    Mr. Eisen. Professor Gerhardt, what are your thoughts on 
the abuse of power, betrayal of national security or national 
interest, and the corruption of elections, sir?
    Mr. Gerhardt. Well, I have a lot of thoughts. One of them 
is that what we haven't mentioned yet and brought into this 
conversation is the fact that the impeachment power requires 
this committee, this House to be able to investigate 
presidential misconduct.
    And if a President can block an investigation, undermine 
it, stop it, then the impeachment power itself as a check 
against misconduct is undermined completely.
    Mr. Eisen. And, Professor Karlan, can you have an 
impeachable offense of abuse of power that is supported by 
considerations of a President's betrayal of the national 
interest or national security and by corruption of elections?
    Ms. Karlan. Yes, you can.
    Mr. Eisen. And do we have that here, ma'am?
    Ms. Karlan. Based on the evidence that I've seen, which is 
reviewing the twelve--the transcripts of the twelve witnesses 
who testified, looking at the call readout, looking at some of 
the President's other statements, looking at the statement by 
Mr. Mulvaney and the like, yes, we do.
    Mr. Eisen. And, Professor Feldman, do you agree?
    Mr. Feldman. Yes.
    Mr. Eisen. Professor Gerhardt?
    Mr. Gerhardt. Yes, I do.
    Mr. Eisen. Professor Karlan, we've been talking about the 
category of other high crimes and misdemeanors, like abuse of 
power. But there are some additional high crimes and 
misdemeanors that are specifically identified in the text of 
the Constitution, correct?
    Ms. Karlan. Yes, that's true.
    Mr. Eisen. What are they?
    Ms. Karlan. Treason and bribery.
    Mr. Eisen. Do President Trump's demands on Ukraine also 
establish the high crime of bribery?
    Ms. Karlan. Yes, they do.
    Mr. Eisen. Can you explain why, please?
    Ms. Karlan. Sure. So the high crime or misdemeanor of 
bribery, I think it's important to distinguish that from 
whatever the U.S. Code calls bribery today. And the reason for 
this in part is because in 1789 when the Framers were writing 
the Constitution, there was no Federal Criminal Code.
    The first bribery statutes that the United States Congress 
passed would not have reached a President at all because the 
first one was just about customs officials, and the second one 
was only about judges.
    So it wasn't until, I don't know, 60 years or so after the 
Constitution was ratified that we had any general Federal crime 
of bribery at all. So when they say explicitly in the 
Constitution that the President can be impeached and removed 
from office for bribery, they weren't referring to a statute. 
And I will say, I'm not an expert on Federal--substantive 
Federal criminal law. All I will say here is, the bribery 
statute is a very complicated statute.
    So what they were thinking about was bribery as it was 
understood in the 18th century based on the common law up until 
that point. And that understanding was an understanding that 
someone--and generally even then it was mostly talking about a 
judge, it wasn't talking about a President because there was no 
President before then.
    And it wasn't talking about the king because the king could 
do no wrong. But what they were understanding then was the idea 
that when you took private benefits or when you asked for 
private benefits in return for an official act, or somebody 
gave them to you to influence an official act, that was 
bribery.
    Mr. Eisen. And so we have constitutional bribery here, the 
high crime and misdemeanor of constitutional bribery against 
President Trump?
    Ms. Karlan. If you conclude that he asked for the 
investigation of Vice President Biden and his son for political 
reasons, that is to aid his reelection, then, yes, you have 
bribery here.
    Mr. Eisen. And in forming that opinion, did you review the 
memorandum of the President's telephone call with the Ukrainian 
President, the one where President Trump asked, ``I would like 
you to do us a favor though,'' and also asked about looking 
into his U.S. political opponents?
    Ms. Karlan. Yes, I did rely on that.
    Mr. Eisen. And did you consider the following testimony 
from our Ambassador to the European Union, Ambassador Sondland?
    [Video played.]
    Mr. Eisen. Did you consider that, Professor?
    Ms. Karlan. I did consider that, yes.
    Mr. Eisen. And did you also consider the findings of fact 
that the Intelligence Committee made including that, and I 
quote from finding of fact number five, ``The President 
withheld official acts of value to Ukraine and conditioned 
their fulfillment on actions by Ukraine that would benefit his 
personal political interests?
    Ms. Karlan. I did rely on that, in addition, because as 
I've already testified, I read the witnesses--the transcripts 
of all of the witnesses and the like, I relied on testimony 
from Ambassador Sondland and testimony from Mr. Morrison, 
testimony from Lieutenant Colonel Vindman, testimony for 
Ambassador Taylor.
    I relied on the fact that when--I think it was Ambassador 
Taylor, but I may be getting which one of these people wrong, 
sent the cable that said, you know, it's crazy to hold this up 
based on domestic political concern. No one wrote back and 
said, that's not why we're doing it. I relied on what Mr. 
Mulvaney said in his press conference. So there was--you know, 
there's a lot to suggest here that this is about political 
benefit. And I don't know if I can talk about another piece of 
Ambassador Sondland's testimony now or I should wait. Tell me.
    Mr. Eisen. Please, talk about it.
    Ms. Karlan. So I want to just point to what I consider to 
be the most striking example of this and the most--you know, I 
spent all of Thanksgiving vacation sitting there reading these 
transcripts. I didn't, you know--I ate like a turkey that came 
to us in the mail that was already cooked because I was 
spending my time doing this.
    And the most chilling line for me of the entire process was 
the following: Ambassador Sondland said, he had to announce the 
investigations. He's talking about President Zelensky. ``He had 
to announce the investigations. He didn't actually have to do 
them, as I understood it.'' And then he said, ``I never heard, 
Mr. Goldman, anyone say that the investigations had to start or 
had to be completed. The only thing I heard from Mr. Giuliani 
or otherwise was they had to be announced in some form.''
    And what I took that to mean was this was not about whether 
Vice President Biden actually committed corruption or not; this 
was about injuring somebody who the President thinks of as a 
particularly hard opponent. And that's for his private beliefs.
    Because if I can say one last thing about the interests of 
the United States: the Constitution of the United States does 
not care whether the next President of the United States is 
Donald J. Trump or any one of the Democrats or anybody running 
on a third party.
    The Constitution is indifferent to that. What the 
Constitution cares about is that we have free elections. And so 
it is only in the President's interest--It is not the national 
interest that a particular President be elected or be defeated 
at the next election. The Constitution is indifferent to that.
    Mr. Eisen. Professor Feldman, any thoughts on the subject 
of the high crime and misdemeanor of bribery and the evidence 
that Professor Karlan laid out?
    Mr. Feldman. The clear sense of bribery at the time when 
the Framers adopted this language in the Constitution was that 
bribery existed under the Constitution when the President 
corruptly asked for or received something of value to him from 
someone who could be affected by his official office.
    So if the House of Representatives and the members of this 
committee were to determine that getting the investigations 
either announced or undertaken was a thing of value to 
President Trump and that that was what he sought, then this 
committee and this House could safely conclude that the 
President had committed bribery under the Constitution.
    Mr. Eisen. Professor Gerhardt, what is your view?
    Mr. Gerhardt. I, of course, agree with Professor Karlan and 
Professor Feldman. And I just want to stress that if this--if 
what we're talking about is not impeachable, then nothing is 
impeachable. This is precisely the misconduct that the Framers 
created a constitution, including impeachment, to protect 
against.
    And if there's no action, if Congress concludes they're 
going to give a pass to the President here, as Professor Karlan 
suggested earlier, every other President will say, okay, then I 
can do the same thing and the boundaries will just evaporate, 
and those boundaries are set up by the Constitution. And we may 
be witnessing, unfortunately, their erosion, and that is a 
danger to all of us.
    Mr. Eisen. And what can this committee and the House of 
Representatives do, sir, to defend those boundaries and to 
protect against that erosion?
    Mr. Gerhardt. Precisely what you're doing.
    Mr. Eisen. And does it matter--I'll ask all the panelists--
does it matter to impeachment that the $391 million, U.S. 
taxpayer dollars in military assistance that the President 
withheld was ultimately delivered? Professor Feldman, does that 
matter to the question of impeachment?
    Mr. Feldman. No, it does not. If the President of the 
United States attempts to abuse his office, that is a complete 
impeachable offense. The possibility that the President might 
get caught in the process of attempting to abuse his office and 
then not be able to pull it off does not undercut in any way 
the impeachability of the act.
    If you'll pardon a comparison, President Nixon was subject 
to articles of impeachment preferred by this committee for 
attempting to cover up the Watergate break-in. The fact that 
President Nixon was not ultimately successful in covering up 
the break-in was not grounds for not impeaching him. The 
attempt itself is the impeachable act.
    Mr. Eisen. Professor Karlan, does it matter to impeachment 
that the unfounded investigations the President sought were 
ultimately never announced?
    Ms. Karlan. No, it doesn't. And if I could give an example 
that I think shows why soliciting is enough, imagine that you 
were pulled over for speeding by a police officer and the 
officer comes up to the window and says, you were speeding but, 
you know, if you give me 20 bucks I'll drop the ticket. And you 
look in your wallet and you say to the officer, I don't have 
the $20. And the officer says, okay, well, just go ahead. Have 
a nice day.
    The officer would still be guilty of soliciting a bribe 
there even though he ultimately let you off without your 
paying. Soliciting itself is the impeachable offense regardless 
whether the other person comes up with this.
    So imagine that the President had said, will you do us a 
favor, will you investigate Joe Biden, and the President of 
Ukraine said, you know what, no, I won't, because we've already 
looked into this and it's totally baseless. The President would 
still have committed an impeachable act even if he had been 
refused right there on the phone. So I don't see why the 
ultimate decision has anything to do with the President's 
impeachable conduct.
    Mr. Eisen. What's the danger if Congress does not respond 
to that attempt?
    Ms. Karlan. Well, we've already seen a little bit of it, 
which is he gets out on the White House lawn and says, ``China, 
I think you should investigate Joe Biden.''
    Mr. Eisen. And, Professor Gerhardt, your view?
    Mr. Gerhardt. I certainly would agree with what has been 
said. One of the things to understand from the history of 
impeachment is everybody who's impeached has failed. They 
failed to get what they wanted, and what they wanted was not 
just to do what they did but to get away with it.
    And the point of impeachment is, and it's made possible 
through investigation, is to catch that person, charge that 
person, and ultimately remove that person from office. But 
impeachments are always focusing on somebody who didn't quite 
get as far as they wanted to.
    You know, nobody is better than Professor Karlan at 
hypotheticals, but I'll dare to raise yet another one. Imagine 
a bank robbery and the police come and the person is in the 
middle of a bank robbery and the person then drops the money 
and says, I'm going to leave without the money. Everybody 
understands that's bur--that's rob--I mean that's burglary. 
I'll get it right, yeah. And in this situation, we've got 
somebody really caught in the middle of it, and that doesn't 
excuse the person from the consequences.
    Mr. Eisen. Professors, we've talked about abuse of power 
and bribery. When we started we said we would also discuss 
obstruction of Congress. So I'd like to ask you some questions 
about obstruction of Congress.
    Professor Gerhardt, in your view, is there enough evidence 
here to charge President Trump with the high crime and 
misdemeanor of obstruction of Congress?
    Mr. Gerhardt. I think there's more than enough. As I 
mentioned in my statement, just to really underscore this, the 
third article of impeachment approved by the House Judiciary 
Committee against President Nixon charged him with misconduct 
because he had failed to comply with four legislative 
subpoenas.
    Here it is far more than four that this President has 
failed to comply with, and he's ordered the executive branch as 
well not to cooperate with Congress. Those, together with a lot 
of other evidence, suggests obstruction of Congress.
    Mr. Eisen. Professor Karlan, do you agree?
    Ms. Karlan. I'm a scholar of the law of democracy, so as a 
citizen, I agree with what Professor Gerhardt said. As an 
expert, my limitation is that I'm a scholar of the law of 
democracy. I'm not a scholar of obstruction of justice or 
obstruction of Congress.
    Mr. Eisen. We will accept your opinion as a citizen.
    Professor Feldman.
    Mr. Feldman. The obstruction of Congress is a problem 
because it undermines the basic principle of the Constitution. 
If you're going to have three branches of government, each of 
the branches has to be able to do its job. The job of the House 
is to investigate impeachment and to impeach.
    A President who says, as this President did say, I will not 
cooperate in any way, shape, or form with your process, robs a 
coordinate branch of government, he robs the House of 
Representatives of its basic constitutional power of 
impeachment.
    When you add to that the fact that the same President says, 
my Department of Justice cannot charge me with a crime, the 
President puts himself above the law when he says he will not 
cooperate in an impeachment inquiry. I don't think it's 
possible to emphasize this strongly enough. A President who 
will not cooperate in an impeachment inquiry is putting himself 
above the law.
    Now, putting yourself above the law as President is the 
core of an impeachable offense because if the President could 
not be impeached for that, he would, in fact, not be 
responsible to anybody.
    Mr. Eisen. And, sir, in forming your opinion, did you 
review these statements from President Trump?
    [Video played.]
    Mr. Feldman. I did, and as someone who cares about the 
Constitution, the second of those in particular struck a kind 
of horror in me.
    Mr. Eisen. And, Professor Gerhardt, in forming your opinion 
that President Trump has committed the impeachable offense of 
obstruction of Congress, did you consider the Intelligence 
Committee report and its findings, including finding 9, that 
President Trump ordered and implemented a campaign to conceal 
his conduct from the public and to frustrate and obstruct the 
House of Representatives' impeachment inquiry?
    Mr. Gerhardt. I read that report last night after I had 
submitted my statement, but I watched and read all the other 
transcripts that were available. The report that was issued 
reinforces everything else that came before it, so, yes.
    Mr. Eisen. So we've talked first about abuse of power and 
bribery and then about obstruction of Congress. Professor 
Gerhardt, I'd like to now ask you some questions about a third 
impeachable offense and that is obstruction of justice. Sir, 
have you formed an opinion as to whether President Trump 
committed the impeachable offense of obstruction of justice?
    Mr. Gerhardt. Yes, I have.
    Mr. Eisen. And what is your opinion, sir?
    Mr. Gerhardt. Well, based on--so I've come here, like every 
other witness, assuming the facts that have been put together 
in official reports. The Mueller report cites a number of facts 
that indicate the President of the United States obstructed 
justice. And that's an impeachable offense.
    Mr. Eisen. And in your testimony, sir, you pointed out that 
the Mueller report found at least five instances of the 
President's obstruction of the Justice Department's criminal 
investigation into Russian interference in the 2016 election, 
correct?
    Mr. Gerhardt. Yes, sir.
    Mr. Eisen. And the first of those instances, was the 
President's ordering his then-White House counsel, Don McGahn, 
to fire the special counsel rather to have the special counsel 
fired in order to thwart the investigation of the President, 
correct?
    Mr. Gerhardt. That is correct.
    Mr. Eisen. And the second was the President ordering Mr. 
McGahn to create a false written record denying that the 
President had ordered him to have Mr. Mueller removed?
    Mr. Gerhardt. That's correct.
    Mr. Eisen. And you also point to the meeting of the 
President with his former campaign manager, Corey Lewandowski, 
in order to get him to take steps to have the investigation 
curtailed, right?
    Mr. Gerhardt. Yes, sir, I did.
    Mr. Eisen. And you also point to pardoned angling and 
witness tampering as to Paul Manafort and Michael Cohen, former 
campaign official, former personal lawyer of the President?
    Mr. Gerhardt. Both individually and collectively, these are 
evidence of obstruction of justice.
    Mr. Eisen. How serious is that evidence of obstruction of 
justice, sir?
    Mr. Gerhardt. It is quite serious, and that's not all of 
it, of course. And we know, as you've mentioned before and 
others have mentioned, obstruction of justice has been 
recognized as an impeachable offense both against President 
Clinton and President Nixon. This evidence that has been put 
forward by Mr. Mueller that's in the public record is very 
strong evidence of obstruction of justice.
    Mr. Eisen. Professor Karlan, when you look at the 
Department of Justice Russia investigation and how the 
President responded to that, and when you look at Congress' 
Ukraine investigation and how the President responded to that, 
do you see a pattern?
    Ms. Karlan. Yes, I see a pattern in which the President's 
views about the propriety of foreign governments intervening in 
our election process are the antithesis of what our Framers 
were committed to. Our Framers were committed to the idea that 
we as Americans, we as Americans decide our elections, we don't 
want foreign interference in those elections. And the reason we 
don't want foreign interference in those elections is because 
we're a self-determining democracy.
    And if I could just read one quotation to you that I think 
is helpful in understanding this, it's somebody who's pointing 
to what he calls a straightforward principle. ``It is 
fundamental to the definition of our national political 
community that foreign citizens do not have a constitutional 
right to participate in and thus may be excluded from 
activities of democratic self-government.''
    And the person who wrote those words is now-Justice Brett 
Kavanaugh in upholding the constitutionality of a Federal 
statute that denies foreign citizens the right to participate 
in our elections by spending money on electioneering or by 
giving money to PACs. They have long been forbidden to give 
contributions to candidates, and the reason for that is because 
that denies us our right to self-government.
    And then-Judge, now-Justice Brett Kavanaugh, was so correct 
in seeing this that the Supreme Court, which as you know, has 
taken campaign finance case after campaign finance case to talk 
about the First Amendment, summarily affirmed here, that is, 
they didn't even need to hear argument to know that it's 
constitutional to keep foreigners out of our election process.
    Mr. Eisen. Professor Feldman, you were somewhat of an 
impeachment skeptic at the time of the release of the Mueller 
report. Were you not?
    Mr. Feldman. I was.
    Mr. Eisen. What's changed for you, sir?
    Mr. Feldman. What changed for me was the revelation of the 
July 25th call, and then the evidence that emerged subsequently 
of the President of the United States in a format where he was 
heard by others and now known to a whole public, openly abused 
his office by seeking a personal advantage in order to get 
himself reelected, and act against the national security of the 
United States.
    And that is precisely the situation that the Framers 
anticipated. It's very unusual for the Framers' predictions to 
come true that precisely, and when they do, we have to ask 
ourselves. Some day we will no longer be alive, and we'll go 
wherever it is we go, the good place or the other place, and 
you know, we may meet there, Madison and Hamilton, and they 
will ask us: When the President of the United States acted to 
corrupt the structure of the Republic, what did you do? And our 
answer to that question must be that we followed the guidance 
of the Framers. And it must be that if the evidence supports 
that conclusion, that the House of Representatives moves to 
impeach him.
    Mr. Eisen. Thank you.
    I yield my time back to the chairman.
    Chairman Nadler. And my time has expired. I yield back. 
Before I recognize the Ranking Member for his round--first 
round of questions, the committee will stand in a 10-minute 
humanitarian recess.
    I ask everyone in the room to please remain seated and 
quiet while the witnesses exit the room. I also want to 
announce to those in the audience, that you may not be 
guaranteed your seat if you leave the hearing room at this 
time.
    Once the witnesses have left the hearing room--at this time 
the committee will stand in a short recess.
    [Recess.]
    Chairman Nadler. The committee will come back to order 
after the recess.
    The chair now recognizes the Ranking Member for his first 
round of questions. Pursuant to House Resolution 660, the 
Ranking Member or his counsel have 45 minutes to question the 
witnesses. Ranking member.
    Mr. Collins. Thank you, Mr. Chairman. Before I begin on the 
questioning, I do want to revisit a comment that was made 
earlier by you, Mr. Chairman, it was our demand for a minority 
hearing day, and you said that you would rule on it later. I 
just wanted to remind you, the Rules of the House do not permit 
a ruling on this, they do not permit a vote, and you cannot 
shut it down.
    And according to your own words, the minority is entitled 
to a day of hearings, it is a right rarely exercised, but it 
guards against the majority abusing its power to exclude 
competing views. Call it the fair and balance rule.
    It's not the chairman's right to determine whether we 
deserve a hearing. It's not the chairman's right to decide 
whether prior hearings were sufficient. It's not the chairman's 
right to decide what we say or think is acceptable. It is 
certainly not the chairman's right to violate the rules in 
order to interfere with our right to conduct a hearing.
    And I just commend Mr. Sensenbrenner for bringing that 
forward, and look forward to that schedule--that you getting 
that scheduled expeditiously.
    Moving on, interesting part, now we hit Phase II. You've 
had one side, and I have to say it was eloquently argued by not 
only the counsel and by the witnesses involved, but there is 
always a Phase II. A Phase II is what is problematic here. 
Because as I said in my opening statement, this is one that 
would be, and for many, one of the most disputed impeachments 
on just the facts themselves.
    What was interesting is we actually showed videos of 
witnesses, in fact, one of them was an opening statement, 
again, I believe, which, again, the closest thing to perfect 
outside your resume this side of heaven is an opening statement 
because it is unchallenged, and I agree with that. And it 
should be.
    And we have had great witnesses here to talk about this. 
But we didn't talk about anything about Kurt Volker, who said 
nothing about it. We said nothing about the aid being held up. 
Morrison, who contradicted Vindman and others, we have not done 
that. And I don't expect the majority to because that's not 
what they're here for. They're not here to give exculpatory 
evidence. Just like the Schiff reported gives nothing of 
exculpatory evidence.
    And also there's still evidence being withheld by Adam 
Schiff that has not come to this committee, and we still have 
not got any any of the underlying stuff that came the from that 
investigation, according to House Rule--H 660, we believe we're 
supposed to get.
    One being the very important part is the Inspector 
General--the IC Inspector General, his testimony is still being 
held. And there is a, quote, secret on it, or they are holding 
it in classification. The last time I checked, we have plenty 
of places in this building and other buildings to handle 
classified information if they still want to do that. But it is 
being withheld from us, I have to believe now there is a reason 
it's being withheld because undoubtedly there's a problem with 
it, and we'll just have to see as that goes forward.
    So anybody in the media, anybody watching today, the first, 
you know, 45 minutes as we went through have painted a very 
interesting picture. It's painted an interesting picture that 
goes back many, many years. It paints an interesting picture of 
picking and choosing which part of the last few weeks we want 
to talk about, and that's fine, because we'll have the rest of 
the day to go about this.
    But, Professor Turley, you're now well-rested. And you got 
one question you were asked a yes/no on and not given to 
elaborate. But I want to start here. Let's just do this. 
Elaborate, if you would, because you tried to on the question 
that was asked to you, and then if there's anything else that 
you've heard this morning that you would disagree with, or have 
an answer to, I will go ahead and allow you some time to talk.
    By the way, just for the information, Mr. Chairman, this is 
the coldest hearing room in the world. And also for those of 
you who are worried about I'm uncomfortable or upset, I'm happy 
as a lark, but this chair is terrible. I mean, it is amazing. 
But, Mr. Turley, go ahead.
    Mr. Turley. Well, it's a challenge to think of anything I 
was not able to cover in my robust exchange with majority 
counsel, but I'd like to try.
    Mr. Collins. Go right ahead.
    Mr. Turley. There's a couple of things I just wanted to 
highlight, I'm not going to take a great deal of time. I 
respect my colleagues, I know all of them, and I consider them 
friends. And I certainly respect what they have said today. We 
have fundamental disagreements. And I'd like to start with the 
issue of bribery.
    The statement has been made, and not just by these 
witnesses, but Chairman Schiff and others, that this is a clear 
case of bribery. It's not. And Chairman Schiff said that it 
might not fit today's definition of bribery, but it would fit 
the definition back in the 18th century.
    Now, putting aside Mr. Schiff's turn toward originalism, I 
think that it might come as a relief to him and his supporters 
that his career will be a short one. That there is not an 
originalist future in that argument.
    The bribery theory being put forward, it's as flawed in the 
18th century as it is in this century. The statement that was 
made by one of my esteemed colleagues is that bribery really 
wasn't defined until much later, there was no bribery statute, 
and that is certainly true. But it obviously had a meaning, 
that's why they put it in this important standard.
    Bribery was not this overarching concept that Chairman 
Schiff indicated. Quite to the contrary. The original standard 
was treason and bribery. That led Mason to object that it was 
too narrow. If bribery could include any time you did anything 
for personal interest instead of public interest, if you have 
this overarching definition, that exchange would have been 
completely useless.
    The Framers didn't disagree with Mason's view that bribery 
was too narrow. What they disagreed with was when he suggested 
maladministration to add to the standard because he wanted it 
to be broader. And what James Madison said is that that's too 
broad. That that would essentially create what you might call a 
vote of no confidence in England. It would basically allow 
Congress to toss out a President that they did not like.
    But, once again, we're all channelling the intent of the 
Framers, and that's always a dangerous thing to do. The only 
more dangerous spot to stand in is between Congress and an 
impeachment as an academic. But I would offer instead the words 
of the Framers themselves. You see, in that exchange they 
didn't just say bribery was too narrow, they actually gave an 
example of bribery, and it was nothing like what was described.
    When the objection was made by Mason, I'm so sorry, made by 
Madison, ultimately the Framers agreed. And then Morris, who 
was referred to earlier, did say we need to adopt this 
standard. But what was left out was what came afterwards. What 
Morris said is that we need to protect against bribery because 
we don't want anything like what happened with Louis XIV and 
Charles II. The example he gave of bribery was accepting actual 
money as the Head of State.
    So what had happened in that example that Morris gave as 
his example of bribery, was that Louis XIV, who was a bit of a 
recidivist when it came to bribes, gave Charles II a huge 
amount of money, as well as other benefits, including, 
apparently, a French mistress, in exchange for the secret 
Treaty of Dover of 1670. It also was an exchange for his 
converting to Catholicism. But that wasn't some broad notion of 
bribery, it was actually quite narrow. So I don't think that 
dog will hunt in the 18th century, and I don't think it will 
hunt today.
    Because if you look at the 21st century, bribery is well-
defined. And you shouldn't just take our word for it, you 
should look to how it's defined by the United States Supreme 
Court.
    In a case called McDonnell v. United States, the Supreme 
Court looked at a public corruption bribery case. This was a 
case where gifts were actually received. Benefits were actually 
extended. There was completion. This was not some hypothetical 
of a crime that was not fulfilled or an action that was not 
actually taken.
    The Supreme Court unanimously overturned that conviction 
unanimously. And what they said was that you cannot take the 
bribery crime and use what they called a boundless 
interpretation. All the justices said that it's a dangerous 
thing to take a crime like bribery and apply a boundless 
interpretation. They rejected the notion, for example, that 
bribery could be used in terms of setting up meetings and other 
types of things that occur in the course of a public service 
career.
    So what I would caution the committee is that these crimes 
have meaning. It gives me no joy to disagree with my colleagues 
here. And I really don't have a dog in this fight, but you 
can't accuse a President of bribery, and then when some of us 
note that the Supreme Court has rejected your type of boundless 
interpretation, say, well, it's just impeachment, we really 
don't have to prove the elements. That is a favorite mantra 
that is served close enough for jazz.
    Well, this isn't improvisational jazz. Close enough is not 
good enough. If you're going to accuse a President of bribery, 
you need to make it stick because you're trying to remove a 
duly elected President of the United States.
    Now, it's unfair to accuse someone of a crime. And when 
others say, well, those interpretations you're using to define 
the crime are not valid, and to say they don't have to be valid 
because this is impeachment. That has not been the standard, 
historically.
    My testimony lays out the criminal allegations in the 
previous impeachments. Those were not just proven crimes, they 
were accepted crimes. That is, even the Democrats on that--the 
Judiciary Committee agreed that Bill Clinton had committed 
perjury. That is on the record. And a Federal judge later said 
it was perjury.
    In the case of Nixon, the crimes were established. No one 
seriously disagreed with those crimes. Now, Johnson is the 
outlier because Johnson was a trap door crime. They basically 
created a crime knowing that Johnson wanted to replace 
Secretary of War Stanton. And Johnson did because they had 
serious trouble in the cabinet.
    So they created a trap door crime, waited for him to fire 
the Secretary of War, and then they impeached him. But there's 
no question that he committed the crime, it's just the 
underlying statute was unconstitutional.
    So I would caution you not only about bribery but also 
obstruction. I'm sorry, ranking member, you----
    Mr. Collins. No, you're doing a good job. Go ahead.
    Mr. Turley. I'd also caution you about obstruction. 
Obstruction is a crime also with meaning. It has elements. It 
has controlling case authority. The record does not establish 
obstruction in this case. That is, what my esteemed colleague 
said was certainly true. If you accept all of their 
presumptions, it would be obstruction.
    But impeachments have to be based on proof, not 
presumptions. That's the problem when you move towards 
impeachment on this abbreviated schedule that has not been 
explained to me, why you want to set the record for the fastest 
impeachment. Fast is not good for impeachment. Narrow, fast 
impeachments have failed, just ask Johnson.
    So the obstruction issue is an example of this problem. And 
here is my concern. The theory being put forward is that 
President Trump obstructed Congress by not turning over 
material requested by the committee. And citations have been 
made to the third article of the Nixon impeachment.
    First of all, I want to confess, I have been a critic of 
the third article of the Nixon impeachment my whole life. My 
hair catches on fire every time someone mentions the third 
article. Why? Because you would be replicating one of the worst 
articles written on impeachment.
    Here is the reason why. Peter Rodino's position as Chairman 
of Judiciary was that Congress alone decides what information 
may be given to it alone. His position was that the courts have 
no role in this. And so if any--by that theory, any refusal by 
a President, based on executive privilege or immunities, would 
be the basis of impeachment. That is essentially the theory 
that's being replicated today.
    President Trump has gone to Congress--to the courts. He's 
allowed to do that. We have three branches, not two. I happen 
to agree with some of your criticism about President Trump, 
including that earlier quote where my colleagues talked about 
his saying that there's this Article II, and he gives his 
overriding interpretation. I share that criticism. You're doing 
the same thing with Article I.
    You're saying Article I gives us complete authority that 
when we demand information from another branch, it must be 
turned over or we'll impeach you in record time. Now, making 
that worse is that you have such a short investigation. It's a 
perfect storm. You set an incredibly short period, demand a 
huge amount of information, and when the President goes to 
court, you then impeach him. Now, does that track with what 
you've heard about impeachment? Does that track with the rule 
of law that we've talked about?
    So on obstruction, I would encourage you to think about 
this. In Nixon, it did go to the courts, and Nixon lost. And 
that was the reason Nixon resigned. He resigned a few days 
after the Supreme Court ruled against him in that critical 
case. But in that case, the Court recognized there are 
executive privilege arguments that can be made. It didn't say, 
you had no right coming to us, don't darken our doorstep again. 
It said, we've heard your arguments, we've heard Congress' 
arguments, and you know what, you lose. Turn over the material 
to Congress. What that did for the judiciary is it gave this 
body legitimacy. It wasn't the Rodino extreme position that 
only you decide what information can be produced.
    Now, recently there's some rulings against President Trump, 
including a rule involving Don McGahn. Mr. Chairman, I 
testified in front of you a few months ago, and if you recall, 
we had an exchange and I encouraged you to bring those actions. 
And I said I thought you would win. And you did. And I think it 
was an important win for this committee because I don't agree 
with President Trump's argument in that case. But that's an 
example of what can happen if you actually subpoena witnesses 
and go to court.
    Then you have an obstruction case because a court issues an 
order. And unless they stay that order by a higher court, you 
have obstruction. But I can't emphasize this enough, and I'll 
just say it one more time. If you impeach a President, if you 
make a High Crime and Misdemeanor out of going to the courts, 
it is an abuse of power. It's your abuse of power. You're doing 
precisely what you're criticizing the President for doing. We 
have a third branch that deals with conflicts of the other two 
branches. And what comes out of there and what you do with it 
is the very definition of legitimacy.
    Mr. Collins. Let's continue on. Let's unpack what you've 
been talking about. First of all, the McDonnell case, how was 
that decided? Was that a very split court? Were they really 
torn about that? That case came out how?
    Mr. Turley. Yeah, it came out unanimous, so did a couple of 
the other cases I cite in my testimony, which also refute these 
criminal theories.
    Mr. Collins. One of the things that you said also, and I 
think it could be summed up, and I use it sometimes, it's the 
layman's language here, is facts don't matter. And that's what 
I heard a lot of in the 45 minutes.
    Well, the facts said this or the facts are disputed this, 
but if this, if that, if this, it rises to an impeachment 
level, and that was sort of what you're saying that crimes--I 
think your word was crimes have meanings. And I think this is 
the concern that I have.
    Is there a concern that if we just say that facts don't 
matter, that we're also, as you've said, abusing our power as 
we go forward here in looking at what people would actually 
deem as an impeachable offense?
    Mr. Turley. I think so. And part of the problem is to bring 
a couple of these articles, you have to contradict the position 
of President Obama. President Obama withheld evidence from 
Congress in Fast and Furious, an investigation, a rather 
moronic program that led to the death of a Federal agent.
    President Obama gave a sweeping argument that he was not 
only not going to give evidence to this body, but that a court 
had absolutely no role in determining whether he could withhold 
the evidence.
    Mr. Collins. Mr. Turley, I have a question on that because 
you brought up Mr. Obama and you brought up other Presidents in 
this process. Is there not an obligation by the Office of the 
President, we'll just use that term, not to be Obama, Trump, 
Clinton, anybody.
    Isn't there an obligation by the President to actually 
assert the constitutional privileges or authorities that have 
been given or when accused of something or a crime or anything 
else?
    Mr. Turley. Yeah. I think that President Obama has invoked 
too broadly. But, on the other hand, he has actually released a 
lot of information. You know, I've been friends with Bill Barr 
for a long time. We disagree on executive privilege.
    I'm a Madisonian scholar, I tend to favor Congress in 
disputes. And he is the inverse. His natural default is Article 
II. My natural default is Article I. But he actually has 
released more privileged information than any attorney general 
in my lifetime, including the Mueller report. These transcripts 
of these calls would be core executive privilege material, 
there is no question about that.
    Mr. Collins. And that is something, again, not pointed out 
when you're doing a back and forth like we're doing. The 
transcript of the call released, the things that have been 
released to Mueller. As we go back through this, there has been 
work in progress by this administration.
    I think the interesting point that I want to talk about is 
two things. Number one, Congress is abuse of its own power, 
which has not been discussed here, even internally, where we 
have had committees not willing to let Members see transcripts. 
Not being willing to give those up under the guise of 
impeachment, or you shouldn't be able to see them. Although, 
the rules of the House were never invoked to stop that.
    What we're seeing here, and I want to hit something else 
before we move on to something else, is the timing issue that 
you talked about here. Again, I believe we talked about this 
with the Mueller report, we talked about this with the 
everything else. This is one of the fastest, you know, we're on 
track--I said this earlier, we're on a clock. The clock and the 
calendar are seemingly dominating this. Irregardless of what 
anybody on this committee, and especially Members not of this 
committee, to think about what we're actually seeing of fact 
witnesses and people moving forward, we don't have that yet.
    So the question becomes, is an election pending when facts 
are in dispute, and you made mention of this. This is one in 
which the facts are not unanimous. There's not universal, 
there's not even bipartisan agreement on the facts and what 
they lead to, especially when there's exculpatory evidence that 
has been presented, not in the Schiff report but in other 
reports.
    Does that timing bother you, from a historical perspective, 
not only in the past but moving forward as well?
    Mr. Turley. Yeah. Fast and narrow is not a good recipe for 
impeachment. That's the case with Johnson. Narrow was the case 
with Clinton. They tend not to survive. They tend to collapse 
in front of the Senate.
    Impeachments are like buildings, there's a ratio between 
your foundation and your height. And this is the highest 
structure you can build under the Constitution. You want to 
build an impeachment, you have to have a foundation broad 
enough to support it. This is the narrowest impeachment in 
history. You could argue with Johnson--Johnson might actually 
be the fastest impeachment.
    Johnson actually was--what happened in Johnson was actually 
the fourth impeachment attempt against Johnson. And, actually, 
the record goes back a year before, they laid that trap door a 
year before, so it was not as fast as it made it out--it might 
appear.
    Mr. Collins. And, again, let's go back--I want to go back 
to something else. And talked about bribery, and Mr. Taylor is 
going to address a good bit of that, but I want to go back to 
something you talk about because it really bothers, I think the 
perception out there of what's going on here and the disputed 
transcript being--the call has been laid out there, the 
President said, I wanted nothing for this.
    There is all this exculpatory evidence that was not 
presented in the last 45 minutes, but there's one thing that's 
interesting, and it's been reported in the mainstream media, 
and it goes back to your issue, does crimes matter, or what 
this definition is.
    The House--the majority initially accused the President, 
and they kept saying quid pro quo, and we still hear it as we 
go through, but then, as reported, they used a political focus 
group to determine whether the phrase polled well. And 
apparently it didn't poll well, so they agreed to change their 
theory of the case to the bribery.
    Does that not just feed into more about what you're saying 
how where actually the crime matters and that facts do matter 
in a case like this, or the at least it should matter?
    Mr. Turley. It does. There's a reason why every past 
impeachment has established crimes, and it's obvious. It's not 
that you can't impeach on a noncrime, you can. In fact, 
noncrimes have been part of past impeachments, it's just that 
they have never gone up alone or primarily as the basis for 
impeachment. That's the problem here. If you prove a quid pro 
quo, you might have an impeachable offense. But to go up only 
on a noncriminal case would be the first time in history. So 
why is that the case?
    The reason is that crimes have an established definition 
and case law. So there's a concrete, independent body of law, 
that assures the public that this is not just political. That 
this is a President who did something they could not do. You 
can't say the President is above the law if you then say the 
crimes you accuse him of really don't have to be established.
    Mr. Collins. I think that's the problem right now that many 
Members of this House, Members of this body, and especially the 
American public are looking at that if you say it's above the 
law but then you don't define it or you define the facts to 
whatever you want to have, that is the ultimate railroad that 
everybody in this country should not be afforded.
    Everyone is afforded due process. Everyone is afforded the 
process to actually make their case heard. That's the concern 
that I have in this committee right now, and we've already seen 
it voted down that we're not going to look at certain fact 
witnesses. We're not even been promised other hearings in which 
this committee.
    And in the words and the concerns that echoed almost 20 
years ago from the chairman where he did not want to take the 
advice of another body or entity giving us, the Judiciary 
Committee, a report, and then acting as a rubber stamp if we 
didn't do this.
    Just as a reminder, it was almost 2 1/2 weeks before the 
discussion of this kind of a hearing back then before the 
hearing actually took place. These are the kind of things that, 
as timing goes, I think the obvious point here is that timing 
is becoming more of the issue because the concern, as been 
stated before, about elections.
    They're more concerned about trying to fit the facts in to 
what the President supposedly did, presumably did, and make 
those hypotheticals stick to the American public. The problem 
is their timing, the definition of crimes, the definition of 
the fact--the bribery as defined by the Supreme Court is not 
making their case, it's not fitting what they need to do.
    The issue that we have to deal with going forward is, why 
the rush? Why do have still not have the information from the 
Intelligence Committee? Why is the Inspector General's report 
from the IC Committee being withheld even in a nonclassified--
in a classified setting. These are the problems that you have 
now highlighted and I think that need to be. And this is why 
the next 45 minutes and the rest of the day is going to be 
applicable, because both sides matter.
    And at the end of the day, this is a fast impeachment, the 
fastest we're seeing, based on disputed facts on crimes or 
disturbances that are made up with the facts to fit each part.
    With that, I'm going to turn it over to my counsel, Mr. 
Taylor.
    Mr. Taylor. Professor Turley, I'd like to turn to the 
subject of partisanship as the Founders feared it and as it 
exists today. It's a subject Alexander Hamilton was very 
concerned about when it came to impeachment. He wrote some 
prescient words in Federalist Paper, Number 65, in advocating 
for the ratification of the Constitution. The Federalist Papers 
laid out the reasons Madison and, principally Hamilton, thought 
the impeachment clause was necessary, but he also flagged 
concerns.
    He said: In many cases of impeachment, it will connect 
itself with the pre-existing factions and will enlist all their 
animosities, partialities, influence, and interests on one 
side, or on the other. And in such cases, there will always be 
the greater danger that the decision will be regulated more by 
the comparative strength of parties than by the real 
demonstrations of innocence or guilt.
    Professor Turley, do you think Hamilton predicted a real 
danger here of hyperpartisan impeachments?
    Mr. Turley. Well certainly, that has been proven to be the 
case, it is certainly of the two impeachments that we have 
seen. It's also important to note, by the way, that we often 
think that our times are unique.
    You know, this provision wasn't just written for times like 
ours, it was written in times like ours. That is, you know, 
these are people that were even more severe than the rhetoric 
today. I mean, you have to keep in mind, Jefferson referred to 
the administration of the Federalist as the reign of the 
witches.
    So this was not a period where people didn't have the 
strong feelings, and indeed, when people talk about members of 
this committee acting like they want to kill each other. Back 
then they were actually trying to kill each other, that's what 
the sedition law was. You were trying to kill people that 
disagreed with you. But what's notable is they didn't have a 
whole slew of impeachments. They knew not to do it. And I think 
that that's a lesson that actually can be taken from that 
period.
    That the Framers created a standard that would not be 
endlessly fluid and flexible. And that standard has kept us 
from impeachments despite periods in which we have really 
despised each other. And that, I think, is the most distressing 
things for most of us today. There's so much more rage than 
reason. You can't even talk about these issues without people 
saying, you must be in favor of the Ukrainians taking over the 
country, or the Russians moving into the White House.
    At some point, as people, we have to have a serious 
discussion about the grounds to remove a duly elected 
President.
    Mr. Taylor. Professor Turley, in your testimony you said 
that when it comes to impeachment, we don't need happy 
idealogical warriors, we need circumspect legal analysis. But 
let's take a quick look at the deeply partisan landscape on 
which this particularly partisan impeachment is being waged.
    I mean, the Democratic leaders pushing Trump's impeachment 
represent some of the most far left urban coastal areas of the 
country. The bar graphs here show counties, and the height of 
the bars indicate total votes cast, and the color of the bars 
show the margin of victory for the winner in the 2016 election.
    As you can see, the parts of the country represented by 
these Democrat impeachment leaders voted overwhelmingly for 
Hillary Clinton during the last Presidential election. Also, 
during the 2016 Presidential election, lawyer campaign 
contributions tilted 97 percent for Clinton, 3 percent for 
Trump. And the situation is essentially the same at law schools 
around the country, including those represented on the panel 
here today.
    Now, Professor Turley, I'd like to turn now to the partisan 
process that defines these impeachment proceedings. This is how 
the Nixon impeachment effort was described in the bipartisan 
1974 staff report. We're talking about the initiation of the 
impeachment inquiry.
    It says, this action was not partisan, it was supported by 
the overwhelming majority of both political parties, and it 
was. Regarding the authorization of the Clinton impeachment 
inquiry, it was supported by all Republicans and 31 Democrats.
    Now, fast forward to the current impeachment. The House 
Democrats' Trump impeachment drive was subsequently approved 
only by Democrats, and indeed it was approved over the 
opposition of two Democrats and all Republicans.
    Professor Turley, how does this trend comport with how the 
Founders understood how impeachment should operate?
    Mr. Turley. Well I believe the Founders certainly had 
aspirations that we would come together as a people, but they 
didn't have any delusions. It certainly was not something that 
they achieved in their own lifetime. Although, you'd be 
surprised that some of these Framers actually did, at the ends 
of their lives, including Jefferson and Adams, sort of 
reconcile.
    Indeed, I think one of the most weighty and significant 
moments in constitutional history is the one that is rarely 
discussed. That Adams and Jefferson reached out to each other. 
That they wanted to--they wanted to reconcile before they died, 
and they met and they did. And maybe that is something that we 
can learn from.
    But I think that the greater thing I would point to is the 
seven Republicans in the Johnson impeachment. If I could just 
read one thing to you, and everyone often talks about one of 
the Senators, but not this one. And it's Lyman Trumbull, who 
was a fantastic Senator. He became a great advocate for civil 
liberties.
    You have to understand that most of these Senators, when it 
was said that they jumped into their political graves, it was 
true. Most of their political careers ended. They knew they 
would end because of the animosity of the period.
    Trumbull said the following. He said: Once this set the 
example of impeaching a President for what, when the excitement 
of the hour shall have subsided, will be regarded as 
insufficient causes. No future President will be safe who 
happens to differ from the majority of the House and two-thirds 
of the Senate.
    He said: I tremble for the future of my country. I cannot 
be an instrument to produce such a result, and that the hazard 
of the ties, even of friendship and affection to calmer times 
shall do justice to my motives, no alternatives are left to me. 
And he proceeded to give the vote that ended his career.
    You can't wait for calmer times. The time for you is now. 
And I would say that what Trumbull said has more bearing today, 
because I believe that this is much like the Johnson 
impeachment, it's manufactured until you build a record. I'm 
not saying you can't build a record, but you can't do it like 
this, and you can't impeach a President like this.
    Mr. Taylor. Now Professor Turley, there's a recent book on 
impeachment by Harvard law professor Laurence Tribe and Joshua 
Matz that discusses what they consider to be a legitimate 
impeachment process. The book is pretty anti-Trump, it's called 
To End a Presidency.
    And in that book the authors state the following: When an 
impeachment is purely partisan or appears that way, it is 
presumptively illegitimate. When only Republicans or only 
Democrats view the President's conduct as justifying removal, 
there's a strong risk that policy disagreements or partisan 
animus have overtaken the proper measure of congressional 
impartiality.
    Another quote is: We can also expect that opposition 
leaders to the President will be pushed to impeach and will 
suffer internal blowback if they don't. The key question is 
whether they will cave to this pressure. One risk of our broken 
politics is that the House will undertake additional doomed 
partisan impeachments, a development that would be disastrous 
for the Nation as a whole.
    Professor Turley, is that advice being followed by House 
Democrats in this case?
    Mr. Turley. Not on this schedule. The one thing, if you 
look at--I laid out the three impeachments. The one thing that 
comes out of those impeachments in terms of what bipartisan 
support occurred, is that impeachments require certain periods 
of saturation and maturation. That is, the public has to catch 
up.
    I'm not prejudging what your record would show, but if you 
rush this impeachment, you're going to leave half the country 
behind. And, certainly, that's not what the President--what the 
Framers wanted.
    You have to give the time to build a record. This isn't an 
impulse buy item. You're trying to remove a duly elected 
President of the United States, and that takes time and takes 
work. But at the end, if you look at Nixon, which was the gold 
standard in this respect, the public did catch up. They 
originally did not support impeachment, but they changed their 
mind. You changed their mind, and so did, by the way, the 
courts, because you allowed these issues to be heard in the 
courts.
    Mr. Taylor. Professor Turley, the Nixon and Clinton 
impeachments were debated solidly in the high crimes category, 
correct?
    Mr. Turley. Yes.
    Mr. Taylor. Crimes were at issue. But on the evidence 
presented so far, is it your view that there's no credible 
evidence that any crime was committed by President Trump?
    Mr. Turley. Yes, I've gone through all of the crimes 
mentioned. They do not meet any reasonable interpretation of 
those crimes, and I'm relying on express statements from the 
Federal courts.
    I understand that the language in the statutes are often 
broad, that's not the controlling language. It's the language 
of the interpretation of Federal courts. And I think that all 
of those decisions stand mightily in the way of these theories.
    And if you can't make out those crimes, then don't call it 
that crime. If it doesn't matter, then what's the point. Call 
it treason. Call it endangered species violations. If none of 
this matters.
    Mr. Taylor. So that would put the Democrats move to impeach 
President Trump in the category of High Misdemeanors. In James 
Madison's notes of the constitutional convention debates, they 
clearly show that the term High Misdemeanor was explicitly 
referred to as a technical term. And it wasn't just something 
that any majority of partisan members might happen to think was 
at any given time.
    And often when there's a debated about a technical term, 
people turn to dictionaries. And the first truly comprehensive 
English dictionary was Samuel Johnson's, a dictionary of the 
English language, it was first published in 1755. And the 
Founders in many of their libraries had this book and on the 
theirs desks. And the Supreme Court still cites Johnson's 
dictionary to determine the original public understanding of 
the words used in the Constitution.
    So here is how the 1785 Edition of Johnson's dictionary 
defines the relevant terms of High Misdemeanor. High, the 
relevant sub-definition is, capital, great, opposed to little, 
as high treason. The definition of misdemeanor is defined as 
something less than an atrocious crime. And atrocious is 
defined as wicked in a high degree, enormous, horribly 
criminal.
    So if you look at how these words were defined during the 
time the Constitution was debated and ratified, a misdemeanor 
is something less than an atrocious crime, and atrocious is 
wicked in a high degree. And as a result, a High Misdemeanor 
must be something like just less than a crime that is wicked in 
a high degree.
    Now, Professor Turley, does that generally comport with 
your understanding of the phrase High Misdemeanor, that was 
understood by the Founders, with the purpose of narrowing that 
phrase to prevent the sorts of abuses that you've described?
    Mr. Turley. It did. I mean, if you compare this to the 
extradition clause, the language that was used was different 
for a reason. They did not want to establish a type of broad 
meeting. According to the view of some people as to the meaning 
of High Crimes and Misdemeanors, those provisions would be 
essentially identical, and that's clearly not what they wanted.
    Mr. Taylor. Professor Turley, next I'd like to explore how 
this impeachment is based on no crime and no request for false 
information, unlike the Nixon and Clinton impeachments.
    I'd like to start with some background. The American media 
for years has been asking questions about former Vice President 
Biden's son and his paid involvement with a corrupt Ukrainian 
energy company, Burisma, is one example of those media reports 
from June 20, 2019, it was an ABC News investigation, titled: 
Hunter Biden's Foreign Deals: Did Joe Biden's Son Profit Off 
Father's Position as Vice President? There's a still clip of it 
here with a Burisma promotional video.
    And many have seen the video of Joe Biden talking about 
getting the Ukrainian prosecutor, who was investigating 
Burisma, fired. And a New York Times article says, from May 
1st, 2019, referring to Joseph R. Biden. One of his most 
memorable performances came on a trip to Kyiv in March 2016 
when he threatened to withhold a billion dollars in United 
States loan guarantees if Ukraine's leaders did not dismiss the 
country's top prosecutor. Among those who had a stake in the 
outcome was Hunter Biden. Mr. Biden's younger son, who at the 
time was on the board of an energy company owned by a Ukrainian 
oligarch, who had been in the sites of the fired prosecutor 
general.
    So even if Hunter Biden engaged in no crimes regarding his 
sitting on the board of Burisma, if an investigation led to the 
bankruptcy of the corrupt company, Hunter Biden's lucrative 
position on the Burisma board would have been eliminated, along 
with his $50,000 a month payments. That was his stake in a 
potential prosecution involving the company.
    In fact, even Neal Katyal, the former acting solicitor 
general under President Obama, in his recent book entitled 
Impeach, says the following: Is what Hunter Biden did wrong? 
Absolutely. Hunter Biden had no real experience in the energy 
sector, which made him wholly unqualified to sit on the board 
of Burisma. The only logical reason the company could have had 
for appointing him was his ties to Vice President Biden. This 
kind of nepotism isn't only wrong, it is a potential danger to 
our country, since it makes it easier for foreign powers to buy 
influence. No politician from either party should allow a 
foreign power to conduct this kind of influence peddling with 
their family members.
    Also, Lieutenant Colonel Vindman was asked at his hearing: 
Would it ever be U.S. Foreign policy, in your experience, to 
ask a foreign leader to open a political investigation? And he 
replied: Certainly, the President is well within his right to 
do that.
    So the American media and others were asking questions 
about Hunter Biden, his involvement in Ukraine. And President 
Trump, in his call with the Ukrainian President, simply asked 
the same questions the media was asking.
    Now, Professor Turley, it is your understanding that the 
House impeached Nixon for helping cover up his administration's 
involvement in a crime, and that the evidentiary record showed 
Nixon knew of criminal acts and sought to conceal them, 
including tape recordings of Presidential Nixon ordering a 
cover-up of the Watergate break-in shortly after it occurred?
    Mr. Turley. It is.
    Mr. Taylor. And it is also your understanding that the 
House impeached Clinton for the crime of lying under oath to 
deny a woman suing him for sexual harassment, evidence she was 
legally entitled to?
    Mr. Turley. That's correct.
    Mr. Taylor. So there were requests for false information in 
both the Nixon and Clinton scandals by the President's aides or 
associates or by the President himself. Correct?
    Mr. Turley. Yes.
    Mr. Taylor. But there are no words in the four corners of 
the transcript of President Trump's call that show a request 
for false information, are there?
    Mr. Turley. No. And that's one of the reasons why if you 
want to establish the opposing view, you have to investigate 
this further.
    Mr. Taylor. Now, let me walk through the standard of 
evidence House Democrats insisted upon during the Clinton 
impeachment. The minority views in the Clinton impeachment 
report were signed by, among others, current Senator Minority 
Schumer and current House Judiciary Chairman Nadler, and they 
say that: One of the professors who testified, quote, has 
meticulously documented how in the Nixon inquiry, everyone 
agreed, the majority, the minority, and the President's 
counsel, that the standard of proof for the committee and the 
House was clear and convincing evidence.
    Professor Turley, would you agree that the evidence 
compiled to date by House Democrats during these current 
impeachment proceedings fails to meet the standard of clear and 
convincing evidence?
    Mr. Turley. I do by considerable measure.
    Mr. Taylor. Now, let me turn again to the book To End a 
Presidency. In that book, the author states the following, 
quote: Except in the most extraordinary circumstances, 
impeaching with a partial or plausibly contested understanding 
of key facts is a bad idea.
    Professor Turley, do you think that impeaching in this case 
would constitute impeaching with a partial or plausibly 
contested understanding of key facts?
    Mr. Turley. I think that that's clear because this is one 
of the thinnest records ever to go forward on impeachment. I 
mean, the Johnson record, once again, we can debate, because 
that was the fourth attempt at an impeachment.
    But this is certainly the thinnest of a modern record. If 
you take a look at the size of the record of Clinton and Nixon, 
they were massive in comparison to this, which is almost wafer 
thin in comparison. And it has left doubts. Not just doubts in 
the minds of people supporting President Trump, doubts in the 
minds of people like myself, about what actually occurred.
    There's a difference between requesting investigations and 
a quid pro quo. You need to stick the landing on the quid pro 
quo. You need to get the evidence to support it. It might be 
out there, I don't know, but it's not in this record.
    I agree with my colleagues, we've all read the record and I 
just come to a different conclusion. I don't see proof of a 
quid pro quo, no matter what my presumptions, assumptions, or 
bias might be.
    Mr. Taylor. On that point, I'd like to turn now to the 
current impeachment procedures. Professor Turley, would you 
agree that a full and fair adversary system in which each side 
gets to present its own evidence and witnesses is essential to 
the search for truth?
    Mr. Turley. It is. And the interesting thing, on the 
English impeachment model that was rejected by the Framers, 
they took the language, but they actually rejected the model of 
the impeachment from England, particularly in terms of 
Hastings. But even in England, it was a robust adversarial 
process.
    And if you want to see adversarial work, take a look at 
what Edmund Burke did to Warren Hastings, he was on him like 
ugly on moose for the entire trial.
    Mr. Taylor. And as you know, in the minority views and the 
Clinton impeachment report, the House Democrat wrote the 
following: We believe it is incumbent upon the committee to 
provide these basic protections, as Representative Barbara 
Jordan observed during the Watergate inquiry. Impeachment not 
only mandates due process, but due process quadrupled.
    The same minority views also support the right to cross-
examination in a variety of context in the Clinton example.
    Now, Professor Turley, you describe how Monica Lewinsky 
wasn't allowed to be called as a witness in the Senate 
impeachment trial. And after her original testimony, she 
revealed how she had been told to lie about her relationship 
with President Clinton by his close associates. It is a 
cautionary tale about the dangers of denying key witnesses. Can 
you elaborate on that?
    Mr. Turley. Yeah, the only reason I mentioned that is that 
was in the portion of my testimony dealing with how you 
structure these impeachments.
    What happened during the Clinton impeachment, and it came 
up during the hearing that we had previously, was a question of 
how much the House had to do in terms of Clinton impeachment 
because you had this robust record created by the independent 
counsel, and they had a lot of testimony, videotapes, et 
cetera. So the House basically incorporated that. And the 
assumption was that those witnesses would be called at the 
Senate, but there was a failure at the Senate.
    The rules that were applied, in my view, were not fair. 
They restricted witnesses to only three. And that's why I 
brought up the Lewinsky matter. About a year ago, Monica 
Lewinsky revealed that she had been told that if she signed 
that affidavit that we now know is untrue, that she would not 
be called as a witness. If you actually called live witnesses, 
that type of information would have been part of the record.
    Mr. Collins. Thank you.
    Mr. Chairman, I yield back.
    Chairman Nadler. The gentleman yields back. I note that 
this is the moment in which the White House would have had an 
opportunity to question the witnesses, but they declined their 
invitation. So we will now proceed to questions under the 5-
minute rule. I yield myself 5 minutes for the purpose of 
questioning the witnesses.
    Professor Feldman, would you respond to Professor Turley's 
comments about bribery, especially about the relevance of the 
elements of criminal bribery?
    Mr. Feldman. Yes. Bribery had a clear meaning to the 
Framers, it was--when the President, using the power of his 
office, solicits or receives something of personal value from 
someone affected by his official powers.
    And I want to be very clear. The Constitution is law. The 
Constitution is the supreme law of the land. So, of course, 
Professor Turley is right, you wouldn't want to impeach someone 
who didn't violate the law, but the Constitution, the supreme 
law of the land, specifies bribery as a ground of impeachment 
as it specifies other High Crimes and Misdemeanors. Bribery had 
a clear meaning.
    If the House believes that the President solicited 
something of value in the form of investigations or an 
announcement of investigations, and that he did corruptly for 
personal gain, then that would constitute bribery under the 
meaning of the Constitution. And it would not be lawless. It 
would be bribery under the law.
    Chairman Nadler. So the Supreme Court case in McDonnell 
interpreting the Federal bribery statute and other decisions 
interpreting the statutes would not be relevant?
    Mr. Feldman. The Constitution is the supreme law, and the 
Constitution specifies what bribery means. Federal statutes 
can't trump the Constitution. They can't defeat what's in the 
Constitution.
    Chairman Nadler. Thank you.
    Professor Gerhardt, would you respond to Professor Turley's 
comments about obstruction of justice or obstruction of 
Congress, please.
    Mr. Gerhardt. Yes. On obstruction of justice, one thing I 
want to emphasize, that obstruction of justice is not just 
about obstruction of a court, it's obstruction of any lawful 
proceeding. And so the obstruction isn't limited to whatever is 
happening in the courts, and obviously here there are judicial 
proceedings going on, but there's also a really critical 
Congressional proceeding, which brings us to obstruction of 
Congress.
    With obstruction of Congress, I don't think--in fact, I can 
say, I know there's never been anything like the President's 
refusal to comply with subpoenas from this body. These are 
lawful subpoenas. These have the force of law to them. These 
are the things that every other President has complied with, 
and actually acted in alignment with, except for President 
Nixon in a small but significant set of materials.
    Chairman Nadler. Professor Turley implied that as long as 
the President asserts a fanciful, ultimately nonexistent 
privilege like absolute immunity, he can't be charged with 
obstruction of Congress because, after all, it hasn't gone 
through the courts yet. Would you comment on that?
    Professor Gerhardt.
    Mr. Gerhardt. I'm sorry, I missed part of the question. 
Please, I'm sorry.
    Chairman Nadler. Professor Turley implied that we can't 
charge the President with obstruction of Congress for refusing 
all subpoenas as long as he has any fanciful claim until the 
courts reject those fanciful claims.
    Mr. Gerhardt. I have to respectfully disagree. No, his 
refusal to comply with those subpoenas is an independent event. 
It's a part from the courts. It's a direct assault on the 
legitimacy of this inquiry, which is crucial to the exercise of 
this power.
    Chairman Nadler. Thank you. Professor Karlan, I'll give you 
a chance to respond, if you would like as well to the same 
question.
    Ms. Karlan. I wanted to respond to the first question about 
bribery. If I could instead. Which is----
    Chairman Nadler. Yeah. Go ahead.
    Ms. Karlan. Although counsel for the minority read Samuel 
Johnson's definition of High Crime and Misdemeanor, he didn't 
read the definition of bribery. Now, I have the 1792 version of 
Johnson's dictionary, I don't have the initial one. And there 
he defines bribery as the crime of giving or taking rewards for 
bad practices.
    So if you think it's a bad practice to deny military 
appropriations to an ally that have been given to them. If you 
think it's a bad practice not to hold a meeting to buck up the 
legitimacy of a government that's on the front line, and you do 
that in return for the reward of getting help with your 
reelection, that's Samuel Johnson's definition of bribery.
    Chairman Nadler. Professor Feldman, if Washington were here 
today, if he were joined by Madison and Hamilton and other 
Framers, what do you believe they would say if presented with 
the evidence before us about President Trump's conduct?
    Mr. Feldman. I believe the Framers would identify President 
Trump's conduct as exactly the kind of abuse of office, High 
Crime and Misdemeanor that they were worried about, and they 
would want the House of Representatives to take appropriate 
action and to impeach.
    Chairman Nadler. And they would find obstruction of 
justice, obstruction of Congress, and abuse of power, or some 
of them?
    Mr. Feldman. I believe that if the evidence supported those 
things in their minds, and if the Congress determines that that 
is what the evidence means, then they would believe strongly 
that that is what Congress ought to do.
    Chairman Nadler. Thank you. I'll yield back the balance of 
my time. I'll now recognize the Ranking Member of the Judiciary 
Committee, the gentleman from Georgia, Mr. Collins, for 5 
minutes for questioning the witnesses.
    Mr. Collins. This just keeps getting more amazing. I think 
we just put in the jury pool the Founding Fathers, and said, 
what would they think? I don't think we have any idea what they 
would think, in all due respect, with this because of the 
different times and different things we've talked about.
    But, also, to in some way insinuate on a live mike with a 
lot of people listening, that the Founding Fathers would have 
found President Trump guilty, is just simply malpractice with 
these fact before us. That is just simply pandering to a 
camera. That is just simply not right. I mean, this is amazing.
    We can disagree--what's amazing on this committee is we 
don't even disagree on the facts. We cannot even find a fact 
right now, with it--it is not going through the public 
testimony, and also the transcripts and all, it is not.
    Mr. Turley, are we going to deputize someone between now 
and the Founders into the jury pool here?
    Mr. Turley. Well, first of all, only I will speak for James 
Madison. No, no, we all will speak for James Madison with about 
the same level of accuracy. It is a form of necromancy that 
academics do all the time, and that's what we get paid for. But 
I just want to note a couple things. First of all I do find it 
rather surprising that you would have George Washington in this 
jury pool. I would strike him for cause.
    George Washington was the first guy to raise extreme 
executive privilege claims. He had a rather robust view of what 
a President could say. If you were going to make a case to 
George Washington that you could impeach over a conversation he 
had with another Head of State, I expect his hair--his powdered 
hair would catch on fire.
    Also, I just want to note one other thing. I am impressed 
with carrying an 18th century copy of Samuel Johnson with you.
    Ms. Karlan. It's just the online version.
    Mr. Turley. It's just the online version. As an academic, I 
was pretty darn impressed. I just want to note one thing, which 
may explain part of our difference. The statutes today on 
bribery are written broadly, just like they were back then. 
That was my point.
    The meaning of those words are subject to interpretation. 
They are written broadly because they don't want them to be too 
narrow. That was the case in the 18th century as they are 
today.
    But the idea that bad practices could be the definition of 
bribery. Really? I mean, is that what you get from the 
constitutional convention that bad practices--is that why Mason 
wanted to put in maladministration because bad practices is not 
broad enough? This is where I disagree.
    Now, the other thing that I just wanted to note is, and I 
have so much respect for Noah, and I'm just going to disagree 
on this point. I feel it is a rather circular argument to say, 
well, the Constitution is law, upon that, we are in agreement. 
But the Constitution refers to a crime. To say, well, you can't 
trump the Constitution because it defines the crime. It doesn't 
define the crime. It references the crime.
    Now, the crime--the examples were given during the 
constitutional convention, and those do not comport with bad 
practices, they comport with real bribery. But to say that the 
Supreme Court's decision on what constitutes bribery is somehow 
irrelevant is rather odd. What the Constitution contains is a 
reference to a crime, and then we have to decide if that crime 
has been committed.
    Mr. Collins. And I think one of the things that came out 
just a second ago, was also this discussion of, you know, and 
we had had this discussion earlier about, is it the 
Presidential prerogative and also members of the President's 
cabinet to assert privileges and rights. And we talked about 
the Fast and Furious with President Obama. Remember, Attorney 
General Holder was held in contempt by this body for 
withholding and not complying with subpoenas.
    I mean, you just can't pick and choose history here, what 
you want to have. But I think also you just made a statement, 
and it was brought up earlier, talk about bad practice. It is 
also the law of the land that we're supposed to ensure that 
countries given aid are not corrupt.
    And I think this is also something missing from this 
discussion, is well, if the President has had a long seeded 
distrust of foreign companies, especially Ukraine and others 
with a history of corruption.
    I made this statement earlier, it's in the report from the 
HPSCI side on our side, 68 percent of those polled in the 
Ukraine over the previous year had bribed a public official.
    Ukraine had corruption issues. It came back from the Obama 
administration. It came through the Trump administration. And 
our rule is that they have to actually look at the corruption 
before giving taxpayer dollars. The President was doing that, 
and now it has been blown up because we've now found in this 
hearing today, facts really don't matter if we're trying to fit 
it into a law or fitting it into a breaking of rule that we 
want to impeach on.
    And, as I've said, the reason we're doing this is the train 
is on the track. This is a clocked calendar impeachment, not a 
fact impeachment.
    I yield back.
    Chairman Nadler. The gentleman yields back. I now recognize 
Ms. Lofgren for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman. This has been 
mentioned only the third time in modern history that the 
committee has assumed the grave responsibility of considering 
impeachment, and oddly enough, I have been present at all 
three. I was staff of Congressman Don Edwards during the Nixon 
impeachment, present on the committee during the Clinton 
impeachment, and here we are today.
    At its core, I think, the impeachment power really is about 
preservation of our democratic systems. And the question we 
must answer is whether the activity of the President threatens 
our Constitution and our democracy. And it's about whether he's 
above the law, and whether he's honoring his oath of office.
    Now, the House Judiciary Committee staff, and it wasn't me, 
it was other staff, wrote an excellent report in 1974, and this 
is what they said: Impeachment of a President is a grave step 
for the Nation. It is predicated only upon conduct seriously 
incompatible with either the constitutional form in principle 
of our government or the proper performance of constitutional 
duties of the Presidential office.
    Ms. Lofgren. And I'd ask unanimous consent to enter the 
House Judiciary Committee report on constitutional grounds into 
the record.
    Chairman Nadler. Without objection.
    [The information follows:]

      


                  MS. LOFGREN FOR THE OFFICIAL RECORD

=======================================================================

      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 
    
    Ms. Lofgren. Thank you, Mr. Chairman
    You know, like President Nixon, the allegations against 
President Trump involve serious election-related misconduct. 
Nixon's associates burglarized the DNC headquarters, give them 
a leg up in his election. Nixon tried to cover up the crime by 
obstructing Federal and congressional investigations. He also 
abused his powers to target his political rivals, and here 
we're confronted with evidence suggesting that President Trump 
tried to leverage appropriated military assistance to resist 
Russia by Ukraine to convince a foreign ally to announce an 
investigation of his political rival.
    Professor Karlan, I'd like you to tell me your view on how 
President Trump's conduct, meaning his request of the foreign 
ally to announce an investigation of his adversary, how does 
that compare to what President Nixon did?
    Ms. Karlan. Not favorably, because as I suggested in my 
opening testimony, it was a kind of doubling down, because 
President Nixon abused domestic law enforcement to go after his 
political opponents, and what President Trump has done, based 
on the evidence that we've seen so far, is he's asked a foreign 
country to do that, which means it's not--it's sort of--it's 
sort of like a daily double, if you will, of problems.
    Ms. Lofgren. All right. Professor Gerhardt, do you have 
additional comment on that?
    Mr. Gerhardt. I certainly would agree with Professor 
Karlan, yes. I think the difficulty here is we need to remember 
that impeachable offenses don't have to be criminal offenses, 
as you well know. And so what we're talking about is an abuse 
of power. We're talking about an abuse of power that only the 
President can commit. And there was a systematic, concerted 
effort by the President to remove people that would somehow 
obstruct or block his ability to put that pressure on Ukraine, 
to get an announcement of an investigation. That seems to be 
what he cared about, just the mere announcement. And that 
pressure produced--was going to produce the outcome he wanted 
until the whistleblower put a light on it.
    Ms. Lofgren. I want to go back quickly to something 
Professor Turley said. As we saw in the Miers case--and I was a 
member of the committee when we tried to get her testimony, as 
well as the Fast and Furious case, which also was wrongfully 
withheld from the Congress--litigation to enforce congressional 
subpoenas can extend well beyond the terms of the Presidency 
itself. That happened in both of those cases.
    Professor Feldman, is it, as Professor Turley seemed to 
suggest, an abuse of our power no to go to the courts before 
using our sole power of impeachment, in your judgment?
    Mr. Feldman. Certainly not. Under the Constitution, the 
House is entitled to impeach. That's its power. It doesn't have 
to ask permission from anybody and it doesn't have to go 
through any judicial process involving judicial branch of 
government. That is your decision based on your judgment.
    Ms. Lofgren. Thank you.
    I'd just like to note that this is not a proceeding that I 
looked forward to. It's not an occasion for joy. It's one of 
solemn obligation. I hope and believe that every member of this 
committee is listening, keeping an open mind, and hoping that 
we honor our obligations carefully and honestly.
    And with that, I yield back, Mr. Chairman.
    Chairman Nadler. The gentlelady yields back. The gentlelady 
yields back.
    We are expecting votes on the House floor shortly. So we 
will recess until immediately after the conclusion of those 
votes.
    I ask everyone in the room to please remain seated and 
quiet while the witnesses exit the room. I want to remind 
members of the audience that you may not be guaranteed your 
seat if you leave the hearing room at this time.
    At this time, the committee will stand in recess until 
immediately after the votes.
    [Recess.]
    Chairman Nadler. The committee will come to order.
    When we recessed for our break, we were under the 5-minute 
rule. I now recognize the gentleman from Wisconsin, Mr. 
Sensenbrenner. Oh, let me repeat that.
    The committee will come to order. When we broke for recess, 
we were under the 5-minute rule. I now recognize Mr. 
Sensenbrenner for 5 minutes to question the witnesses.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    I'm a veteran of impeachments. I've been named by the House 
as an impeachment manager in four impeachments, Clinton and 
three judges. That's more than anybody else in history. And one 
of the things in every impeachment, whether it's the ones that 
I was involved in or others that have come before the committee 
where I was not a manager, is a debate on what is a high crime 
and misdemeanor and how serious does that have to be in order 
for it to rise to a level of an impeachable offense.
    About 50 years ago, then Republican leader Gerald Ford made 
a comment that saying a high crime and misdemeanor is anything 
a majority of the House of Representatives deems it to be on 
any given day. I don't agree with that, you know. That sets 
either a very low bar or a nonexistent bar. And it certainly 
would make the President serve at the pleasure of the House, 
which was not what the Framers intended when they rejected the 
British form of parliamentary democracy where the Prime 
Minister and the government could be overthrown by a mere vote 
of no confidence in the House of Commons.
    So I'm looking at what we're facing here. This whole 
inquiry was started out by a comment that President Trump made 
to President Zelensky in the July 25 call of, quote, do me a 
favor, unquote. There are some who have said it's a quid pro 
quo. There are some who have implied that it's a quid pro quo. 
But both Trump and Zelensky have said it wasn't and Zelensky 
has said there was no pressure on me, and the aid came through 
within 6 weeks after the phone call in question was made.
    Now, you can contrast that to where there was no 
impeachment inquiry to Vice President Biden when he was giving 
a speech and said, you know, I held up $1 billion worth of aid 
unless the prosecutor was fired within 6 hours. And son of a 
bleep, that's what happened.
    Now, you know, it seems to me that if you're looking for a 
quid pro quo and looking for something that was really over the 
top, it was not saying, do me a favor; it was saying, son of a 
bleep. That's what happened in 6 hours.
    Now, you know, the Republicans, who were in charge of 
Congress at the time Biden made that comment, we did not tie 
the country up for 3 months and going on 4 now, wrapping 
everybody in this town around the axle rod. We continued 
attempting to do the public's business.
    That's not what's happening here. And I think the American 
public are getting a little bit sick and tired of impeachment, 
impeachment, impeachment, when they know that less than a year 
from now, they will be able to determine whether Donald Trump 
stays in office or somebody else will be elected.
    And I take this responsibility extremely seriously. You 
know, it is an awesome and very grave responsibility, and it is 
not one that should be done lightly, it is not one that should 
be done quickly, and it is not one without examining all of the 
evidence, which is what was done in the Nixon impeachment and 
what was done largely by Kenneth Starr in the Clinton 
impeachment.
    Now, I'd like to ask you, Professor Turley, because your 
mind is the only one of the four who are up there that doesn't 
seem to have it made up before you walked into the door. Isn't 
there a difference between saying, quote, do me a favor and, 
quote, son of a bleep, that's what happened in 6 hours' time?
    Mr. Turley. Grammatically, yes. Constitutionally, it really 
depends on the context. I think your point is a good one in the 
sense that we have to determine from the transcript and 
hopefully from other witnesses whether this statement was part 
of an actual quid pro quo.
    I guess the threshold question is, if the President said, 
I'd like you to do these investigations--and by the way, I 
don't group them together in my testimony. I distinguish 
between the request for investigations into 2016 from the 
investigation into the Bidens. But if it is an issue of order, 
the magnitude of order constitutionally, if you ask, I'd like 
to see you do this as opposed to, I have a quid pro quo, you 
either do this or you don't get military aid.
    Mr. Sensenbrenner. Thank you.
    Chairman Nadler. The time of the gentleman is expired.
    The gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you, Mr. Chairman, for yielding.
    Professor Gerhardt said, if what we are talking about today 
is not impeachable, then nothing is impeachable. I'm reminded 
of my time on the House Judiciary Committee during the 1990s 
impeachment and as well a number of Federal judges. I was 
guided then not only by the facts, but by the Constitution and 
the duty to serve this Nation. I believe, as we greet you 
today, that we are charged with a sober and somber 
responsibility.
    So, Professor Karlan, I'd like you to look at the 
intelligence volume where hundreds of documents are behind that 
in the Mueller report. Professor Karlan, you studied the 
record. Do you think it is, quote, wafer thin, and can you 
remark on the strength of the record before us?
    Ms. Karlan. So obviously it's not wafer thin. And the 
strength of the record is not just in the September--I mean, 
the July 25 call. I think that what you need to ask about this 
is, how does it fit into the pattern of behavior by the 
President? Because what you're really doing is you're drawing 
inferences here. This is about circumstantial evidence as well 
as direct evidence. That is, you're trying to infer did the 
President ask for a political favor, and I think this record 
supports the inference that he did.
    Ms. Jackson Lee. What comparisons, Professor Karlan, can we 
make between kings that the Framers were afraid of and the 
President's conduct today?
    Ms. Karlan. So kings could do no wrong because the king's 
word was law. And contrary to what President Trump has said, 
Article II does not give him the power to do anything he wants. 
And I'll just give you one example that shows you the 
difference between him and a king, which is, the Constitution 
says there can be no titles of nobility. So while the President 
can name his son Barron, he can't make him a baron.
    Ms. Jackson Lee. Thank you.
    The Founding Father George Mason asks, Shall any man be 
above justice? And Alexander Hamilton wrote that high crimes 
and misdemeanors mean the abuse of violation of some public 
trust.
    As we move quickly, Professor Feldman, you have previously 
testified that the President has abused his power. Is that 
correct?
    Mr. Feldman. Yes, ma'am.
    Ms. Jackson Lee. What do you think is the most compelling 
evidence in this impeachment inquiry that would lead you to 
that?
    Mr. Feldman. The phone call itself of July 25 is 
extraordinarily clear, to my mind, in that we hear the 
President asking for a favor that's clearly of personal 
benefit, rather than acting on behalf of the interest of the 
Nation. And then further from that, further down the road, we 
have more evidence which tends to give the context and to 
support the explanation for what happened.
    Ms. Jackson Lee. Professor Karlan, how does such abuse 
affect our democratic systems?
    Ms. Karlan. Having foreign interference in our election 
means that we are less free. It is less we the people who are 
determining who's the next winner than it is a foreign 
government.
    Ms. Jackson Lee. I think it is fair to say that the 
President's actions are unprecedented. But what also strikes me 
is how many Republicans and Democrats believe that his conduct 
was wrong. Let's listen to the colonel.
    [Video shown.]
    Ms. Jackson Lee. Professor Feldman, in light of the fact 
that the President asked for an investigation and then only 
when he was caught released the military aid, is there still a 
need for impeachment?
    Mr. Feldman. Yes, ma'am. Impeachment is complete when the 
President abuses his office and he abuses his office by 
attempting to abuse his office. There's no distinction there 
between trying to do it and succeeding in doing it, and that's 
especially true if you only stop because you got caught.
    Ms. Jackson Lee. Over 70 percent of the American people 
believe, as I said, what the President did was wrong. We have a 
solemn responsibility to address that, and as well, our 
fidelity to our oath and our duty.
    I'm reminded of the men and women who serve in the United 
States military, and I'm reminded of my three uncles who served 
in World War II. I can't imagine them being on the battlefield 
needing arms and food, and the general says, do me a favor. We 
know that general would not say, do me a favor. And so in this 
instance, the American people deserve unfettered leadership, 
and it is our duty to fairly assess the facts and the 
Constitution.
    I yield back my time.
    Chairman Nadler. The gentlelady yields back.
    Mr. Chabot is recognized.
    Mr. Chabot. Thank you, Mr. Chairman.
    It's pretty clear to me that no matter what questions we 
ask these four witnesses here today and no matter what their 
answers are, that most, if not all, of the Democrats on this 
committee, are going to vote to impeach President Trump. That's 
what their hardcore Trump-hating base wants, and they've wanted 
that since the President was elected 3 years ago.
    In fact, when Democrats took over the House, one of the 
first things that they did was introduce Articles of 
Impeachment against President Trump, and that was way before 
President Trump and the Ukrainian President Zelensky ever had 
their famous phone call, whether it was perfect or not.
    Now, today, we are undertaking a largely academic exercise 
instead of hearing from fact witnesses, like Adam Schiff or 
Hunter Biden, but we are not being permitted to call those 
witnesses. It would seem that since Schiff, for example, misled 
the American people on multiple occasions, common sense and 
basic fairness would call for Schiff to be questioned about 
those things, but we can't.
    Mr. Chairman, back in 1998, when another President, Bill 
Clinton, was being considered for impeachment, you said, and I 
quote: ``We must not overturn an election and impeach a 
President without an overwhelming consensus of the American 
people and the representatives in Congress.'' You also said, 
quote: ``There must never be a narrowly voted impeachment or an 
impeachment substantially supported by one of the major 
political parties and largely opposed by the other.'' You said 
such an impeachment would lack legitimacy, would produce 
divisiveness and bitterness in our politics for years to come, 
and will call into question the very legitimacy of our 
political institutions. That's what you said back then, Mr. 
Chairman.
    Well, what you said should never happen, that we should 
never do is exactly what you're doing now, moving forward 
without a consensus and impeachment by one major party that's 
opposed by the other. And it's almost certain that it's going 
to result in the very divisiveness and bitterness that you so 
accurately warned us about back then.
    Mr. Chairman, a couple more quotes from a very wise Jerry 
Nadler from about two decades ago. Quote: ``The last thing you 
want, it's almost illegitimate, is to have a party-line 
impeachment. You shouldn't impeach the President unless it's a 
broad consensus of the American people.'' Those were wise 
words, Mr. Chairman, but you're not following them today.
    And finally, again your words back then: ``The issue in a 
potential impeachment is whether to overturn the results of a 
national election, the free expression of the popular will of 
the American people. That is an enormous responsibility and an 
extraordinary power. It is not one we should exercise lightly. 
It is certainly not one which should be exercised in a manner 
which either is or would be perceived by the American people to 
be unfair or partisan,'' unquote.
    Again, Mr. Chairman, those things that you warned against 
then are exactly what you and your Democratic colleagues are 
doing now. You're about to move forward with a totally party-
line impeachment. That is clearly not a broad consensus of the 
American people. You're overturning the result of a national 
election, and there's no doubt that it will be perceived by at 
least half of the American people as an unfair and partisan 
effort.
    You seem bound and determined to move forward with this 
impeachment, and the American people deserve better. I get it, 
Democrats on this committee don't like this President. They 
don't like his policies. They don't like him as a person. They 
hate his tweets. They don't like the fact that the Mueller 
investigation was a flop. So now you're going to impeach him.
    Well, I got news for you. You may be able to twist enough 
arms in the House to impeach the President, but that effort's 
going to die in the Senate. The President's going to serve out 
his term in office, and in all likelihood be reelected to a 
second term probably with the help of this very impeachment 
charade that we're going through now.
    And while you're wasting so much of Congress' time and the 
American people's money on this impeachment, there are so many 
other important things that are going undone. Within this 
committee's own jurisdiction, we should be addressing the 
opioid epidemic. We could be working together to find a 
solution to our immigration and asylum challenges on our 
southern border. We could be protecting Americans from having 
their intellectual property and jobs stolen by Chinese 
companies, and we could be enhancing election security, just to 
name a few things.
    And Congress as a whole could be working on rebuilding our 
crumbling infrastructure, providing additional tax relief to 
the Nation's middle-class families and providing additional 
security to our people here at home and abroad. Instead, here 
we are spinning our wheels once again on impeachment. What a 
waste. The American people deserve so much better.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chair.
    I take no pleasure in the fact that we're here today. As a 
patriot who loves America, it pains me that the circumstances 
forced us to undertake this grave and solemn obligation. 
Nonetheless, based simply on the publicly available evidence, 
it appears that President Trump pressured a foreign government 
to interfere in our elections by investigating his perceived 
chief political opponent.
    Today, we're here to uphold our oaths to defend the 
Constitution of the United States by furthering our 
understanding whether the President's conduct is impeachable. 
It is entirely appropriate that we're examining our Nation's 
history as it relates to Presidential impeachment. The Framers 
of the Constitution legitimately feared for an interference in 
our Nation's sovereignty, and they wanted to ensure that there 
would be a check and balance on the executive. We sit here with 
a duty to the Founders to fulfill their wisdom in being a check 
on the executive. We, the People's House, are that check.
    Under our Constitution, the House can impeach a President 
for treason, bribery, or other high crimes and misdemeanors. 
Professor Feldman, you've discussed high crimes and 
misdemeanors and the fact that the high refers to both crimes 
and misdemeanors. Can you just give us a little bit of a 
summary of what high crimes and misdemeanors are and how 
they're distinct from what Professor Turley said they were?
    Mr. Feldman. Yes, sir. High crimes and misdemeanors are 
actions of the President in office where he uses his office to 
advance his personal interests potentially for personal gain, 
potentially to corrupt the electoral process, and potentially 
as well against the national security interests of the United 
States.
    I would add, sir, that the word ``high'' modifies both 
crimes and misdemeanors. The Framers' world knew of both high 
crimes and high misdemeanors. And I believe that the definition 
that was posted earlier of misdemeanor was not the definition 
of high misdemeanor, which is a specific term understood by the 
Framers and discussed in the constitutional convention, but 
only of the word ``misdemeanor.''
    And that's an easy mistake to make, but the truth is that 
high misdemeanors were their own category of abuses of office, 
and those are the things that are impeachable.
    Mr. Cohen. Thank you, Professor.
    Professors Feldman, Karlan, and Gerhardt, you've all 
testified the President's conduct here implicates three 
categories of high crimes and misdemeanors: abuse of power, 
betrayal of the national interest, and corruption of elections. 
Is that right, Professor Karlan?
    Ms. Karlan. Yes, it is.
    Mr. Cohen. And to Professor Feldman and Professor Gerhardt, 
do you agree?
    Mr. Gerhardt. Yes.
    Mr. Feldman. Yes, sir.
    Mr. Cohen. Professor Karlan, you've stated that the essence 
of an impeachable offense is the President's decision to 
sacrifice the national interest for his own private ends. 
Professor Feldman and Gerhardt, do you all also agree with 
that?
    Mr. Feldman. Yes, sir.
    Mr. Gerhardt. Yes.
    Mr. Cohen. Based on the evidence you've seen, Professors 
Feldman, Karlan, and Gerhardt, has President Trump sacrificed 
the country's interest in favor of his own? Professor Karlan.
    Ms. Karlan. Yes, he has.
    Mr. Cohen. And is there a particular piece of evidence that 
most illuminates that?
    Ms. Karlan. I think what illuminates that most for me is 
the statement by Ambassador Sondland that he wanted simply the 
announcement of an investigation, and several other people said 
exactly the same thing. There's testimony by Ambassador Volker 
to this extent as well that what he wanted was simply public 
information to damage Joe Biden. He didn't care whether at the 
end of the day Joe Biden was found guilty or exonerated.
    Mr. Cohen. And, Professor Feldman, do you agree and do you 
have a different or the same illuminating fact----
    Mr. Feldman. My emphasis would be on the fact that the 
President held up aid to an ally that's fighting a war in 
direct contravention of the unanimous recommendation of the 
national security community. That to me seems to have placed 
his own interests in personal advantage ahead of the interests 
of the Nation.
    Mr. Cohen. And a bill passed by Congress, bipartisan?
    Mr. Feldman. Yes, sir.
    Mr. Cohen. Professor Gerhardt.
    Mr. Gerhardt. I agree with what my colleagues have said. I 
would add that I am very concerned about the President's 
obstruction of Congress, obstruction of this inquiry, refusal 
to comply with a number of subpoenas, ordering many high-level 
officials in the government not to comply with subpoenas, and 
asking and ordering the entire executive branch not to 
cooperate with Congress.
    It's useful to remember, the Constitution says the House 
has the sole power to impeach. The Constitution only uses the 
word ``sole'' twice; once with reference to the House in this 
area, once with reference to the Senate with respect to 
impeachment trials. Sole means sole. It means only. And this is 
your decision.
    Mr. Cohen. And let me get Professor Turley into this. 
Professor Turley, you're a self-described, self-anointed 
defender of Article I Congress guy. But you justify a position 
that says legally issued subpoenas by Congress enforcing its 
powers don't have to be complied with. It seems in this 
circumstance you're an Article II executive guy. And you're 
talking about the Johnson impeachment as not very useful. That 
was maladministration. This is a criminal act.
    Thank you, Professors, for helping us understand high 
crimes and misdemeanors. We the People's Representatives in the 
People's House are heirs and custodians that Founders 
envisioned this country where the people are sovereign. We have 
a high responsibility and charged with the sole power to uphold 
our Constitution and defend our democracy, and we shall do 
that.
    Chairman Nadler. The gentleman's time is expired.
    Mr. Gohmert.
    Mr. Gohmert. Thank you.
    I'm afraid this hearing is indicative of the indecency to 
which we've come when, instead of the committee of jurisdiction 
bringing in fact witnesses to get to the bottom of what 
happened and not even having time to review the report, which 
as Professor Turley indicated is wafer thin when compared to 
the 36 boxes of documents that were delivered to the last 
impeachment group, but then to start this hearing with the 
chairman of the committee saying that the facts are undisputed; 
the only thing that is disputed more than the facts in this 
case is the statement that the facts are undisputed.
    They are absolutely disputed, and the evidence is a bunch 
of hearsay on hearsay that if anybody here had tried cases 
before of enough magnitude, you would know you can't rely on 
hearsay on hearsay. But we have experts who know better than 
the accumulated experience of the ages.
    So here we are. And I would submit we need some factual 
witnesses. We do not need to receive a report that we don't 
have a chance to read before this hearing. We need a chance to 
bring in actual fact witnesses, and there are a couple I can 
name that are critical to us getting to the bottom. They work 
for the National Security Council, Abigail Grace, Sean Misko. 
They were involved in the U.S.-Ukraine affairs, and they worked 
with Vice President Biden on different matters involving 
Ukraine. They worked with Brennan and Masters. They have 
absolutely critical information about certain Ukrainians' 
involvement in our U.S. election. Their relationships with the 
witnesses who went before the Intel Committee and others 
involved in these allegations make them the most critical 
witnesses in this entire investigation.
    And the records, including their emails, their text 
messages, their flash drives, their computers, have information 
that will bring this effort to remove the President to a 
screeching halt.
    So we have an article here from October 11, Kerry Picket, 
points out that House Intelligence Committee Chairman Adam 
Schiff recruited two former National Security Council aides who 
worked alongside the CIA whistleblower at the NSC during the 
Obama and Trump administrations. Abigail Grace, who worked at 
the NSC until 2018, was hired in February, while Sean Misko, an 
NSC aide until 2017, joined Schiff's committee in August, the 
same month the whistleblower submitted his complaint.
    And it goes on to point out that Grace was hired to help 
Schiff's committee investigate the Trump White House. That 
month, Trump accused Schiff of stealing people who were working 
at the White House. And Chairman Schiff said, if the 
President's worried about our hiring any former administration 
people, maybe he should work on being a better employer. No, he 
should have fired everybody, just like Bill Clinton did, all 
the U.S. attorneys on the same day. That would have saved us a 
lot of what's gone on here.
    So anyway, we need those two witnesses. They're critical. 
And then we also need someone who was a CIA detailee to the 
Ukraine NSC desk. State Department FOIA shows that he was at an 
Italy State luncheon. There's Italy ramifications in the last 
elections. He speaks Arabic and Russian, reported directly to 
Charles Kupchan, who is a friend of the Clinton's aide, Sid 
Blumenthal. He did policy work for the Ukraine corruption. 
Close, continuous contact with the FBI, State, Ukrainian 
officials, had a collateral duty to support Vice President 
Biden, and Biden was Obama's point man on Ukraine. He was 
associated with DNC operative Ally Chalupa, who we also need, 
met with her November 9, 2015, with Ukrainian delegation. And 
there is all kinds of reasons we need these three witnesses.
    And I would ask, pursuant to section 4, House Resolution 
660, ask our chairman to---- I mean our ranking member to 
submit the request for these three witnesses, because we're not 
having a factual hearing until we have these people that are at 
the bottom of every fact of this investigation.
    I yield back.
    Chairman Nadler. The gentleman's time is expired.
    Mr. Gohmert. Thanks for bringing down the gavel hard. That 
was nice.
    Chairman Nadler. The gentleman yields back.
    Mr. Johnson.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    The President has regularly and recently solicited foreign 
interference in our upcoming elections. Professor Turley warns 
that this is an impulse buy moment and suggests that the House 
should pause.
    Professor Karlan, do you agree with Professor Turley?
    Ms. Karlan. No. If you conclude that, as I think the 
evidence to this point shows, that the President is soliciting 
foreign involvement in our election, you need to act now to 
prevent foreign interference in the next election like the one 
we had in the past.
    Mr. Johnson of Georgia. Thank you.
    Professor Karlan, in 30 seconds or less, tell us why you 
believe the President's misconduct was an abuse of power so 
egregious that it merits the drastic remedy of impeachment.
    Ms. Karlan. Because he invited the Russians, who are our 
longtime adversaries, into the process, the last time around, 
because he has invited the Ukrainians into the process, and 
because he's suggested he would like the Chinese to come into 
the process as well.
    Mr. Johnson of Georgia. Thank you very much.
    One of the Framers of our Constitution, Edmund Randolph, 
who at one time was mayor of Williamsburg, Virginia, warned us 
that, quote, ``The executive will have great opportunities of 
abusing his power,'' end quote.
    Professor Feldman, people like Mayor Randolph rebelled 
because of the tyranny of a king. Why were the Framers so 
careful to avoid the potential for a President to become so 
tyrannical and abusive, and what did they do to protect against 
it?
    Mr. Feldman. The Framers believed very strongly that the 
people were the king, the people were sovereign, and that meant 
that the President worked for somebody. He worked for the 
people. They knew that a President who couldn't be checked, who 
could not be supervised by his own Justice Department and who 
could not be supervised by Congress and could not be impeached 
would effectively be above the law and then would use his power 
to get himself reelected, and that's why they created the 
impeachment remedy.
    Mr. Johnson of Georgia. Thank you.
    Professor Feldman, I now want to discuss how the Framers' 
concerns about abuse of power relate to President Trump's 
misconduct. On July 25, President Trump said to President 
Zelensky, quote, I would like you to do us a favor, though.
    Professor Feldman, when President Trump made use of the 
words ``favor, though,'' do you believe that the President was 
benignly asking for a favor, and how is the answer to that 
question relevant to whether the President abused his power?
    Mr. Feldman. It's relevant, sir, because there's nothing 
wrong with someone asking for a favor in the interest of the 
United States of America. The problem is for the President to 
use his office to solicit or demand a favor for his personal 
benefit.
    And the evidence strongly suggests that given the power of 
the President and given the incentives that the President 
created for Ukraine to comply with his request, that the 
President was seeking to serve his own personal benefit and his 
own personal interest. That's the definition of corruption 
under the Constitution.
    Mr. Johnson of Georgia. Other witnesses have also testified 
that it was their impression that when President Trump said, I 
would like you to do us a favor, though, that he was actually 
making a demand and not a request.
    Professor Feldman, how does Lieutenant Colonel Vindman's 
testimony that the President's statement was a demand because 
of the power disparity between the two countries relate back to 
our Framers' concerns about the President's abuse of power?
    Mr. Feldman. Lieutenant Colonel Vindman's observations 
states very clearly that you have to understand that the 
President of the United States has so much more power than the 
President of Ukraine, that when the President uses the word 
``favor,'' the reality is that he's applying tremendous 
pressure, the pressure of the power of the United States. And 
that relates to the constitutional abuse of office.
    If someone other than the President of the United States 
asked the President of Ukraine to do a favor, the President of 
the Ukraine could say no. When the President of the United 
States uses the Office of the Presidency to ask for a favor, 
there's simply no way for the President of Ukraine to refuse.
    Mr. Johnson of Georgia. Thank you.
    We've also heard testimony that the President withheld a 
White House meeting and military aid in order to further 
pressure Ukraine to announce investigations of Vice President 
Biden and the 2016 election.
    Professor Karlan, is that why your testimony concluded that 
the President abused his power?
    Ms. Karlan. I thought the President abused his power by 
asking for a criminal investigation of a United States citizen 
for political ends, regardless of everything else. That's 
just--it's not icing on the cake. It's what you would call an 
aggravating circumstance that there was need here.
    Mr. Johnson of Georgia. All right. Thank you.
    A President holding an American ally over a barrel to 
extract personal favors is deeply troubling. This is not an 
impulse buy moment. It's a break-the-glass moment, and 
impeachment is the only appropriate remedy.
    And with that, I will yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Before Speaker Pelosi announced the impeachment inquiry 10 
weeks ago, on September 24th, before the call between President 
Trump and President Zelensky on July 25, before the Mueller 
hearing in front of this committee on July 24, before all that, 
16 of them had already voted to move forward on impeachment.
    Sixteen Democrats on the Judiciary Committee had already 
voted to move forward on impeachment, yet today we're talking 
about whether the positions they've already taken are 
constitutional? Seems a little backward to me. I mean, we can't 
get agreement. I mean, we've got four Democrats--or four people 
who voted for Clinton, and they can't agree. Yet today we're 
talking about the Constitution.
    Now, Professor Turley, you've been great today, but I think 
you were wrong on one thing: You said this is a fast 
impeachment. I would argue it's not a fast impeachment; it's a 
predetermined impeachment, predetermined impeachment done in 
the most unfair partisan fashion we have ever seen.
    No subpoena power for Republicans. Depositions done in 
secret in the bunker in the basement of the Capitol. Seventeen 
people come in for those depositions. No one can be in there 
except a handful of folks that Adam Schiff allowed. In those 
depositions, Chairman Schiff prevented witnesses from answering 
Republican questions. Every Democrat question got answered, not 
every Republican question.
    Democrats denied Republicans the witnesses we wanted in the 
open hearings that took place 3 weeks ago. And, of course, 
Democrats promised us the whistleblower would testify and then 
changed their mind. And they changed their mind, why? Because 
the whole world discovered that Adam Schiff's staff had talked 
to the whistleblower, coordinated with the whistleblower, the 
whistleblower with no firsthand knowledge, bias against the 
President who worked with Joe Biden, whose lawyer in January of 
2017 said the impeachment process starts then.
    That's the unfair process we've been through. And the 
reason it's been unfair--let me just cut to the chase--the 
reason it's been unfair is because the facts aren't on their 
side. The facts are on the President's side. Four key facts 
will not change, have not changed, will never change. We have 
the transcript. There was no quid pro quo in the transcript.
    The two guys on the call, President Trump and President 
Zelensky, both said no pressure, no pushing, no quid pro quo. 
The Ukrainians--third--didn't know that the aid was held up at 
the time of the phone call; and, fourth, and most important, 
the Ukrainians never started, never promised to start, and 
never announced an investigation in the time that the aid was 
paused, never once.
    But you know what did happen in those 55 days that the aid 
was paused? There were five key meetings between President 
Zelensky and senior officials in our government, five key 
meetings. We had the call on July 25th. The very next day, July 
26th, we had Ambassador Volker, Taylor, and Sondland meet with 
President Zelensky in Kyiv.
    You then had Ambassador Bolton end of August meet with 
President Zelensky. We then had the Vice President meet with 
President Zelensky on September 1st. And we had two Senators, 
Republican and, more importantly, Democratic Senator Murphy 
with Republican Senator Johnson meet with President Zelensky on 
September 5th.
    None of those five meetings--none of those five meetings--
was aid ever discussed in exchange for an announcement of an 
investigation into anybody, not one of them. And you would 
think the last two, after the Ukrainians did know the aid was 
being held, you would think it would come up then, particularly 
the one where he got Senator Murphy, the Democrat, there 
talking about it. Never came up.
    The facts are on the President's side. But we've got an 
unfair process because they don't have the facts. We've got an 
unfair process, most importantly--and this gets to something 
else you said, Mr. Turley, and this is scary how mad the 
country--that was so well said. This is scary. The Democrats 
have never accepted the will of the American people.
    To Mr. Turley's point, 17 days ago, 17 days ago the Speaker 
of the United States House of Representatives called the 
President of the United States an imposter. The guy 63 million 
Americans voted for, who won an Electoral College landslide, 
the Speaker of the United States House of Representatives 
called that individual an imposter. That is not healthy for our 
country. This is not healthy.
    The facts are the facts. They are on the President's side. 
That's what we need to focus on, not some constitutional 
hearing at the end of the process when you guys have already 
determined where you're going to go.
    With that, I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Chairman, this month, we commemorate the 75th 
anniversary of the Battle of the Bulge. My late father, Bernard 
Deutch, then Staff Sergeant Bernard Deutch, received a Purple 
Heart fighting in the frigid Ardennes. He gave blood among tens 
of thousands of Americans who suffered--who were casualties. 
They served under officers and a Commander in Chief who were 
not fighting a war for their own personal benefit.
    They put country first. They made the same solemn promise 
that Members of Congress and the President of the United States 
make: to always put national interests above their own personal 
interest. The evidence shows the President broke that promise. 
The Constitution gives the President enormous power, but it 
also imposes a remedy--impeachment--when those powers are 
abused.
    In July, President Trump said, and I quote, I have an 
Article II where I have the right to do whatever I want as 
President, closed quote. Professor Feldman, the President has 
broad powers under the Constitution, including in foreign 
policy. Isn't that right?
    Mr. Feldman. Yes, sir.
    Mr. Deutch. And do those powers mean that the President can 
do, as he said, whatever he wants as President? Can he abuse 
the powers that the Constitution gives him?
    Mr. Feldman. He may not. If the President uses the powers 
that he's given for personal gain or to corrupt an election or 
against the national security interest of the United States, he 
may be impeached for a high crime and misdemeanor.
    Mr. Deutch. Is using his power to pressure Ukraine to 
interfere in U.S. elections an abuse of that power?
    Mr. Feldman. Yes, sir.
    Mr. Deutch. Professor Gerhardt, how would the Framers of 
the Constitution have viewed a President asking for election 
interference from a foreign leader?
    Mr. Gerhardt. It's always--it's, you know, practically 
impossible to know exactly what the Framers would think, but 
it's not hard to imagine how the Constitution deals with it. 
That's their legacy to us. And under the Constitution, it's 
plainly an abuse of power. It's a rather horrifying abuse of 
power.
    Mr. Deutch. Professor Karlan, we've heard witnesses over 
the past several weeks testify about their concerns when the 
President used his foreign policy powers for political gain. 
Lieutenant Colonel Vindman was shocked. He couldn't believe 
what he heard on the phone call. NSC Adviser Hill realized that 
a political errand was diverging from efforts to protect our 
national security policy. And Ambassador Taylor thought it was 
crazy to withhold security assistance for help on a political 
campaign.
    Professor Karlan, these concerns aren't mere differences 
over policy, are they?
    Ms. Karlan. No. They go to the foundation, the very 
foundation of our democracy.
    Mr. Deutch. And offering to exchange a White House meeting 
and hundreds of millions of dollars in security assistance for 
help with his reelection, that can't be part of our Nation's 
foreign policy, can it?
    Ms. Karlan. No. It's the essence of doing something for 
personal reasons rather than for political reasons. And if I 
could just say one thing about this very briefly, which is 
maybe when he was first running for President--he had never 
been anything other than a reality TV show character, you know, 
that was his public life--maybe then he could think, ``Russia, 
if you're listening'' is an okay thing to do. But by the time 
he asked the Ukraine, ``Ukraine, if you're listening, could you 
help me out with my reelection,'' he has to have known that 
that was not something consistent with his oath of office.
    Mr. Deutch. Mr. Chairman, our Founders granted the 
President of the United States enormous powers, but at the same 
time, what we've been reminded of today, they worried that 
these powers could be abused by a corrupt President. The 
evidence of abuse of power in this inquiry proved that our 
Founders were right to be worried.
    Yes, yes, the President has the power to direct America's 
foreign policy, but, no, he cannot use that power to cheat in 
our elections. Remember, and I ask all of my colleagues to 
remember, the Constitution grants the President his power 
through the American people. The President's source of power is 
a democratic election. It is the American people, the voters 
who trusted him to look out for them. We trusted him to look 
out for the country.
    But, instead, President Trump looked out for himself and 
helping himself get reelected. He abused the power that we 
trusted him with for personal and political gain. The founders 
worried about just this type of abuse of power, and they 
provided one way, one way for Congress to respond, and that's 
the power of impeachment.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Buck.
    Mr. Buck. Thank you, Mr. Chairman.
    Professor Turley, I want to direct these first few 
questions to you. The other three witnesses have identified 
this amorphous standard for impeaching a President. They've 
said that if a President abuses his power for personal or 
political gain, it's impeachable conduct. Do you agree with me?
    Mr. Turley. Not the way it's been stated. In fact, there's 
so many different standards----
    Mr. Buck. I've got a long ways to go here.
    Mr. Turley. Well, there's been so many different standards, 
one of them was attempting to abuse office. I'm not even sure 
how to recognize that, let alone define it.
    Mr. Buck. So let me go with a few examples and see if you 
agree with me. Lyndon Johnson directed the Central Intelligence 
Agency to place a spy in Barry Goldwater's campaign. That spy 
got advanced copies of speeches and other strategy, delivered 
that to the Johnson campaign. Would that be impeachable conduct 
according to the other panelists?
    Mr. Turley. Well, it sweeps very broadly, so I assume so.
    Mr. Buck. How about when President Johnson put a wiretap on 
Goldwater's campaign plane? Would that be for political 
benefit?
    Mr. Turley. Well, I can't exclude anything under that 
definition.
    Mr. Buck. Okay. Well, I'm going to go with a few other 
Presidents. We'll see where we go. Congressman Deutch just 
informed us that FDR put country first. Now, Franklin Delano 
Roosevelt when he was President directed the IRS to conduct 
audits of his political enemies, namely Huey Long, William 
Randolph Hearst, Hamilton Fish, Father Coughlin. Would that be 
an abuse of power for political benefit according to the other 
panelists? Would that be impeachable conduct?
    Mr. Turley. I think it all would be subsumed into it.
    Mr. Buck. How about when President Kennedy directed his 
brother Robert Kennedy to deport one of his mistresses as an 
East German spy? Would that qualify as impeachable conduct?
    Mr. Turley. Once again, I can't exclude it.
    Mr. Buck. And how about when we directed the FBI to use 
wiretaps on congressional staffers who opposed him politically? 
Would that be impeachable conduct?
    Mr. Turley. It would seem to be falling within it.
    Mr. Buck. And let's go to Barack Obama. When Barack Obama 
directed or made a finding that the Senate was in recess and 
appointed people to the National Labor Relations Board and lost 
nine to zero, Ruth Bader Ginsburg voted against the President 
on this issue, would that be an abuse of power?
    Mr. Turley. I'm afraid you'd have to direct it to others, 
but I don't see any exclusions under their definition.
    Mr. Buck. Okay. And how about when the President directed 
his National Security Advisor and the Secretary of State to lie 
to the American people about whether the Ambassador to Libya 
was murdered as a result of a video or was murdered as a result 
of a terrorist act? Would that be an abuse of power for a 
political benefit, 17 days before the next election?
    Mr. Turley. Well, not according to my definition, but the 
others will have to respond to their own.
    Mr. Buck. Well, you've heard their definition. You can 
apply those facts to their definition.
    Mr. Turley. I have a hard time excluding anything out of--
--
    Mr. Buck. How about when Abraham Lincoln arrested 
legislators in Maryland so that they wouldn't convene to secede 
from the Union? And Virginia already had seceded, so it would 
place Washington, D.C., the Nation's capital, in the middle of 
the rebellion. Would that have been an abuse of power for 
political benefit?
    Mr. Turley. Well, it could be under that definition.
    Mr. Buck. And you mentioned George Washington a little 
while ago as perhaps having met the standard of impeachment for 
your other panelists. In fact, let me ask you something, 
Professor Turley. Can you name a single President in the 
history of the United States, save President Harrison who died 
32 days after his inauguration, that would not have met the 
standard of impeachment for our friends here?
    Mr. Turley. I would hope to God James Madison would escape; 
otherwise, a lifetime of academic work would be shredded. But, 
once again, I can't exclude many of these acts.
    Mr. Buck. Isn't what you and I and many others are afraid 
of is that the standard that your friends to the right of you--
and not politically but to the right of you sitting in there--
that your friends have decided that the bar is so low that when 
we have a Democrat President in office and a Republican House 
and a Republican Senate, we're going to be going through this 
whole scenario again in a way that really puts the country at 
risk?
    Mr. Turley. Well, when your graphic says in your ABCs that 
your B is betrayal of national interest, I would simply ask, do 
you really want that to be your standard?
    Mr. Buck. Now, isn't the difference, Professor Turley, that 
some people live in an ivory tower and some people live in a 
swamp? And those of us that are in the swamp are doing our very 
best for the American people, but it's not pretty.
    Mr. Turley. Actually, I live in an ivory tower in a swamp, 
because I'm at GW, but--and it's not so bad.
    Mr. Buck. I yield back.
    Chairman Nadler. The gentleman yields back.
    Ms. Bass.
    Ms. Bass. Thank you very much.
    And I want to thank the witnesses, and I don't believe the 
people's House is a swamp.
    President Nixon was impeached for abuse of power because 
his conduct was, quote, undertaken for his personal political 
advantage and not in furtherance of any valid national policy 
objective. Professor Gerhardt, why was it significant that 
President Nixon acted for his personal political advantage and 
not in furtherance of any valid national policy objective?
    Mr. Turley. It's primarily significant because, in acting 
for his own personal benefit and not for the benefit of the 
country, he has crossed a line. The line here is very clear, 
and it becomes abuse of power when somebody is using the 
special authorities of their office for their own personal 
benefit and not the benefit of the country.
    Ms. Bass. So can the same be said of President Trump?
    Mr. Gerhardt. It could be, yes. Yes.
    Ms. Bass. Well, thank you. You know, I'm struck by the 
parallels because one of the things that Nixon did was he 
launched tax investigations of his political opponents. Here 
the evidence shows Trump tried to launch a criminal 
investigation of his political opponent by a foreign 
government.
    We have heard evidence suggesting that President Trump did 
this for his own personal gain and not for any national policy 
interest. Although President Trump claims that he withheld the 
aid because of concerns about corruption, I do believe that we 
have example of the evidence of the truth.
    [Video shown.]
    Ms. Bass. Professor Feldman, what would the Framers have 
thought of a President who only cares about the, quote, big 
stuff that benefits him?
    Mr. Feldman. The Framers were extremely worried about a 
President who served only his own interests or the interests of 
foreign powers. That was their most serious concern when they 
designed the remedy of impeachment.
    Ms. Bass. So the evidence also suggests that President 
Trump didn't even care if the investigation actually happened. 
What he really cared about was the public announcement of the 
investigation.
    So, Professor Karlan, how do we analyze these facts in the 
context of abuse of power?
    Ms. Karlan. Well, I think that to have a President ask for 
the investigation of his political opponents is an archetype of 
the abuse of power. And, you know, Mr. Buck mentioned past 
examples of this. And to say that those weren't impeachable, I 
think, is a big mistake. If a President wiretaps his opponents, 
that's a Federal crime now. I don't know whether, before the 
Wiretap Act of 1968, it was, but if a President wiretapped his 
opponents today, that would be impeachable conduct.
    Ms. Bass. I also serve on the Foreign Affairs Committee, 
and I understand how significant it is to foreign leaders to 
meet with our Presidents. To attend a meeting in the Oval 
Office is very significant. President Zelensky is a newly 
elected head of state in a fledgling democracy. His country is 
at war with his neighbor. Russia invaded and is occupying his 
country's territory. He needed the military resources to defend 
his country. He needed the diplomatic recognition of the 
American President, and he was prepared to do whatever the 
President demanded.
    Many years ago, I worked in the Nation's largest trauma 
unit as a PA, a physician assistant. I saw people at their 
worst in severe pain after accidents or acts of violence. 
Patients I took care of were desperate and afraid and had to 
wait 5 to 8 hours to be seen.
    Can you imagine for 1 minute if I had told my patients, 
look, I can move you up in line and take care of your pain, but 
I do need a favor from you though. My patients were in pain, 
and they were desperate, and they would have agreed to do 
anything I asked. This would have been such an abuse of my 
position because of the power dynamic. I had the power to 
relieve my patients from experiencing pain. It's fundamentally 
wrong and, in many cases, illegal for us to use power to take 
advantage of those in crisis, especially a President, 
especially when lives are at stake.
    I yield back.
    Chairman Nadler. The gentlelady yields back.
    Mr. Ratcliffe.
    Mr. Ratcliffe. I thank the chairman.
    Professor Turley, I'd like to start where you started 
because you said something that I think bears repeating. You 
said, I'm not a supporter of President Trump. I voted against 
him in 2016, and I have previously voted for Presidents Clinton 
and Obama. But despite your political preferences and 
persuasions, you reached this conclusion: The current legal 
case for impeachment is not just woefully inadequate but in 
some respects dangerous as the basis for impeachment of an 
American President.
    So let me start by commending you for being the kind of 
example of what hopefully everyone on this committee will do as 
we approach the task that we have of determining whether or not 
there were any impeachable offenses here.
    One of the problems that you've articulated as leading you 
to the conclusion of calling this the, should it proceed, the 
shortest impeachment proceeding with the thinnest evidentiary 
record and the narrowest grounds ever attempted to impeach a 
President, is the fact that there has been this ever changing, 
constantly evolving moving target of accusations, if you will.
    The July 25 phone call started out as an alleged quid pro 
quo and briefly became an extortion scheme, a bribery scheme. I 
think it's back to quid pro quo. Now, besides pointing out that 
both Speaker Pelosi and Chairman Schiff waited until almost 
every witness had been deposed before they even started to use 
the term ``bribery,'' I think you've clearly articulated why 
you think the definitions that they have used publicly are 
flawed if not unconstitutional both in the 18th century or in 
the 21st century. But would you agree with me that bribery 
under any valid definition requires that a specific quid pro 
quo be proven?
    Mr. Turley. Yes. More importantly, the Supreme Court is 
focused on that issue, as well as, what is the definition of a 
quid pro quo?
    Mr. Ratcliffe. So, if military aid or security assistance 
is part of that quid pro quo, where in the July 25th transcript 
does President Trump ever suggest that he intends to withhold 
military aid for any reason?
    Mr. Turley. He doesn't, and that's the reason we keep on 
hearing the words ``circumstantial'' and ``inferential.'' And 
that is what is so concerning is those would be appropriate 
terms--it's not that you can't have a circumstantial case. 
Those would be appropriate terms if these were unknowable 
facts. But the problem is that you have so many witnesses that 
have not been subpoenaed, so many witnesses that we have not 
heard from.
    Mr. Ratcliffe. Right. So, if it's not in the transcript, 
then it has got to come from witness testimony. And I assume 
you've reviewed all the witness testimony, so you know that no 
witness has testified that they either heard President Trump or 
were told by President Trump to withhold military aid for any 
reason, correct?
    Mr. Turley. Correct.
    Mr. Ratcliffe. So let me turn to the issue of obstruction 
of justice quickly. I think you assumed, as I did, that when 
the Democrats have been talking about obstruction, it was 
specifically related to the Ukraine issue. And I know you've 
talked about that a lot today. You've clearly stated that you 
think that President Trump had no corrupt intent, on page 39 of 
your report.
    You said something else I think that bears repeating today. 
You were highlighting the fact that the Democrats appear to be 
taking the position that if a President seeks judicial review 
over executive branch testimony or documents subpoenaed by 
Congress that, rather than letting the courts be the arbiter, 
Congress can simply impeach the President for obstruction based 
on that. Did I hear you say that if we were to proceed on that 
basis, that that would be an abuse of power?
    Mr. Turley. I did. And let me be very clear about this. I 
don't disagree with my colleagues that nothing in the 
Constitution says you have to go to a court or wait for a 
court. That's not what I'm saying. What I'm saying is that, if 
you want a well based, a legitimate impeachment case to set 
this abbreviated schedule, demand documents, and then impeach 
because they haven't been turned over when they go to a court, 
when the President goes to a court, I think that is an abuse of 
power.
    That's not what happened in Nixon, and, in fact, the 
ultimate decision in Nixon was that there are legitimate 
executive privilege claims that could be raised, and some of 
them deal with the type of aides involved in this case, like a 
National Security Advisor, like a White House counsel. And so 
with the concern here is not that there is--that you can't ever 
impeach a President unless you go to court, just that you 
shouldn't when you have time to do it.
    Mr. Ratcliffe. So, if I were to summarize your testimony, 
no bribery, no extortion, no obstruction of justice, no abuse 
of power, is that fair?
    Mr. Turley. Not on this record.
    Chairman Nadler. The gentleman's time is expired.
    Mr. Ratcliffe. I yield back.
    Chairman Nadler. Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman.
    And let me just pick up where we left off, and I'm going to 
start, Mr. Turley, with your words, and it's from October 23rd, 
your opinion piece in The Hill. You said that: As I have said 
before, there is no question that the use of public office for 
personal gain is an impeachable offense, including the 
withholding of military aid in exchange for the investigation 
of a political opponent. You just have to prove it happened. If 
you can establish intent to use public office for personal 
gain, you have a viable impeachable offense.
    We've heard today that a President abuses his power when he 
uses his official power for his own personal interest rather 
than the interest of our country.
    I'd like to spend more time on that because I'm really 
struck by one of the things that was at stake here, $400 
million of taxpayer dollars. President Nixon leveraged the 
powers of his office to investigate political rivals, but here 
the evidence shows that President Trump also leveraged taxpayer 
dollars to get Ukraine to announce sham investigations of 
President Trump's political rivals. That taxpayer money was 
meant to help Ukraine defend itself and in turn defend United 
States interests from Russian aggression.
    The money had been appropriated by Congress and certified 
by the Department of Defense. Multiple witnesses confirmed that 
there was unanimous support for the military aid to Ukraine. 
Can we listen to that, please?
    [Video shown.]
    Mr. Richmond. Professor Feldman, you've stated that the 
President's demand to the President of Ukraine constituted an 
abuse of power. How does the President's decision to withhold 
military aid affect your analysis?
    Mr. Feldman. It means that it wasn't just an abuse of power 
because the President was serving his own personal interests 
but also an abuse of power insofar as the President was putting 
American national security interests behind his own personal 
interests, so it brought together two important aspects of the 
abuse of power, self-gain and undercutting our national 
security interests.
    Mr. Richmond. The evidence points to President Trump using 
military aid for his personal benefit, not for the benefit of 
any official U.S. policy. Professor Karlan, how would the 
Framers have interpreted that?
    Ms. Karlan. Well, I can't speak for the Framers themselves, 
obviously. My view is that they would say that the President's 
authority to use foreign aid--and they probably couldn't have 
imagined we even were giving foreign aid because we were a 
tiny, poor country then, so it's a little hard to translate 
that.
    But what they would have said is a President who doesn't 
think first about the security of the United States is not 
doing what his oath requires him to do, which was faithfully 
execute the laws, here a law appropriating money, and defend 
the Constitution of the United States.
    Mr. Richmond. Thank you. And let's go back to a segment of 
Mr. Turley's quote, that if you can establish intent to use 
public office for personal gain, you have a viable impeachable 
offense.
    Mr. Feldman, do we meet that criteria here?
    Mr. Feldman. In my view, the evidence does meet that 
criteria, and that's the judgment that you should be making.
    Mr. Richmond. Ms. Karlan.
    Ms. Karlan. Yes. And one question I would just have for the 
minority members of the committee. If you were convinced that 
the President held up the aid because he thought it would help 
his reelection, would you vote to impeach him? Because I think 
that's really the question that everyone on this committee 
should be asking. And if they conclude yes, then they should 
vote to impeach.
    Mr. Richmond. Mr. Gerhardt.
    Mr. Gerhardt. Yes, I agree. And one thing I would add is 
that much talk has been made here about the term bribery in 
court decisions with respect to bribery. It's your job, it's 
the House's job to define bribery, not the courts'. You follow 
your judgment on that.
    Mr. Richmond. I want to thank the witnesses--all of the 
witnesses for coming in and testifying today. This is not an 
easy decision, it's not a comfortable decision, but it's one 
that's necessary. We all take an oath to protect the 
Constitution.
    Our military, our men and women go and put their lives on 
the line for the Constitution, and we have an obligation to 
follow the Constitution whether it's convenient or easy. Thank 
you, and I yield back the balance.
    Chairman Nadler. The gentleman yields back.
    Mrs. Roby.
    Mrs. Roby. Very quickly. Professor Turley, would you like 
to respond?
    Mr. Turley. Yes, I would. First of all, what was said in 
that column is exactly what I said in my testimony. The problem 
is not that abuse of power can never be an impeachable offense, 
you just have to prove it and you haven't.
    It's not enough to say, I infer this was the purpose. I 
infer that this is what was intended, when you're not actually 
subpoenaing people with direct knowledge. And, instead, you're 
saying we must vote in this rocket docket of an impeachment.
    Mrs. Roby. So this leads to my statement that I'd like to 
make. Of course, the United States House of Representatives has 
initiated impeachment inquiries against the President of the 
United States only three times in our a Nation's history prior 
to this one. Those impeachment inquiries were done in this 
committee, the Judiciary Committee, which has jurisdiction over 
impeachment matters.
    Here in 2019, under this inquiry, fact witnesses have been 
called--fact witness that had been called were in front of the 
Intelligence Committee. We have been given no indication that 
this committee will conduct substantive hearings with fact 
witnesses.
    As a Member serving on the Judiciary Committee, I can say 
that the process in which we are participating is insufficient, 
unprecedented, and grossly inadequate.
    Sitting before us is a panel of witnesses containing four 
distinguished law professors from some of our country's finest 
educational institutions. I do not doubt that each of you are 
extremely well-versed in the subject of the Constitutional law. 
And, yes, there is precedent for similar panels in the 
aforementioned history, but only after specific charges have 
been made known, and the underlying facts presented in full, 
due to an exhaustive investigation.
    However, I don't understand why we are holding this hearing 
at this time with these witnesses. My colleagues on the other 
side of the aisle have admitted they don't know what Articles 
of Impeachment they will consider. How does anyone expect a 
panel of law professors to weigh in on the legal grounds for 
impeachment charges prior to even knowing what the charges 
brought by this committee are going to be.
    Some of my Democrat colleagues have stated over and over 
that impeachment should be a nonpartisan process, and I agree. 
One of my colleagues in the Democratic party stated, and I 
quote: Impeachment is so divisive to the country that unless 
there is something so compelling and overwhelming and 
bipartisan, I don't think we should go down that path because 
it divides the country.
    My Democratic colleagues have stated numerous times that 
they are on a truth seeking and fact finding mission. Another 
one of my Democratic colleagues said, and I quote: We have a 
responsibility to consider the facts that emerge squarely and 
with the best interest of our country, not our party and our 
hearts. These types of historic proceedings, regardless of 
political beliefs, ought to be about fact finding and truth 
seeking, but that is not what this has turned out to be.
    Again, no disrespect to these witnesses, but for all I 
know, this is the only hearing that we will have, and none of 
them are fact witnesses. My colleagues are saying one thing and 
doing something completely different. No Member of Congress can 
look their constituents in the eye and say this is a 
comprehensive, fact finding, truth seeking mission.
    Ranking Member Collins and members of the minority on this 
committee have written six letters over the past month to 
Chairman Nadler asking for procedural fairness for all the 
underlying evidence to be transmitted to the Judiciary 
Committee. To expand the number of witnesses and have an even 
more bipartisan panel here today, and for clarity on today's 
impeachment proceedings, since we haven't received evidence to 
review.
    The minority has yet to receive a response to these 
letters. Right here today is another very clear example for all 
Americans to truly understand the ongoing lack of transparency 
and openness with these proceedings. The witness list for this 
hearing was not released until late Monday afternoon. Opening 
statements from the witnesses today were not distributed until 
late last night. And the Intelligence Committee's finalized 
report has yet to be presented to this committee.
    You hear from those in the majority that process is a 
Republican talking point, when in reality it is an American 
talking point. Process is essential to the institution. A 
thoughtful meaningful process of this magnitude with such great 
implications should be demanded by the American people.
    With that, I yield back.
    Chairman Nadler. The gentlelady yields back.
    Mr. Jeffries.
    Mr. Jeffries. I did not serve in the military, but my 81-
year-old father did. He was an Air Force veteran stationed in 
Germany during the height of the Cold War in the late 1950s. He 
was a teenager from inner city Newark. A stranger in a foreign 
land serving on the western side of the Berlin Wall. My dad 
proudly wore the uniform because he swore an oath to the 
Constitution and believed in American democracy. I believe in 
American democracy. We remain the last best hope on Earth. It 
is in that spirit that we proceed today.
    Professor Karlan, in America we believe in free and fair 
elections. Is that correct?
    Ms. Karlan. Yes, it is.
    Mr. Jeffries. But authoritarian regimes do not. Is that 
right?
    Ms. Karlan. That's correct.
    Mr. Jeffries. Thomas Jefferson once wrote--or John Adams 
once wrote to Thomas Jefferson, on December 6, 1787, and 
stated: You are apprehensive of foreign interference, intrigue, 
influence, so am I. But as often as elections happen, the 
danger of foreign influence recurs.
    Professor Karlan, how important was the concept of free and 
fair elections to the Framers of the Constitution?
    Ms. Karlan. Honestly, it was less important to them than 
it's become in our Constitution since then. And if you'll 
remember, one of the things that turned me into a lawyer was 
seeing Barbara Jordan, who was the first female lawyer I had 
ever seen in practice, say, on the committee, that, we, the 
people didn't include people like her in 1789, but through a 
process of amendments we have done that. And so elections are 
more important to us today as a Constitutional matter than they 
were even to the Framers.
    Mr. Jeffries. And it is fair to say that an election cannot 
be reasonably characterized as free and fair if it's 
manipulated by foreign interference?
    Ms. Karlan. That's correct.
    Mr. Jeffries. And the Framers of the Constitution were 
generally and deeply concerned with the threat of foreign 
interference in the domestic affairs of the United States. 
True?
    Ms. Karlan. Yes.
    Mr. Jeffries. And why were they so deeply concerned?
    Ms. Karlan. Because foreign nations don't have our 
interests at heart, they have their interests at heart.
    Mr. Jeffries. And would the Framers find it acceptable for 
an American President to pressure a foreign government to help 
him win an election?
    Ms. Karlan. I think they'd find it unacceptable for a 
President to ask a foreign government to help him, whether they 
put pressure on him or not.
    Mr. Jeffries. Direct evidence shows--direct evidence shows 
that on the July 25th phone call, the President uttered five 
words: Do us a favor though. He pressured the Ukrainian 
government to target an American citizen for political gain, 
and at the same time simultaneously withheld $391 million in 
military aid.
    Now, Ambassador Bill Taylor, West Point graduate, Vietnam 
War hero, Republican appointed diplomat, discussed this issue 
of military aid. Here is a clip of his testimony.
    [Video shown.]
    Mr. Jeffries. To the extent the military aid was being 
withheld as part of an effort to solicit foreign interference 
in the 2020 election, is that behavior impeachable?
    Ms. Karlan. Yes, it is. And if I could go back to one of 
the words you read. When the President said: Do us a favor, he 
was using the royal we there. It wasn't a favor for the United 
States. He should have said, do me a favor, because only kings 
say us when they mean me.
    Mr. Jeffries. Is it correct that an abuse of power that 
strikes at the heart of our democracy falls squarely within the 
definition of a High Crime and Misdemeanor?
    Ms. Karlan. Yes, it does.
    Mr. Jeffries. Some of my colleagues have suggested that 
impeachment would overturn the will of the people. The American 
people expressed their will in November of 2018. The will of 
the people elected a new majority. The will of the people 
elected a House that would not function as a wholly-owned 
subsidiary of this administration. The will of the people 
elected a House that understands we are separate and coequal 
branch of government. The will of the people elected a House 
that understands we have a constitutional responsibility to 
serve as a check and balance on an out of control executive 
branch.
    The President abused his power and must be held 
accountable. No one is above the law. America must remain the 
last best hope on Earth.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Gaetz.
    Mr. Gaetz. The will of the American people also elected 
Donald Trump to be the President of the United States in the 
2016 election, and there's one party that can't seem to get 
over it. Now, we understand the fact that in 2018 you took the 
House of Representatives, and we haven't spent our time during 
your tenure and power trying to remove the Speaker of the 
House, trying to delegitimize your ability to govern.
    Frankly, we'd love to govern with you. We'd love to pass 
USMCA. We'd love to put out a helping hand to our seniors and 
lower prescription drug prices. It's the will of the people you 
ignore when you continue down this terrible road of 
impeachment.
    Professor Gerhardt, you gave money to Barack Obama, right?
    Mr. Gerhardt. My family did, yes.
    Mr. Gaetz. Four times?
    Mr. Gerhardt. That sounds about right, yes.
    Mr. Gaetz. Mr. Chairman, I have a series of unanimous 
consent requests relating to Professor Feldman's work. The 
first Noah Feldman Trump's wiretap tweets raise risk of 
impeachment----
    Chairman Nadler. The gentleman will suspend. Have the----
    Mr. Gaetz. My time.
    Chairman Nadler. We'll take that time off. Has the 
gentleman submitted--have we seen that material?
    Mr. Gaetz. We can provide it to you, as is typical for 
unanimous----
    Chairman Nadler. And we'll consider the unanimous consent 
request later after we review the material.
    Mr. Gaetz. Very well. Very well. Thank you.
    Chairman Nadler. The gentleman may continue.
    Mr. Gaetz. Thank you, Mr. Chairman. Mr. Feldman wrote 
articles entitled: Trump's wiretap tweets raise risk of 
impeachment. He then wrote: Mar-a-Lago ad belongs in 
impeachment file. And then Mr. Jake Flannigan wrote in courts, 
a Harvard law professor thinks Trump could be impeached over 
fake news accusations.
    My question, Professor Feldman, is since you seem to 
believe that the basis for impeachment is even broader than the 
basis that my Democrat colleagues have laid forward, do you 
believe you're outside of the political mainstream on the 
question of impeachment?
    Mr. Feldman. I believe that impeachment is warranted 
whenever the President abuses his power for personal benefit or 
to corrupt the democratic process.
    Mr. Gaetz. Did you write an article entitled It's Hard to 
Take Impeachment Seriously Now?
    Mr. Feldman. Yes, I did write that article back in May----
    Mr. Gaetz. And in that article did you write----
    Mr. Feldman. Back in May of 2019, I wrote that article.
    Mr. Gaetz. Hold on I'm limited on time, sir. Did you 
write----
    Mr. Feldman. Are you going to let me answer the question 
sir----
    Mr. Gaetz. Since the 2018 midterm election House Democrats 
have made it painfully clear that discussing impeachment is 
primarily or even exclusively a tool to weaken President 
Trump's chances in 2020. Did you write those words?
    Mr. Feldman. Until this call in July 25th, I was an 
impeachment skeptic. The call changed my mind, sir, and for a 
good reason----
    Mr. Gaetz. Very well. Thank you, I appreciate your 
testimony. Professor Karlan, you gave $2,000 bucks--or you gave 
$1,000 bucks to Elizabeth Warren?
    Ms. Karlan. I believe so.
    Mr. Gaetz. You gave $1,200 bucks to Barack Obama.
    Ms. Karlan. I have no reason to question that.
    Mr. Gaetz. And you gave $2,000 bucks to Hillary Clinton?
    Ms. Karlan. That's correct.
    Mr. Gaetz. Why so much more for Hillary than the other two?
    Ms. Karlan. Because I've been giving a lot of money to 
charity recently because of all of the poor people in the 
United States.
    Mr. Gaetz. Those aren't the only folks you've been giving 
to. Now, have you ever been on a podcast called Versus Trump?
    Ms. Karlan. I think I was on a live panel that the people 
who ran the podcast called Versus Trump----
    Mr. Gaetz. On that, do you remember saying the following: 
Liberals tend to cluster more. Conservatives, especially very 
conservatives people, tend to spread out more, perhaps because 
they don't even want to be around themselves. Did you say that?
    Ms. Karlan. Yes, I did.
    Mr. Gaetz. Do you understand how that reflects contempt on 
people who are conservative?
    Ms. Karlan. No, what I was talking about there was the 
natural tendency, if put the quote in context, the natural 
tendency of a compactness requirement to favor a party whose 
voters are more spread out. And I do not have contempt for 
conservatives----
    Mr. Gaetz. Well Professor, hold on. Again, I'm very limited 
on time, Professor. And so I just have to say, when you talk 
about how liberals want to be around each other and cluster and 
conservatives don't want to be around each other, and so they 
have spread out. It makes people, you may not see this from 
like, you know like, the ivory towers of your law school, but 
it makes people in this country----
    Ms. Karlan. When the President calls----
    Mr. Gaetz. You don't get to interrupt me on this time. Now, 
let me also suggest that when you invoke the President's son 
name here, when you try to make a little joke out of 
referencing Barron Trump, that does not lend credibility to 
your argument, it makes you look mean, it makes you look like 
you're attacking someone's family, the minor child of the 
President of the United States.
    So let's see if we could get into the facts. To all of the 
witnesses, if you have personal knowledge of a single material 
fact in the Schiff report, please raise your hand.
    And let the record reflect, no personal knowledge of a 
single fact. And you know what, that continues on the tradition 
that we saw from Adam Schiff where Ambassador Taylor could not 
identify an impeachable offense. Mr. Kent never met with the 
President. Fiona Hill, never heard the President reference 
anything regarding military aid.
    Mr. Hale was unaware of any nefarious activity with aid. 
Colonel Vindman even rejected the new Democrat talking point 
that bribery was invoked here. Ambassador Volker denied that 
there was a quid pro quo. And Mr. Morrison said there was 
nothing wrong on the call.
    The only direct evidence came from Gordon Sondland, who 
spoke to the President of the United States, and the President 
said, I want nothing, no quid pro quo. And you know what, if 
wiring-tapping of political opponents is an impeachable 
offense, I look forward to reading that Inspector General's 
report because maybe it's a different President we should be 
impeaching.
    Chairman Nadler. The gentlemen's time has expired. The 
gentleman's time is expired.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. Professor Feldman, 
let me begin by stating the obvious. It is not hearsay when the 
President tells the President of Ukraine to investigate his 
political adversary, is it?
    Mr. Feldman. It is not.
    Mr. Cicilline. It is not hearsay when the President then 
confesses on national television to doing that, is it?
    Mr. Feldman. It is not.
    Mr. Cicilline. It is not hearsay when administration 
officials testify that they hear the President say he only 
cares about the investigations of his political opponent, is 
it?
    Mr. Feldman. No, that is not hearsay.
    Mr. Cicilline. And there's lots of other direct evidence in 
this 300-page report from the Intelligence Committee, so let's 
dispense with that claim by my Republican colleagues.
    Profession Gerhardt, Professor Turley, notwithstanding what 
he said today, wrote on August 1, 2014, in a piece called 
``Five Myths About Impeachment,'' one of the myths he was 
rejecting was that impeachment required a criminal offense, and 
he wrote, and I quote: An offense does not have to be 
indictable. Serious misconduct or violation of public trust is 
enough, end quote.
    Was Professor Turley right when he wrote that back in 2014?
    Mr. Gerhardt. Yes, I agree with that.
    Mr. Cicilline. Now, next, I would move to Professor Karlan. 
At the Constitutional Convention, Elbridge Gerry said, and I 
quote: Foreign powers will intermeddle in our affairs and spare 
no expense to influence them.
    And in response, James Madison said, impeachment was needed 
because, otherwise, a President, and I quote, might betray his 
trust to a foreign power.
    Professor Karlan, can you elaborate on why the Framers were 
so concerned about foreign interference, how they accounted for 
these concerns, and how that relates to the facts before this 
committee?
    Ms. Karlan. So the reason that the Framers were concerned 
about foreign interference, I think, is slightly different than 
the reason we are. They were concerned about it because we were 
such a weak country in 1789. We were small. We were poor. We 
didn't have an established Navy. We didn't have an established 
Army.
    Today, the concern is a little different, which is that it 
will interfere with us making the decisions that are best for 
us as Americans.
    Mr. Cicilline. Thank you, Professor. There are three known 
instances of the President publicly asking a foreign country to 
interfere in our elections. First, in 2016, the President 
publicly hoped that Russia would hack into the email of a 
political opponent, which they subsequently did. Second, based 
on the President's own summary of his call with Ukrainian 
President Zelensky, we know he asked Ukraine to announce an 
investigation of his chief political rival and used aid 
appropriated by Congress as leverage in his efforts to achieve 
this. And, third, the President then publicly encouraged China 
to begin its own investigation.
    Professor Feldman, how would it impact our democracy if it 
became standard practice for the President of the United States 
to ask a foreign government to interfere in our elections?
    Mr. Feldman. It would be a disaster for the functioning of 
our democracy if our Presidents regularly, as this President 
has done, asked foreign governments to interfere in our 
electoral process.
    Mr. Cicilline. I'd like to end with a powerful warning from 
George Washington, who told Americans in his farewell address, 
and I quote, to be constantly awake since history and 
experience prove that foreign influence is one of the most 
baneful foes of republican government, end quote.
    The conduct at issue here is egregious and warrants a 
commensurate response. The President has openly and repeatedly 
solicited foreign interference in our elections; of that there 
is no doubt. This matters because inviting foreign meddling 
into our elections robs the American people of their sacred 
right to elect their own political leaders.
    Americans all across this country wait in long lines to 
exercise their right to vote and to choose their own leaders. 
This right does not belong to foreign government. We fought and 
won a revolution over this. Free and fair elections is what 
separate us from authoritarians all over the world. As public 
servants and Members of the House, we would be negligent in our 
duties under the Constitution if we let this blatant abuse of 
power go unchecked.
    We've heard a lot about hating this President. It's not 
about hating this President. It's about a love of country. It's 
about honoring the oath that we took to protect and defend the 
Constitution of this great country.
    And so my final question is to Professor Feldman and to 
Professor Karlan. In the face of this evidence, what are the 
consequences if this committee and this Congress refuses to 
muster the courage to respond to this gross abuse of power that 
undermined the national security of the United States, that 
undermined the integrity of our elections, and that undermined 
the confidence that we have to have in the President to not 
abuse the power of his office?
    Mr. Feldman. If this committee and this House fail to act, 
then you're sending a message to this President and to future 
Presidents that it's no longer a problem if they abuse their 
power. It's no longer a problem if they invite other countries 
to interfere in our elections, and it's no longer a problem if 
they put the interests of other countries ahead of ours.
    Mr. Cicilline. Ms. Karlan.
    Ms. Karlan. I agree with Professor Feldman. And I should 
say just one thing, and I apologize for getting a little 
overheated a moment ago. But I have a constitutional right 
under the First Amendment to give money to candidates. At the 
same time, we have a constitutional duty to keep foreigners 
from spending money in our elections, and those two things are 
two sides of the same coin.
    Mr. Cicilline. With that, I yield back, Mr. Chairman.
    Chairman Nadler. The gentleman yields back.
    Mr. Johnson.
    Mr. Johnson of Louisiana. Thank you. I was struck this 
morning by the same thing as all my friends and colleagues on 
this side of the room. Chairman Nadler actually began this 
morning with the outrageous statement that the facts before us 
are undisputed. Of course, everyone here knows that that's 
simply not true. Every person here, every person watching at 
home knows full well that virtually everything here is 
disputed, from the fraudulent process and the broken procedure 
to the Democrats' unfounded claims.
    And the full facts are obviously not before us today. We 
have been allowed no fact witnesses here at all. For the first 
time ever, this committee, which is the one in Congress that 
has the actual jurisdiction over impeachment, is being given no 
access to the underlying evidence that Adam Schiff and his 
political accomplices claim supports this whole charade. This 
is just a shocking denial of due process.
    And I want to say to our witnesses: I'm also a 
constitutional law attorney, and under normal circumstances, I 
really would greatly enjoy an academic discussion with you, a 
debate about the contours of Article II, section 4, but that 
would be an utter waste of our time today because, as has been 
highlighted so many times this morning, this whole production 
is a sham and a reckless path to a predetermined political 
outcome.
    And I want you to know, it's an outcome that was 
predetermined by our Democrat colleagues a long time ago. The 
truth is House Democrats have been working to impeach President 
Donald J. Trump since the day he took his oath of office. Over 
the past 3 years, they've introduced four different resolutions 
seeking to impeach the President.
    Almost exactly 2 years ago, as one of the graphics up here 
shows, December 6, 2017, 58 House Democrats voted to begin 
impeachment proceedings. Of course, that was almost 20 months 
before the famous July 25th phone call with Ukraine's President 
Zelensky. And this other graphic up here is smaller, but it's 
interesting, too. I think it's important to reiterate for 
everybody watching at home that, of our 24 Democrat colleagues 
and friends on the other side of the room today, 17 out of 24 
have already voted for impeachment.
    So, I mean, let's be honest. Let's not pretend that anybody 
cares anything about what's being said here today or the actual 
evidence or the facts. As Congresswoman Lofgren said, we come 
with open minds; that's not happening here. So much for an 
impartial jury. Several times this year, leading Democrats have 
frankly admitted in various interviews and correspondence that 
they really believe this entire strategy is necessary because 
why? Because they want to stop the President's reelection.
    Even Speaker Pelosi said famously last month that quote: 
It's dangerous to allow the American people to evaluate his 
performance at the ballot box.
    Speaker Pelosi has it exactly backwards. What is dangerous 
here is the precedent all this is setting for the future of our 
Republic.
    I love what Professor Turley testified to this morning. He 
said: This is simply not how the impeachment of a President is 
done.
    His rhetorical question to all of our colleagues on the 
other side is still echoing throughout this Chamber. He asked 
you to ask yourselves, where will this and where will you stand 
next time when this same kind of sham impeachment process is 
initiated against a President from your party?
    The real shame here today is that everything in Washington 
has become bitterly partisan, and this ugly chapter is not 
going to help that. It's going to make things really that much 
worse. President Turley said earlier that we are now living in 
the era that was feared by our Founders, what Hamilton referred 
to as a period of agitated passions. I think that says it so 
well. This has indeed become an age of rage.
    President Washington warned in his farewell address in 1796 
that extreme partisanship would lead us to the ruins of public 
liberty. Those were his words. This hyperpartisan impeachment 
is probably one of the most divisive and destructive things 
that we could possibly do to our American family.
    Let me tell you what I heard from my constituents in 
multiple townhalls, in meetings back in my district just 2 days 
ago. The people of this country are sick of this. They're sick 
of the politics of personal destruction. They're sick of this 
toxic atmosphere that is being created here, and they're deeply 
concerned about where all of this will lead us in the years 
ahead. Rightfully so.
    You know what the greatest threat is? The thing that ought 
to keep every single one of us up at night? It's the rapidly 
eroding trust of the American people in their institutions. One 
of the critical presuppositions and foundations of a self-
governing people in a constitutional republic is they will 
maintain a basic level of trust in their institutions, in the 
rule of law, in the system of justice, in the body of elected 
Representatives, their citizen legislators in the Congress.
    The greatest danger of this fraudulent impeachment 
production is not what happens this afternoon or by Christmas 
or in the election next fall. The greatest danger is what this 
will do in the days ahead to our 243-year experiment in self-
governance. What effect this foolish new precedent, this 
Pandora's box, will have upon our beleaguered Nation 6 or 7 
years from now, a decade from now, in the ruins of public 
liberty that are being created by this terribly shortsighted 
exercise today. God help us.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Swalwell.
    Mr. Swalwell. Professor Turley as a former prosecutor, I 
recognize a defense attorney trying to represent their client, 
especially one who has very little to work with in the way of 
facts. And today you're representing the Republicans in their 
defense of the President.
    Mr. Turley. That's not my intention, sir.
    Mr. Swalwell. Professor, you've said that this case 
represents a dramatic turning point in Federal impeachment 
precedent, the impact of which will shape and determine future 
cases. The House, for the first time in the modern era, asked 
the Senate to remove someone for conduct for which he was never 
charged criminally and the impropriety of which has never been 
tested in a court of law.
    But that's actually not a direct quote from what you said 
today. It sounds a lot like what you've argued today, but 
that's a quote from what you argued as a defense lawyer in a 
2010 Senate impeachment trial.
    Professor, did you represent Federal Judge Thomas Porteous?
    Mr. Turley. I did indeed.
    Mr. Swalwell. Judge Porteous was charged on four Articles 
of Impeachment, ranging from engaging in a pattern of conduct 
that is incompatible with the trust and confidence placed in 
him as a Federal judge to engaging in a longstanding pattern of 
corrupt conduct that demonstrates his unfitness to serve as a 
United States district court judge.
    On each count, Judge Porteous was convicted by at least 68 
and up to 96 bipartisan Senators. Thankfully, that Senate did 
not buy your argument that a Federal official should not be 
removed if he's not charged criminally. And, respectfully, 
Professor, we don't buy it either.
    But we're here because of this photo. It's a picture of 
President Zelensky in May of this year, standing on the eastern 
front of Ukraine as a hot war was taking place and up to 15,000 
Ukrainians have died at the hands of Russians. I'd like to 
focus on the impact of President Trump's conduct, particularly 
with our allies and our standing in the world.
    This isn't just a President, as Professor Karlan has 
pointed out, asking for another foreign leader to investigate a 
political opponent. It also is a President leveraging a White 
House visit as well as foreign aid. As the witnesses have 
testified, Ukraine needs our support to defend itself against 
Russia. I heard directly from witnesses how important the visit 
and aid where, particularly from Ambassador Taylor.
    [Video shown.]
    Mr. Swalwell. Professor Karlan, does the President's 
decision to withhold from Ukraine such important official 
acts--a White House visit and military aid--in order to 
pressure President Zelensky relate to the Framers' concerns 
about abuse of power and entanglements with foreign nations?
    Ms. Karlan. It relates to the abuse of power. The 
entanglements with foreign nations is a more complicated 
concept for the Framers than for us.
    Mr. Swalwell. Professor Karlan, I think you'd agree, we are 
a Nation of immigrants?
    Ms. Karlan. Yes.
    Mr. Swalwell. Today, 50 million immigrants live in the 
United States. I'm moved by one who recently told me, as I was 
checking into a hotel, about his Romanian family. He came here 
from Romania and said that every time he had gone home for the 
last 20 years, he would always tell his family members how 
corrupt his country was that he had left and why he had come to 
the United States.
    And he told me, in such humiliating fashion, that, when he 
has gone home recently, they now wag their finger at him, and 
say: You're going to lecture us about corruption?
    What do you think, Professor Karlan, does the President's 
conduct say to the millions of Americans who left their 
families and livelihoods to come to a country that represents 
the rule of law?
    Ms. Karlan. I think it suggests that we don't believe in 
the rule of law. And I think it tells emerging democracies 
around the world not to take it seriously when we tell them 
that their elections are not legitimate because of foreign 
interference or their elections are not legitimate because of 
persecution of the opposing party. I mean, President Bush 
announced that he did not consider the elections in Belarus in 
2006 to be legitimate for exactly that reason, because they 
went after political opponents.
    Mr. Swalwell. Thank you.
    And, finally, Professor Feldman, Professor Turley pointed 
out that we should wait and that we should go to the courts, 
but you would acknowledge that we have gone to the courts; we 
have been in the courts for over 6 months, many times on 
matters that are already settled in the United States Supreme 
Court, particularly U.S. v. Nixon, where the President seems to 
be running out the clock. Is that right?
    Mr. Feldman. Yes, sir.
    Mr. Swalwell. Thank you. I yield back.
    Chairman Nadler. The gentleman yields back.
    In a moment, we will recess for a brief 5 minutes. First, 
I'd ask everyone in the room to remain seated and quiet while 
the witnesses exit the room. I also want to remind those in the 
audience that you may not be guaranteed your seat if you leave 
the hearing room at this time.
    At this time, the committee will stand in a short recess.
    [Recess.]
    Chairman Nadler. The committee will come to order. We are 
proceeding under the five-minute rule.
    Mr. Biggs.
    Mr. Biggs. Thank you.
    One of my colleagues wondered how this panel can opine as 
to the--as to whether the President committed an impeachable 
offense and the answer, quite, frankly, is because you came in 
with a preconceived notion. You already made that 
determination/decision and I'll give you a for instance.
    Until a recent colloquy, several of you consistently said 
that the President said during that July 25th conversation with 
President Zelensky, you said, ``The President said I would like 
to you do me a favor''; but that is inaccurate. It was finally 
cleared in that colloquy, and I'm going read it to you. ``I 
would like you to do us a favor though, because our country has 
been through a lot.''
    One of you said, well, that's because the President was 
using royal ``we.'' Here the President's talking about the 
country. That's what he's talking about. It's audacious to say 
it's using the royal ``we.'' That's royal, all right; but it 
ain't the royal ``we.''
    And I'll just tell you. When you come in with a 
preconceived notion, it becomes obvious. One of you just said, 
Mr. Feldman, you, it was you who said, and I'm going to quote 
here, roughly. I think this is exactly what you said though. 
Until the call of July 25th, I was an impeachment skeptic, too.
    I don't know. I'm looking at an August 23rd, 2017, 
publication where you said if President Donald Trump pardons 
Joe Arpaio, it would be an impeachable offense. He did 
ultimately pardon him.
    In 2017, the New York book review--Review of Books, Mr. 
Feldman, Professor Feldman, said, Defamation by tweet is an 
impeachable offense.
    And I think of the history of this country, and I think, if 
defamation or libel or slander is an impeachable offense, I 
can't help but reflect about John Adams, about Thomas Jefferson 
who routinely pilloried their political opponents. In fact, at 
the time, the factions or parties actually bought newspapers to 
attack their political opponents. So, this rather expansive and 
generous view you have on what constitutes impeachment is a 
real problem.
    This morning one of you mentioned the Constitutional 
Convention and several of you mentioned Mr. Davies and you 
talked about the Constitutional Convention. It's been a while 
since I read the minutes. So I just briefly reviewed, because I 
remembered the discussion on the impeachment as being more 
pervasive, a little bit more expanded and on July 20, 1787--it 
wasn't 1789, by the way. One of you testified it was 1789. It 
was in 1787, July 20th, Benjamin Franklin is discussing 
impeachment of a Dutch leader and he talked specifically about 
what he would anticipate an impeachment to look like. He said 
it would be a regular and peaceable inquiry that would have 
taken place and, if guilty, then there would be a punishment. 
If acquitted, then the innocent would be restored to the 
confidence of the public. That needs to be taken into account 
as well.
    So I look also on a May 17, 2017, BBC article which is a 
discussion about impeachment because President Trump had fired 
James Comey. Alex Whiting of Harvard said it was hard to make 
the obstruction of justice case with the sacking alone. The 
President had clear legal authority, and there was arguably 
proper or at least other reasons put forward for firing him.
    And yet what we have here is this insistence by Mr. 
Gerhardt that this should be--that was impeachable. That is--
that's contained in that article. I'll refer you to it, May 17, 
2017, BBC.
    What I'm suggesting to you today is a reckless bias coming 
in here. You're not fact witnesses. You're supposed to be 
talking about what the law is, but you came in with a 
preconceived notion and bias.
    And I want to read one last thing here, if I can find it, 
from one of our witnesses here and it's dealing with something 
that was said in a Maryland Law Review article in 1999. And 
basically, if I can get to it, he's talking about this--he's 
being critical of lack of self-doubt and an overwhelming 
arrogance on the part of law professors who come in and opine 
on impeachment.
    That would be you, Mr. Gerhardt, who said something like 
that. I can't find my quote or else I'd give it to you.
    And so what I'm telling you is that is what has been on 
display in this committee today.
    And with that, I yield back.
    Chairman Nadler. The gentleman yields back.
    A little while ago Mr. Gaetz asked that certain material be 
inserted into the record by unanimous consent. I asked to have 
an opportunity to review it. We have reviewed it. The material 
will be inserted, without objection.
    [The information follows:]

      


                   MR. GAETZ FOR THE OFFICIAL RECORD

=======================================================================

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Chairman Nadler. Mr. Lieu.
    Mr. Lieu. Thank you, Chairman Nadler.
    I first swore an oath to the Constitution when I was 
commissioned as an officer in the United States Air Force. An 
oath I took was not to a political party or to a President or 
to a king. It was an oath to a document that has made America 
the greatest Nation on earth.
    I never imagined we'd now be in a situation where the 
President or Commander in Chief is accused of using his office 
for personal political gain that betrayed U.S. national 
security, hurt our ally, Ukraine, and helped our adversary 
Russia.
    Now the Constitution provides a safeguard for when the 
President's abuse of power and betrayal of national interests 
are so extreme that it warrants impeachment and removal. It 
seems notable that, of all the offenses they could have 
included and enumerated in the Constitution, bribery is one of 
only two that are listed.
    So, Professor Feldman, why would the Framers choose bribery 
of all the possible offenses they could have included to list?
    Mr. Feldman. Bribery was the classic example for them of 
the high crime and misdemeanor of abuse of office for personal 
gain because if you take something of value while you're--when 
you're able to affect an outcome for somebody else, you're 
serving your own interests and not the interests of the people. 
And that was commonly used in impeachment offenses in England 
and that's one of the reasons they specified it.
    Mr. Lieu. Thank you.
    Now earlier in this hearing, Professor Karlan made the 
point that bribery as envisioned by the Framers was much 
broader than the narrow Federal criminal statute of bribery. I 
think the reason for that is obvious. We are not in a criminal 
proceeding. We're not deciding whether to send President Trump 
to prison. This is a civil action. It's an impeachment 
proceeding to decide whether or not we remove Donald Trump from 
his job.
    And so, Professor Karlan, it's true, isn't it, that we 
don't have to meet the standards of a Federal bribery statute 
in order to meet the standards for impeachable offense?
    Ms. Karlan. That's correct. I'm sorry. That's correct.
    Mr. Lieu. Thank you.
    Yesterday Scalia law professor J.W. Verret, who is a 
lifelong Republican, former Republican Hill staffer, who 
advised the Trump pre-transition team, made the following 
public statement about Donald Trump's conduct.
    The call wasn't perfect. He committed impeachable offenses 
including bribery.
    So, Professor Karlan, I'm now going to show you two video 
clips of the witness testimony related to the President's 
withholding of the White House meeting in exchange for the 
public announcement of an investigation into his political 
rival.
    [Video played.]
    Mr. Lieu. And then I'll show you one more video clip 
relating to the President's decision to withhold security 
assistance that Congress had appropriated to Ukraine in 
exchange for announcement of public investigation of his 
political rival.
    [Video played.]
    Mr. Lieu. Professor Karlan, does that evidence, as well as 
the evidence in the record, tend to show that the President met 
the standards for bribery as envisioned in the Constitution?
    Ms. Karlan. Yes, it does.
    Mr. Lieu. I'm also a former prosecutor. I believe the 
record and that evidence would also meet the standards for 
criminal bribery. The Supreme Court's decision in McDonnell was 
primarily about what constitutes an official act. The key 
finding was an official act must involve a formal exercise of 
governmental power on something specific pending before a 
public official.
    It's pretty clear we've got that here. We have hundreds of 
millions of dollars of military aid that Congress specifically 
appropriated. The freezing and unfreezing of that aid is a 
formal exercise of governmental power.
    But we don't even have to talk about the crime of bribery. 
There's another crime here which is the solicitation of 
Federal--of assistance of a foreign government in a Federal 
election campaign. That straight up violates the Federal 
Election Campaign Act at 52 U.S.C. 3101 and, oh, by the way, 
that Act is also one reason Michael Cohen is sitting in prison 
right now.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman.
    Could I have a show of hands? How many on the panel 
actually voted for Donald Trump in 2016? A show of hands.
    Ms. Karlan. I don't think we're obligated----
    Mr. McClintock. A show of hands.
    Ms. Karlan [continuing]. To say anything about how we cast 
our ballots.
    Mr. McClintock. Just a show of hands.
    Ms. Karlan. I will not----
    Mr. McClintock. I think you made your position, Professor 
Karlan, very, very clear.
    Chairman Nadler. The gentleman will suspend. We'll suspend. 
We'll suspend the clock, too.
    Ms. Karlan. I have a right to cast a secret ballot.
    Chairman Nadler. You may ask the question.
    Mr. McClintock. Let me rephrase the question. How many of 
you supported----
    Chairman Nadler. The clock is stopped at the moment.
    The gentleman may ask the question. The witnesses don't 
have to respond.
    Mr. McClintock. How many of you----
    Chairman Nadler. The gentleman's time is restored.
    Mr. McClintock [continuing]. Supported Donald Trump in 
2016? A show of hands. Thank you.
    Mr. Feldman. Not raising our hands is not an indication of 
an answer, sir.
    Mr. McClintock. Professor Turley, this impeachment inquiry 
has been predicated on some rather disturbing legal doctrines. 
One Democrat asserted that hearsay can be much better evidence 
than direct evidence. Speaker Pelosi and others have said that 
the President's responsibility is to present evidence to prove 
his innocence.
    Chairman Schiff's asserted--and we heard a discussion from 
some of your colleagues today--that if you invoke legal rights 
in defense of criminal accusations, ipso facto that's an 
obstruction of justice and evidence of guilt.
    My question of you is: What does it mean to our American 
justice system if these doctrines take root in our country?
    Mr. Turley. Well, what concerns me the most is that there 
are no limiting principles that I can see in some of the 
definitions that my colleagues have put forward and more 
importantly, some of these impeachable offenses I only heard 
about today.
    I'm not too sure what ``attempting to abuse office'' means 
or how you recognize it, but I'm pretty confident that nobody 
on this committee truly wants the new standard of impeachment 
to be betrayal of the national interest. That that is going to 
be the basis for impeachment?
    How many Republicans do you think would say that Barack 
Obama violated that standard? That's exactly what James Madison 
warned you against is that you would create effectively a vote 
of no confidence standard in our Constitution.
    Mr. McClintock. Well, then are we in danger of abusing our 
own power of doing enormous violence to our Constitution by 
proceeding in this manner? My Democratic colleagues have been 
searching for a pretext for impeachment since before the 
President was sworn in.
    On this panel Professor Karlan called President Trump's 
election illegitimate in 2017. She implied impeachment was a 
remedy. Professor Feldman advocated impeaching the President 
over a tweet that he made in March of 2017. That's just seven 
weeks after his inauguration. Are we in danger of succumbing to 
the maxima of Lewis Carroll's Red Queen, sentence first, 
verdict afterwards?
    Mr. Turley. Well, this is part of the problem of how your 
view of the President can affect your assumptions, your 
inferences, your view of circumstantial evidence.
    I'm not suggesting that the evidence, if it was fully 
investigated, would come out one way or the other. What I'm 
saying is that we are not dealing with the realm of the 
unknowable. You have to ask. We've burned two months in this 
House, two months that you could have been in court, seeking a 
subpoena for these witnesses. It doesn't mean you have to wait 
forever, but you could have gotten an order by now. You could 
have allowed the President to raise an executive privilege----
    Mr. McClintock. I need to go on here.
    The Constitution says that the executive authority shall be 
vested in a President of the United States. Does that mean some 
of the executive authority or all of it?
    Mr. Turley. Well, obviously there's checks and balances on 
all of these but the executive authority primarily obviously 
rests with the President but these are all shared powers. And I 
don't begrudge the investigation of the Ukraine controversy. I 
think it was a legitimate investigation. What I begrudge is how 
it has been conducted.
    Mr. McClintock. Well, I tend to agree with that. I mean, 
the Constitution commands the President take care that the laws 
be faithfully enforced. That does in effect make him the chief 
law enforcement officer in the Federal Government, does it not?
    Mr. Turley. That's commonly expressed that way, yes.
    Mr. McClintock. So if probable cause exists to believe a 
crime's been committed, does the President have the authority 
to inquire into that matter?
    Mr. Turley. He has, but I think this is where we would 
depart. I've been critical of the President in terms of 
crossing lines with the Justice Department. I think that has 
caused considerable problems. I also don't believe it's 
appropriate, but we often confuse what is inappropriate with 
what's impeachable. You know, many people feel that what the 
President has done is obnoxious, contemptible; but 
contemptible's not synonymous with impeachment.
    Mr. McClintock. Let me ask you a final question. The 
National Defense Authorization Act that authorized aid to 
Ukraine requires the Secretary of Defense and State certify 
that the Government of Ukraine has taken substantial actions to 
make defense institutional reforms for, among other things, for 
purposes of decreasing corruption.
    Is the President exercising that responsibility when he 
inquires into a matter that could involve illegalities between 
American and Ukrainian officials?
    Mr. Turley. That's what I'm referring to as unexplored 
defenses. Part of the bias when you look at these facts is you 
just ignore defenses. You say, well, those are just invalid but 
they're the defenses. They're the other sides' account for 
actions, and that's what hasn't been explored.
    Chairman Nadler. The gentleman's time has expired.
    Mr. Raskin.
    Mr. Raskin. Thank you, Mr. Chairman.
    I want to thank the witnesses for their hard work on a long 
day. I want to thank them especially for invoking the American 
Revolution which not only overthrew a king but created the 
world's first antimonarchal Constitution. Your erudition makes 
me proud to have spent a quarter of my career as a fellow 
constitutional law professor before running for Congress.
    Tom Paine said that in the monarchies the king is law but 
in the democracies the law will be king. But today the 
President advances an essentially monarchical argument. He said 
that Article 2 allows him to do whatever he wants. He not only 
says that but he believes it because he did something no other 
American President has ever done before. He used foreign 
military aid as a lever to coerce a foreign government to 
interfere in an American election, to discredit an opponent, 
and to advance his reelection campaign.
    Professor Karlan, what does the existence of the 
impeachment power tell us about the President's claim that the 
Constitution allows him to do whatever he wants?
    Ms. Karlan. It blows it out of the water.
    Mr. Raskin. If he's right and we accept this radical claim 
that he can do whatever he wants, all future Presidents seeking 
reelection will be able to bring foreign governments into our 
campaigns to target their rivals and to spread propoganda. 
That's astounding. If we let the President get away with this 
conduct, every President can get away with it.
    Do you agree with that, Professor Feldman?
    Mr. Feldman. I do. Richard Nixon sent burglars to break 
into the Democratic National Committee headquarters, but 
President Trump just made a direct phone call to the President 
of a foreign country and sought his intervention in an American 
election.
    Mr. Raskin. So this is a big moment for America, isn't it? 
If Elijah Cummings were here, he would say, Listen up, people. 
Listen up.
    How we respond will determine the character of our 
democracy for generations.
    Now Professors Feldman, Karlan, and Gerhardt told us there 
were three dominant reasons invoked at the founding for why we 
needed an impeachment power. Broadly speaking, it was an 
instrument of popular self-defense against a President behaving 
like a king and trampling the rule of law, but not just in the 
normal royal sense of showing cruelty and vanity and treachery 
and greed and averiis and so on but when Presidents threaten 
the basic character of our Government and the Constitution, 
that's when impeachment was about.
    And the Framers invoked three specific kinds of misconduct 
so serious and egregious that they thought they warranted 
impeachment. First, the President might abuse his power by 
corruptly using his office for personal, political, or 
financial gain.
    Well, Professor Feldman, what's so wrong with that? If the 
President belongs to my party and I generally like him, what's 
so wrong with him using his office to advance his own political 
ambitions?
    Mr. Feldman. Because the President of the United States 
works for the people and so if he seeks personal gain, he's not 
serving the interests of the people. He's, rather, serving the 
interests that are specific to him and that means he's abusing 
the office and he's doing things that he can only get away with 
because he's the President and that is necessarily subject to 
impeachment.
    Mr. Raskin. Well, second and third, the Founders expressed 
fear the President could subvert our democracy by betraying his 
trust to foreign influence and interference and also by 
corrupting the election process.
    Professor Karlan, you're one of America's leading election 
law scholars. What role does impeachment play in protecting the 
integrity of our elections, especially in an international 
context in which Vladimir Putin and other tyrants and despots 
are interfering to destabilize elections around the world?
    Ms. Karlan. Well, you know, Congress has enacted a series 
of laws to make sure that there isn't foreign influence in our 
elections and allowing the President to circumvent that 
principle is a problem and, as I've already testified several 
times, America is not just the last best hope, as Mr. Jeffries 
said, but it's also the shining city on a hill and we can't be 
the shining city on a hill and promote democracy around the 
world if we're not promoting it here at home.
    Mr. Raskin. Now any one of these actions alone would be 
sufficient to impeach the President according the Founders. But 
is it fair to say that all three causes for impeachment 
explicitly contemplated by the Founders--abuse of power, 
betrayal of our national security, and corruption of our 
elections--are present in this President's conduct, yes or no?
    Professor Feldman.
    Mr. Feldman. Yes.
    Mr. Raskin. And Professor Gerhardt.
    Mr. Gerhardt. Yes sir.
    Mr. Raskin. And Professor Karlan.
    Ms. Karlan. Yes.
    Mr. Raskin. You all agree. Okay.
    And are any of you aware of any other President who has 
essentially triggered all three concerns that animated the 
Founders?
    Mr. Feldman. No.
    Ms. Karlan. No.
    Mr. Gerhardt. No as well.
    Mr. Raskin. Mr. Chairman, it's hard to think of a more 
monarchical sentiment than I can do whatever I want as 
President.
    And I yield back.
    Chairman Nadler. The gentleman yields back.
    Mrs. Lesko.
    Mrs. Lesko. Thank you, Mr. Chair.
    Mr. Chair, I ask unanimous consent to insert into the 
record a letter I wrote and sent to you, asking, calling on you 
to cancel any and all future impeachment hearings and outlining 
how the process----
    Chairman Nadler. Without objection, the letter will be 
entered into the record.
    [The information follows:]

      


              MS. MUCARSEL-POWELL FOR THE OFFICIAL RECORD

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mrs. Lesko. Thank you.
    During an interview, Mr. Chairman, on MSNBC's Morning Joe 
on November 26, 2018, Chairman Nadler outlined a three-prong 
test that he said would allow for a legitimate impeachment 
proceeding. Now I quote Chairman Nadler's remarks, and this is 
what he said.
    There really are three--there really are three questions, I 
think. First, has the President committed impeachable offenses? 
Second, do those offenses rise to the gravity that's worth 
putting the country through the drama of impeachment? And, 
number 3, because you don't want to tear the country apart, you 
don't want half of the country to say to the other half for the 
next 30 years he--we won the election. You stole it from us.
    You have to be able to think at the beginning of the 
impeachment process that the evidence is so clear of offenses 
so grave, that once you've laid out all of the evidence, a good 
fraction of the opposition, the voters, will reluctantly admit 
to themselves they had to do it. Otherwise, you have a partisan 
impeachment which will tear the country apart. If you meet 
these three tests, then I think you do the impeachment.
    And those were the words of Chairman Nadler. Now let's see 
if Chairman Nadler's three-prong test has been met.
    First, has the President committed an impeachable offense? 
No. The evidence and testimony has not revealed any impeachable 
offense.
    Second, do those offenses rise to the gravity that's worth 
putting the country through the drama of impeachment? Again, 
the answer is, no, there's nothing here that rises to the 
gravity that's worth putting the country through the drama of 
impeachment.
    And, third, have the Democrats laid out a case so clear 
that even the opposition has to agree? Absolutely not. You and 
House Democrat leadership are tearing apart the country. You 
said the evidence needs to be clear. It is not. You said 
offenses need to be grave. They are not. You said that, once 
the evidence is laid out, that the opposition will admit they 
had to do it. That has not happened. In fact, polling and the 
fact that not one single Republican voted on the impeachment 
inquiry resolution or on the Schiff report reveal the opposite 
is true.
    In fact, what you and your Democratic colleagues have done 
is opposite of what you said had to be done. This is a partisan 
impeachment, and it is tearing the country apart.
    I take this all to mean that Chairman Nadler, along with 
the rest of the Democratic caucus, is prepared to continue 
these entirely partisan, unfair proceedings and traumatize the 
American people all for political purpose. I think that's a 
shame. That's not leadership. That's a sham.
    And so I ask Mr. Turley: Has Chairman Nadler satisfied his 
three-prong test for impeachment?
    Mr. Turley. With all due respect to the chairman, I do not 
believe that those factors were satisfied.
    Mrs. Lesko. Thank you.
    And I want to correct something for the record as well. 
Repeatedly today and other days Democrats have repeated what 
was said in the text of the call. ``Do me a favor though,'' and 
they imply it was against President Biden, to investigate 
President Biden. It was not. It was not. In fact, let me read 
what the transcript says.
    It says: President Trump, I would like to you do us a favor 
though because our country has been through a lot and Ukraine 
knows alot about it. I would like you to find out what happened 
with this whole situation with Ukraine. They say CrowdStrike. I 
guess you have one of your own wealthy people.
    It says nothing about the Bidens. So, please stop 
referencing those two together.
    And I yield back.
    Chairman Nadler. The gentlelady yields back.
    Ms. Jayapal.
    Ms. Jayapal. Thank you, Mr. Chairman.
    This is a deeply grave moment that we find ourselves in and 
I thought the threat to our Nation was well articulated earlier 
today by Professor Feldman when you said, If we cannot impeach 
a President who abuses his office for personal advantage, we no 
longer live in a democracy. We live in a monarchy, or we live 
under a dictatorship.
    My view is that if people cannot depend on the fairness of 
our elections, then what people are calling divisive today will 
be absolutely nothing compared to the shredding of our 
democracy.
    After the events of Ukraine unfolded, the President claimed 
that the reason he requested an investigation into his 
political opponents and withheld desperately needed military 
aid for Ukraine was supposedly because he was worried about 
corruption. However, contrary to the President's statements, 
various witnesses including Vice President Pence's special 
advisor, Jennifer Williams, testified that the President's 
request was political. Take a listen.
    [Video shown.]
    Ms. Jayapal. Professor Karlan, is it common for someone who 
gets caught to deny that their behavior is impermissible?
    Ms. Karlan. Almost always.
    Ms. Jayapal. And one of the questions before us is whether 
the President's claim that he cared about corruption is 
actually credible. Now you've argued before the Supreme Court 
and the Supreme Court determined that, when assessing 
credibility, we should look at a number of factors including 
impact, historical background, and whether there are departures 
from normal procedures, correct?
    Ms. Karlan. That is correct.
    Ms. Jayapal. So what we're ultimately trying to do is 
figure out if someone's explanation fits with the facts and if 
it doesn't, the explanation may not be true. So let's explore 
that.
    Lieutenant Colonel Vindman testified that he prepared 
talking points on anticorruption reform for President Trump's 
call with Ukrainian President Zelensky. However, based on the 
transcripts released of those calls in April and July, 
President Trump never mentioned these points of corruption. He 
actually never mentioned the word ``corruption.'' Does that go 
to any of those factors? Is that significant?
    Ms. Karlan. Yes, it goes to the one about procedural 
irregularities and it also goes to the one that says you look 
at the kind of things that led up to the decision that you're 
trying to figure out somebody's motive about.
    Ms. Jayapal. So let's try another one. Ambassador Volker 
testified that the President never expressed any concerns to 
him about corruption in any country other than Ukraine. Would 
that be relevant to your assessment?
    Ms. Karlan. Yes, it would. It goes to the factor about 
substantive departures.
    Ms. Jayapal. And, Professor Karlan, there is, in fact--and 
my colleague, Mr. McClintock, mentioned this earlier--a process 
outlined in the National Defense Authorization Act to assess 
whether countries that are receiving military aid have done 
enough to fight corruption.
    In May of 2019, my Republican colleague did not say this. 
The Department of Defense actually wrote a letter, determining 
that Ukraine passed this assessment and yet President Trump set 
aside that assessment and withheld the congressionally approved 
aid to Ukraine anyway in direct contradiction to the 
established procedures he should have followed had he cared 
about corruption.
    Is that relevant to your assessment?
    Ms. Karlan. Yes. That would also go to the factors the 
Supreme Court's discussed.
    Ms. Jayapal. What about the fact--and I think you mentioned 
this earlier as one of the key things that you read in the 
testimony--that President Trump wanted the investigations of 
Burisma and the Bidens announced but that he actually didn't 
care whether they were conducted. That was in Ambassador 
Sondland's testimony.
    What would you say about that?
    Ms. Karlan. That goes to whether the claim that this is 
about politics is a persuasive claim because that goes to the 
fact that it's being announced publicly, which is an odd thing. 
I mean, maybe Mr. Swalwell could probably answer this better 
than I because he was a prosecutor, but generally you don't 
announce the investigation in a criminal case before you 
conduct it because it puts the person on notice that they're 
under investigation.
    Ms. Jayapal. And given all of these facts--and there are 
more that we don't have time to get to--how would you assess 
the credibility of the President's claim that he was worried 
about corruption?
    Ms. Karlan. Well, I think you ought to make that 
credibility determination because you have the sole power of 
impeachment. If I were a Member of the House of 
Representatives, I would infer from this that he was doing it 
for political reasons.
    Ms. Jayapal. If we don't stand up now to a President who 
abuses his power, we risk sending a message to all future 
Presidents that they can put their own personal political 
interests ahead of the American people, our national security, 
and our elections; and that is the gravest of threats to our 
democracy.
    I yield back.
    Chairman Nadler. The gentlelady yields back.
    I now recognize Mr. Gohmert for the purpose of unanimous 
consent request.
    Mr. Gohmert. Yes, Mr. Chairman. I would ask unanimous 
consent to offer an article by Daniel Huff.
    Chairman Nadler. Without objection, the article will be 
entered into the record.
    [The information follows:]

      


                  MR. GOHMERT FOR THE OFFICIAL RECORD

=======================================================================

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Nadler. I now recognize Mr. Reschenthaler to 
question the witnesses.
    Mr. Reschenthaler. Thank you, Mr. Chairman.
    I'm starting off today doing something that I don't 
normally do, and I'm going to quote Speaker of the House Nancy 
Pelosi. In March, the speaker told The Washington Post--I'm 
going to quote this.
    Impeachment is so divisive to the country that unless 
there's something so compelling and overwhelming and 
bipartisan, I don't think we should go down that path because 
it divides the country.
    Well, on that, the speaker and I both agree. You know who 
else agrees? The Founding Fathers. The Founding Fathers 
recognized that crimes warranting impeachment must be so 
severe, regardless of political party, that there is an 
agreement that the actions are impeachable.
    But let's go back to Speaker Pelosi's words just one more 
time. The speaker says the case for impeachment must be also 
compelling. Well, after last months's Schiff show, this what is 
we learned. There is no evidence that the President directed 
anyone to tell the Ukrainians that aid was conditioned on 
investigation. Aside from the mere presumptions by Ambassador 
Sondland, there is no evidence that Trump was conditioning aid 
on investigation and, if you doubt me, just go back to the 
actual transcript because never in that call was the 2020 
election mentioned and never in that call was military aid 
mentioned.
    In fact, President Trump told Senator Johnson on 31 August 
that aid was not conditioned on investigation. Rather, 
President Trump was rightfully skeptical about the Ukrainians. 
Their country has a history of corruption, and he merely 
warranted the Europeans to contribute more to a problem in 
their own backyard. But I think we can all agree that it's 
appropriate for the President as a steward of taxpayer dollars 
to ensure that our money isn't wasted.
    I said I wasn't going to go back to Speaker Pelosi, but I 
do want to go back because I forgot. She also said that 
impeachment should be only pursued when it's quote, unquote, 
overwhelming. So it's probably not good for the Democrats that 
none of the witnesses who testified before the Intel Committee 
were able to provide firsthand evidence of a quid pro quo. But 
I forgot. We're calling it bribery now after the focus group 
last week, and there's no evidence of bribery either.
    Instead, the two people who did have firsthand knowledge, 
the President and President Zelensky, both say there was no 
pressure on the Ukrainians; and, again, the transcript of July 
25th backs this up.
    And to go back to Nancy Pelosi, one more time, she said 
that the movement for impeachment should be quote, unquote, 
bipartisan, which is actually the same sentiment echoed by our 
chairman, Jerry Nadler, who in 1998 said, and I quote, There 
must never be a narrowly voted impeachment supported by one of 
the major political parties and opposed by another.
    Well, when the House voted on the Democrat's impeachment 
inquiry, it was just that. It was the only bipartisan vote was 
the one imposing the inquiry. The partisan vote was the one to 
move forward with the inquiry. So we're 0 for 3.
    Let's face it. This is a sham impeachment against President 
Trump. It's not compelling, it's not overwhelming, and it's not 
bipartisan. So even by the speaker's own criteria, this has 
failed. Rather what this is is nothing more than a partisan 
witch hunt which denies the fundamental fairness of our 
American justice system and denies due process to the President 
of the United States.
    The Democrats's case is based on nothing more than 
thoughts, feelings, and conjectures and a few--the thoughts and 
feelings of a few unelected career bureaucrats and the American 
people are absolutely fed up.
    Instead of wasting our time on this, we should be doing 
things like passing USMCA, lowering the cost of prescription 
drugs, and working on our failing infrastructure in this 
country.
    With that said, Mr. Turley, I watched as your words have 
been twisted and mangled all day long. Is there anything you 
would like to clarify?
    Mr. Turley. Only this. I think that one of the 
disagreements that we have and I have with my esteemed 
colleagues is what makes a legitimate impeachment, not what 
technically satisfies an impeachment. There's very few 
technical requirements of an impeachment. The question is what 
is expected of you?
    And my objection is that there is a constant preference for 
inference over information, for presumptions over proof. That's 
because this record hasn't been developed.
    And if you're going remove a President, if you believe in 
democracy, if you're going to remove a sitting President, then 
you have an obligation not to rely on inference when there's 
still information you can gather. And that's what I'm saying. 
It's not that you can't do this. You just can't do it this way.
    Mr. Reschenthaler. Thank you, Mr. Chairman.
    Chairman Nadler. The gentleman yields back.
    I now recognize Ms. Jackson Lee for the purpose of a 
unanimous consent request.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    I'd like unanimous consent to place in the record a 
statement, news statement, from checks and balances on 
President Trump's abuse of office----
    Chairman Nadler. Without objection, the----
    Ms. Jackson Lee [continuing]. Republican and Democratic 
Attorney Generals.
    I ask unanimous consent.
    Chairman Nadler. Without objection.
    [The information follows:]

      


                MS. JACKSON LEE FOR THE OFFICIAL RECORD

=======================================================================

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Nadler. I now recognize Mrs. Demings for five 
minutes for questioning the witnesses.
    Mrs. Demings. Thank you, Mr. Chairman.
    As a former law enforcement official, I know firsthand that 
the rule of law is the strength of our democracy and no one is 
above it, not our neighbors in our various communities, not our 
coworkers, and not the President of the United States.
    Yet the President has said that he cannot be prosecuted for 
criminal conduct, that he need not comply with congressional 
requests and subpoenas. Matter of fact, the President is trying 
to absolve himself of any accountability.
    Since the beginning of the investigation in early 
September, the House sent multiple letters, document requests, 
and subpoenas to the White House. Yet the President has refused 
to produce documents and has directed others not to produce 
documents.
    He has prevented key White House officials from testifying. 
The President's obstruction of Congress is pervasive. Since the 
House began its investigation, the White House has produced 
zero subpoena documents.
    In addition, at the President's direction, more than a 
dozen members of his administration have defied congressional 
subpoenas. The following slides show those who have refused to 
comply at the President's direction. We are facing a 
categorical blockade by a President who's desperate to prevent 
any investigation into his wrongdoing.
    Professor Gerhardt, has a President ever refused to 
cooperate in an impeachment investigation?
    Mr. Gerhardt. Not until now.
    Mrs. Demings. And any President who--I know Nixon delayed 
or tried to delay turning over information. When that occurred, 
was it at the same level that we're seeing today?
    Mr. Gerhardt. President Nixon also had ordered his 
subordinates to cooperate and testify. He didn't shut down any 
of that. He produced documents and there were times--there were 
certainly disagreements but there was not a wholesale, broad-
scale, across-the-board refusal to even recognize the 
legitimacy of this House doing an inquiry.
    Mrs. Demings. Did President Nixon's obstruction result in 
an Article of Impeachment?
    Mr. Gerhardt. Yes, ma'am, Article III.
    Mrs. Demings. Professor Feldman, is it fair to say that if 
a President stonewalls an investigation like we are clearly 
seeing today into whether he has admitted an impeachable point, 
he risks rendering the impeachment power moot?
    Mr. Feldman. Yes. And indeed that's the inevitable effect 
of a President refusing to participate. He's denying the power 
of Congress under the Constitution to oversee him and to 
exercise its capacity to impeach.
    Mrs. Demings. Professor Gerhardt, when a President prevents 
witnesses from complying with congressional subpoenas, are we 
entitled to make any presumptions about what they would say if 
they testified?
    Mr. Gerhardt. Yes, ma'am, you are.
    And I might just point out that one of the difficulties 
with asking for a more thorough investigation is that's exactly 
what the House has tried to conduct here, and the President has 
refused to comply with subpoenas and other requests for 
information. That's where the blockage occurs.
    That's why there are documents not produced and why there 
are people not testifying that people here today have said they 
want to hear from.
    Mrs. Demings. In relation to what you just said, Ambassador 
Sondland testified, and I quote, everyone was in the loop. It 
was no secret.
    Professor Gerhardt, how is Ambassador Sondland's testimony 
relevant here?
    Mr. Gerhardt. His testimony's relevant. It's also rather 
chilling to hear him say that everybody's in the loop; and when 
he says that, he's talking about the people at the highest 
levels of our Government, all of whom are refusing to testify 
under oath or comply with subpoenas.
    Mrs. Demings. Professors, I want to thank you for your 
testimony.
    The President used the power of his office to pressure a 
foreign head of state to investigate an American citizen in 
order to benefit his domestic political situation. After he was 
caught--and I do know something about that--this President 
proceeded to cover it up and refused to comply with valid 
congressional subpoenas.
    The Framers included impeachment in the Constitution to 
ensure that no one, no one is above the law including and 
especially the President of the United States.
    Thank you, Mr. Chair. And I yield back.
    Chairman Nadler. The gentlelady yields back.
    Mr. Cline is recognized.
    Mr. Cline. Thank you, Mr. Chairman.
    It's just past 5 o'clock, and a lot of families are just 
getting home from work right now. They're turning on the TV and 
they're wondering what they're watching on TV. They're asking 
themselves, Is this a rerun, because I thought I saw this a 
couple of weeks ago. But no, this is not a rerun, 
unfortunately. This is act two of the three-part tragedy, the 
impeachment of President Trump.
    And what we're seeing here is several very accomplished 
constitutional scholars attempting to divine the intent, 
whether it's of the President, or of the various witnesses who 
appeared during the Schiff hearings. And it's very frustrating 
to me, as a member of the Judiciary Committee, why we are where 
we are today.
    I asked to be a member of this committee because of its 
storied history, because it was the defender of the 
Constitution, because it was one of the oldest committees in 
the Congress established by another Virginian, John George 
Jackson. It's because two of my immediate predecessors, 
Congressman Bob Goodlatte, who chaired this committee, and 
Congressman Caldwell Butler also served on this committee. But 
the committee that they served under--served on is dead. That 
committee doesn't exist anymore. That committee is gone.
    Apparently, now, we don't even get to sit in the Judiciary 
Committee room. We're in the Ways and Means Committee room. I 
don't know why. Maybe because there's more room. Maybe because 
the portraits of the various chairmen who would be staring down 
at us might just intimidate the other side as they attempt what 
is essentially a sham impeachment of this President.
    You know, looking at where we are, the lack of the use of 
the Rodino rules in this process is shameful. The fact that we 
got witness testimony for this hearing this morning is 
shameful. The fact that we got the Intelligence Committee 
report yesterday, 300 pages of it, is shameful.
    I watched the Intelligence Committee hearings from the 
back, although I couldn't watch them all because the Judiciary 
Committee actually scheduled business during the Intelligence 
Committee hearings, so the Judiciary Committee members weren't 
able to watch all of the hearings. But I didn't get to--I'd get 
to read the transcripts of the hearings that were held in 
private. I was not able to be a part of the Intelligence 
Committee hearings that were in the SCIF.
    We haven't seen the evidence from the Intelligence 
Committee yet. We've asked for it. We haven't received it. We 
haven't heard from any fact witnesses yet before we get to hear 
from these constitutional scholars about whether or not the 
facts rise to the level of an impeachable offense.
    Mr. Turley, it's not just your family and dog who are 
angry. Many of us on this committee are angry. Many of us 
watching at home across America are angry, because this show 
has degenerated into a farce. And, as I said, the Judiciary 
Committee of my predecessors is dead. And I look to a former 
chairman, Daniel Webster, who said: We are all agents of the 
same supreme power, the people.
    And it's the people who elected this President in 2016, and 
it's the people who should have the choice as to whether or not 
to vote for this President in 2020, not the members of this 
committee, not Speaker Nancy Pelosi, and not the Members of 
this House of Representatives. It should be the people of the 
United States who get to decide who their President is in 2020.
    I asked several questions about obstruction of justice to 
Mr. Mueller when he testified. Mr. Turley, I know that you 
mentioned obstruction of justice several times in your 
testimony. I want to yield to Mr. Ratcliffe to ask a concise 
question about that issue.
    Mr. Ratcliffe. I thank the gentleman for yielding.
    Professor Turley, in the last few days we've been hearing 
that despite no questions to any witnesses during the first 2 
months of the first phase of this impeachment inquiry that the 
Democrats may be dusting off the obstruction of justice portion 
of the Mueller report. It seems to me that we all remember how 
painful it was to listen to the special counsel's analysis of 
the obstruction of justice portion of that report. I'd like you 
to address the fatal flaws from your perspective with regard to 
the obstruction of justice portion of that.
    Chairman Nadler. The gentleman's time is expired. The 
witness may answer the question, briefly.
    Mr. Turley. Thank you, Mr. Chairman. I've been a critic of 
the obstruction theory behind the Russia investigation because, 
once again, it doesn't meet what I think are the clear 
standards for obstruction. There were 10 issues that Mueller 
addressed. The only one that I think was--that raised a serious 
issue, quite frankly, was the matter with Don McGahn. There's a 
disagreement about that.
    But also, the Department of Justice rejected the 
obstruction of justice claim, and it was not just the Attorney 
General. It was also the Deputy Attorney General, Rod 
Rosenstein.
    Chairman Nadler. The gentleman's time is well expired. Mr. 
Correa.
    Mr. Correa. Thank you, Mr. Chairman.
    And I'd like to thank our witnesses for being here today. I 
can assure you your testimony is important, not only to this 
body, but to America that is listening very intently on what 
the issues before us are, and why is it so important that all 
of us understand the issues before us.
    Professor Feldman, as was just discussed, President Trump 
has ordered the executive branch to completely blockade the 
efforts of this House to investigate whether he committed high 
crimes and misdemeanors in his dealings with the Ukraine. Is 
that correct?
    Mr. Feldman. Yes, it is.
    Mr. Correa. President Trump has also asserted that many 
officials are somehow absolutely immune from testifying in this 
impeachment inquiry. On the screen behind you is the opinion by 
Judge Jackson, a Federal judge here in D.C., that rejects 
President Trump's assertion.
    Professor Feldman, do you agree with Judge Jackson's ruling 
that President Trump has invoked a nonexistent legal basis to 
block witnesses from testifying in this impeachment inquiry?
    Mr. Feldman. I agree with the thrust of Judge Ketanji Brown 
Jackson's opinion. I think that she correctly held that there 
is no absolute immunity, which would protect a Presidential 
adviser from having to appear before the House of 
Representatives and testify. She did not make a ruling as to 
whether executive privilege would apply in any given situation, 
and I think that was also appropriate, because the issue had 
not yet arisen.
    Mr. Correa. And let me quote Judge Jackson: Open quote, 
``The primary takeaway from past 250 years of recorded American 
history is that Presidents are not kings,'' close quote.
    Professor Feldman, in the Framers' view, does the President 
act more like a leader of democracy, or more like a monarch 
when he orders officials to defy Congress as it tries to 
investigate abuse of power and corruption of electeds?
    Mr. Feldman. Sir, I don't even think the Framers could have 
imagined that a President would flatly refuse to participate in 
an impeachment inquiry, given that they gave the power of 
impeachment to the House of Representatives, and assumed that 
the structure of the Constitution would allow the House to 
oversee the President.
    Mr. Correa. Thank you. Professor Gerhardt, where can we 
look in the Constitution to understand whether the President 
must comply with the impeachment investigations?
    Mr. Gerhardt. I think you can look throughout the entire 
Constitution. A good place, of course, includes the Supremacy 
Clause. The President also takes an oath. He takes an oath to 
support and defend the Constitution of the United States. That 
means that he's assuming office with certain constraints on 
what he may do, and that there are measures for accountability 
for any failure to follow his duty or follow the Constitution.
    Mr. Correa. Thank you. And the President has said that he 
is above the law, that Article II of the Constitution allows 
him to, and I quote, ``do whatever I want.'' That can't be 
true. Judge Jackson has said that no one is above the law.
    Personally, I grew up in California in the 1960s. It was a 
time when we were going to beat the Russians to the moon. We 
were full of optimism. We believed in American democracy. We 
were the best in the world. And back home on Main Street, my 
mom and dad struggled to survive day to day. My mom worked as a 
maid cleaning hotel rooms for a buck 50 an hour, and my dad 
worked at the local paper mill, trying to survive day to day. 
And what got us up in the morning was the belief, the optimism 
that tomorrow was going to be better than today.
    We're a Nation of freedom, democracy, economic opportunity, 
and we always know that tomorrow's going to be better. And 
today, I personally sit as a testament to the greatness of this 
Nation, me, out of the hoods, in Congress. And I sit here in 
this committee room also with one very important mission, which 
is to keep the American Dream alive, to ensure that all of us 
are equal, to ensure that nobody, nobody is above the law, and 
to ensure that our Constitution and that our congressional 
oversight of the Presidency is still something with meaning.
    Thank you. Mr. Chair, I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Armstrong.
    Mr. Armstrong. Thank you, Mr. Chairman.
    All day long we've been sitting here and listening to my 
friends across the aisle and their witnesses claim that the 
President demanded Ukraine do us a favor by assisting in 2020 
reelection campaign before he would release the military aid. 
This is like everything else in the sham impeachment, purposely 
misleading and not based on the facts.
    So let's review the actual transcript of the call. They 
never mention the 2020 election. They never mention military 
aid. It does, however, clearly show that the favor the 
President requested was assistance with the ongoing 
investigation into the 2016 election. Those investigations, 
particularly the one done--being run by U.S. Attorney John 
Durham, should concern Democrats.
    And the transcript of this call shows that the President 
was worried about the efforts of Ukraine relating to the 2016 
election. We know this--and notice I'm using the word ``know'' 
and not the word ``infer''--from reading the transcript and 
because he spoke about it ending with Mueller. We know this 
because he wants the Attorney General to get in touch with the 
Ukrainians about the issue. We have a treaty with Ukraine 
governing these sorts of international investigations. But like 
so many other things, these facts are inconvenient for 
Democrats. They don't fit the impeachment narrative, so they're 
misrepresented or ignored.
    And I think it's important when we talk about this--and 
whatever the burden of proof, beyond a reasonable doubt, clear 
and convincing evidence, whether it's a judicial hearing, a 
quasi-judicial hearing, or a congressional hearing, when we are 
talking about these issues, I think we need to start with how 
we look at it.
    And I'm not a constitutional law professor, I'm just an old 
criminal defense attorney, but when I walk into a courtroom, I 
think of three things: What's the crime charged? What's the 
conduct? And who's the victim? And we've managed to make it 
till 5 o'clock today before we've talked about the alleged 
victim of the crime, and that's President Zelensky.
    At three different times, President Zelensky, at least 
three different times, has denied being pressured by the 
President. The call shows laughter, pleasantries, cordiality. 
September 25th, President Zelensky states: No, you heard that 
we had a good phone call. It was normal. We spoke about many 
things. I think you read it and nobody pushed me. On October 
10th, President Zelensky had a press conference, and I 
encourage everybody to watch it. Even if you don't understand 
it, 90 percent of communication is nonverbal. You tell me if 
you think he's lying. There was no blackmail. December 2nd, 
this Monday, I never talked to the President from the position 
of quid pro quo.
    So we have the alleged victim of quid pro quo, bribery, 
extortion, whatever we're dealing with now today, repeatedly 
and adamantly shouting from the rooftops that he never felt 
pressure, that he was not the victim of anything. So in order 
for this whole thing to stick, we have to believe that 
President Zelensky is a pathological liar, or that the 
Ukrainian President and the country are so weak that he has no 
choice but to parade himself out there, demoralize himself for 
the good of his country.
    Either of these two assertions weakens their countries and 
harms our efforts to help the Ukraine, and also begs the 
question of how on earth did President Zelensky withstand this 
illegal and impeachable pressure to begin with, because this 
fact still has not changed: The aid was released to Ukraine and 
did not take any action from them in order for it to flow.
    And, with that, I'd yield to my friend, Mr. Jordan.
    Mr. Jordan. I thank the gentleman for yielding.
    Professor Karlan, context is important, isn't it?
    Ms. Karlan. Yes, sir.
    Mr. Jordan. Yeah, because just a few minutes ago when our 
colleague from Florida presented a statement you made, you 
said, Well, you got to take that statement in context. But it 
seems to me you don't want to extend the same or apply the same 
standard to the President. Because the now famous quote, ``I 
would like you to do us a favor,'' you said about an hour and a 
half ago that that didn't mean--``us''' didn't mean us, it 
meant the President himself. But the clear reading of this ``I 
would like you to do us a favor, though, because''--you know 
what the next two words are?
    Ms. Karlan. I don't have the document in front of me.
    Mr. Jordan. I'll tell you. Because our country. He didn't 
say, I would like you to do me a favor, though, because I have 
been through a lot. He said, I want you to do us a favor, 
though, because our country has been through a lot. You know 
what this call--when this call happened? It happened the day 
after Mueller was in front of this committee. Of course, our 
country was put through 2 years of this.
    And the idea that you're now going to say, Oh, this is the 
royal ``we,'' and he's talking about himself ignores the entire 
context of his statement. That whole paragraph, you know what 
he ended the paragraph with, talking about Bob Mueller. And 
this is the basis for this impeachment, this call? It couldn't 
be further from the truth. You want the standard to apply when 
Representative Gaetz makes one of your statements, Oh, you got 
to look at the context. But when the President of the United 
States is clear, you try to change his word. And when the 
context is clear, he's talking about the 2 years that this 
country went through because of this Mueller report, somehow 
that standard doesn't apply to the President.
    Chairman Nadler. The gentleman's time is expired.
    Mr. Jordan. That is ridiculous.
    Chairman Nadler. The gentleman's time is expired. Ms. 
Scanlon.
    Ms. Scanlon. I want to thank our constitutional experts for 
walking us through the Framers' thinking on impeachment and why 
they decided it was a necessary part of our Constitution. I'm 
going to ask you to help us understand the implications of the 
President's obstruction of Congress' investigation into his use 
of the Office of the President to squeeze the Ukrainian 
Government to help the Trump reelection campaign. And there's 
certainly hundreds of pages on how one reaches that conclusion.
    We know the President's obstruction did not begin with the 
Ukraine investigation. Instead, his conduct is part of a 
pattern, and I'll direct your attention to the timeline on the 
screen. In the left-hand column, we see the President's 
statement from his July call in which he pressured Ukraine, a 
foreign government, to meddle in our elections. Then once 
Congress got wind of it, the President tried to cover up his 
involvement by obstructing the congressional investigation and 
refusing to cooperate. But this isn't the first time we've seen 
this kind of obstruction.
    In the right-hand column, we can flash back to the 2016 
election, when the President welcomed and used Russia's 
interference in our election. And, again, when the special 
counsel and then this committee tried to investigate the extent 
of his involvement, he did everything he could to cover it up.
    So it appears the President's obstruction of investigations 
is part of a pattern. First, he invites foreign powers to 
interfere in our elections, then he covers it up, and finally 
he obstructs lawful inquiries into his behavior, whether by 
Congress or law enforcement, and then he does it again.
    So, Professor Gerhardt, how does the existence of such a 
pattern help determine whether the President's conduct is 
impeachable?
    Mr. Gerhardt. The pattern, of course, gives us a tremendous 
insight into the context of his behavior when he's acting, and 
how do we explain those actions? By looking at the pattern. We 
can infer--I think a very strong inference, in fact, is that 
this is deviating from the usual practice, and he's been 
systematically heading towards a culmination where he can ask 
this question.
    By the way, after the July 25th call, the money is not yet 
released. And there's ongoing conversations we learn from other 
testimony that, essentially, the money is being withheld 
because the President wanted to make sure the deliverable was 
going to happen, that is the announcement of an investigation.
    Ms. Scanlon. And in addition to the money not being 
released, there also was not the White House meeting, which was 
so important to Ukrainian security, right?
    Mr. Gerhardt. Yes, ma'am, that's right.
    Ms. Scanlon. Professor Feldman, we noted previously that a 
Federal District Court recently rejected the President's 
attempt to block witnesses from testifying to Congress, saying 
that Presidents are not kings. The Founders included two 
critical provisions in our Constitution to prevent our 
President from becoming a king, and our democracy from becoming 
a monarchy. And those protections were Presidential elections 
and impeachment, correct?
    Mr. Feldman. Correct.
    Ms. Scanlon. Based on the pattern of conduct that we're 
discussing today, the pattern of inviting foreign interference 
in our elections for political gain, and then obstructing 
lawful investigation, has the President undermined both of 
those protections?
    Mr. Feldman. He has. And it's crucial to note that the 
victim of a high crime and misdemeanor, such as the President 
is alleged to have committed, is not President Zelensky and is 
not the Ukrainian people. The victim of the high crime and 
misdemeanor is the American people. Alexander Hamilton said 
very clearly that the nature of a high crime and misdemeanor is 
that they are related to injuries done to the society itself. 
We, the American people, are the victims of the high crime and 
misdemeanor.
    Ms. Scanlon. And what is the appropriate remedy in such a 
circumstance?
    Mr. Feldman. The Framers created one remedy to respond to 
high crimes and misdemeanors, and that was impeachment.
    Ms. Scanlon. Thank you. You know, I've spent over 30 years 
working to help clients and schoolchildren understand the 
importance of our constitutional system, and the importance of 
the rule of law. So the President's behavior is deeply, deeply 
troubling.
    The President welcomed and used election interference by 
Russia, publicly admitted he would do it again, and did, in 
fact, do it again, by soliciting election interference from 
Ukraine. And throughout, the President has tried to cover up 
his misconduct. This isn't complicated. The Founders were 
clear, and we must be, too. Such behavior in a President of the 
United States is not acceptable.
    I yield back.
    Chairman Nadler. The gentlelady yields back.
    Mr. Cicilline, you will be recognized for a unanimous 
consent request.
    Mr. Cicilline. Mr. Chairman, I ask unanimous consent that a 
document which lists the 400 pieces of legislation passed by 
the House, 275 bipartisan bills, 80 percent which remain 
languishing in the Senate, be made a part of the record in 
response to Mr. Gaetz's claim that we're not getting the work 
done.
    Chairman Nadler. Without objection, the document will be 
made part of the record.
    [The information follows:]

      

                 MR. CICILLINE FOR THE OFFICIAL RECORD

=======================================================================

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
 
    
    Chairman Nadler. Mr. Biggs is recognized for a unanimous 
consent request.
    Mr. Biggs. Yes, Mr. Chairman, I seek unanimous consent for 
a packet of 54 documents and items which have previously been 
submitted.
    Chairman Nadler. Without objection, the documents will be 
entered into the record.
    [The information follows:]

      

                   MR. BIGGS FOR THE OFFICIAL RECORD

=======================================================================



    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    

    
 

    
    Mr. Cicilline. Mr. Chairman, may I have another unanimous--
--
    Chairman Nadler. For what purpose does the gentleman seek--
--
    Mr. Cicilline. Mr. Chairman, I ask unanimous consent that 
this article that was just published about 15 minutes ago 
entitled ``Law Professor Jonathan Turley said Democrats are 
setting a record for a fast impeachment. That's demonstrably 
false'' be made part of the record.
    Chairman Nadler. Without objection----
    Mr. Johnson of Louisiana. Mr. Chairman.
    Chairman Nadler. Without objection, the document will be 
made part of the record.
    [The information follows:]

      


                 MR. CICILLINE FOR THE OFFICIAL RECORD

=======================================================================

    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Chairman Nadler. Who seeks recognition?
    Mr. Johnson of Louisiana. Mr. Chairman.
    Chairman Nadler. For what purpose does the gentleman seek 
recognition?
    Mr. Johnson of Louisiana. I seek unanimous consent to enter 
into the record a tweet that the First Lady of the United 
States just issued within the hour that says, quote, ``A minor 
child deserves privacy and should be kept out of politics. 
Pamela Karlan, you should be ashamed of your very angry and 
obviously biased public pandering, and using a child to do 
it,'' unquote.
    Chairman Nadler. Without objection, the document will be 
entered into the record.
    [The information follows:]

      


                MR. JOHNSON (LA) FOR THE OFFICIAL RECORD

=======================================================================

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Nadler. Mr. Steube is recognized for the purpose 
of questioning the witnesses. Mr. Steube is not here 
momentarily.
    Ms. Garcia is recognized.
    Ms. Garcia. Thank you, Mr. Chairman.
    And I, too, want to thank all the witnesses for their time 
and your patience today. I know it's been a long day, but the 
end is in sight.
    As my colleague, Ms. Scanlon, observed, the similarities 
between the President's conduct in the Ukraine investigation 
and his conduct in the special counsel's investigation are hard 
to ignore. In fact, we are seeing it as a pattern of a 
Presidential abuse of power. The President called the Ukraine 
investigation a hoax, and the Mueller investigation a witch 
hunt. He has threatened the Ukraine whistleblower for not 
testifying, like he threatened to fire his Attorney General for 
not obstructing the Russia investigation.
    The President fired Ambassador Yovanovitch, and publicly 
tarnished her reputation, much in the same way he fired his 
White House counsel, and publicly attacked his integrity. And 
finally, the President attacked the civil servants who have 
testified about Ukraine, just like he attacked career officials 
of the Department of Justice for investigating his obstruction 
of the Russia investigation. Under any other circumstances, 
such behavior by any American President would be shocking, but 
here it is a repeat of what we have already seen in the special 
counsel's investigation.
    I'd like to take a moment to discuss the President's 
efforts to obstruct the special counsel's investigation, a 
subject that this committee has been investigating since March. 
Here are two slides. The first one will show, as he did with--
as the President, as he did with Ukraine, tried to coerce his 
subordinates to stop an investigation into his misconduct by 
firing Special Counsel Mueller. And the second slide, this 
shows that when the news broke out of the President's order, 
the President directed his advisers to falsely deny he had made 
the order.
    Professor Gerhardt, are you familiar with the facts 
relating to these three episodes as described in the Mueller 
report? Yes or no, please.
    Mr. Gerhardt. Yes, ma'am.
    Ms. Garcia. So accepting the special counsel's evidence as 
true, is this pattern of conduct obstruction of justice?
    Mr. Gerhardt. It's clearly obstruction of justice.
    Ms. Garcia. And why would you say so, sir?
    Mr. Gerhardt. The obvious object of this activity is to 
shut down an investigation. And, in fact, the acts of the 
President, according to these facts, each time is to use the 
power that he has unique to his office, but in a way that's 
going to help him frustrate the investigation.
    Ms. Garcia. So does this conduct fit within the Framers' 
view of impeachable offenses?
    Mr. Gerhardt. I believe it does. I mean, the entire 
Constitution, including separation of powers, is designed to 
put limits on how somebody may go about frustrating the 
activity of another branch.
    Ms. Garcia. So you would say that this also would be an 
impeachable offense?
    Mr. Gerhardt. Yes, ma'am.
    Ms. Garcia. Thank you, because I agree with you. The 
President's actions and behavior do matter. The President's 
obstruction of justice definitely matters. As a former judge 
and as a Member of Congress, I have raised my right hand and 
put my left hand on a Bible more than once, and have sworn to 
uphold the Constitution and laws of this country.
    This hearing is about that, but it's also about the core of 
the heart of our American values, the values of duty, honor, 
and loyalty. It's about the rule of law. When the President 
asks Ukraine for a favor, he did so for his personal political 
gain, and not on behalf of the American people. And if this is 
true, he would have betrayed his oath and betrayed his loyalty 
to this country.
    A fundamental principle of our democracy is that no one is 
above the law, not any one of you professors, not any one of us 
up here, Members of Congress, not even the President of the 
United States. That's why we should hold him accountable for 
his actions, and that's why, again, thank you for testifying 
today and helping us walk through all this to prepare for what 
may come. Thank you, sir.
    I yield back.
    Chairman Nadler. The gentlelady yields back.
    Mr. Neguse.
    Mr. Neguse. Thank you, Mr. Chair, and thank you to each of 
the four witnesses for your testimony today.
    I'd like to start by talking about intimidation of 
witnesses. As my colleague, Congresswoman Garcia, noted, 
President Trump has tried to interfere in both the Ukraine 
investigation and Special Counsel Mueller's investigation in 
order to try to cover up his own misconduct. And in both the 
Ukraine investigation and Special Counsel Mueller's 
investigation, the President actively discouraged witnesses 
from cooperating, intimidated witnesses who came forward, and 
praised those who refused to cooperate.
    For example, in the Ukraine investigation, the President 
harassed and intimidated the brave public servants who came 
forward. He publicly called the whistleblower a, quote, 
``disgrace to our country,'' and said that his identity should 
be revealed. He suggested that those involved in the 
whistleblower complaint should be dealt with in the way that 
we, quote, ``used to do,'' end quote, for spies and treason. He 
called Ambassador Taylor, a former military officer with more 
than 40 years of public service, a, quote, ``Never Trumper,'' 
end quote, on the same day that he called Never Trumpers, 
quote, ``scum.''
    The President also treated accusations about many of the 
other public servants who testified, including Jennifer 
Williams and Ambassador Yovanovitch. And as we know, the 
President's latter tweet happened literally during the 
Ambassador's testimony in this room, in front of the 
Intelligence Committee, which she made clear was intimidating.
    Conversely, we know that the President has praised 
witnesses who have refused to cooperate. For example, during 
the special counsel's investigation, the President praised Paul 
Manafort, his former campaign manager, for not cooperating. You 
can see the tweet up on the screen to my side.
    As another telling example, the President initially praised 
Ambassador Sondland for not cooperating, calling him, quote, 
``a really good man and a great American.'' But after 
Ambassador Sondland testified and confirmed that there was, 
indeed, a quid pro quo between the White House visit and the 
request for investigations, the President claimed that he, 
quote, ``hardly knew the ambassador.''
    Professor Gerhardt, you've touched on it previously, but 
I'd like you to just explain. Is the President's interference 
in these investigations by intimidating witnesses also the kind 
of conduct that the Framers were worried about and, if so, why?
    Mr. Gerhardt. It's clearly conduct I think that worried the 
Framers, as reflected in the Constitution they have given us 
and the structure of that Constitution. The activities you're 
talking about here are consistent with the other pattern of 
activity we've seen with the President, either trying to stop 
investigations, either by Mr. Mueller, or by Congress, as well 
as to ask witnesses to make false documents about testimony. 
And all those different kinds of activities are not the kinds 
of activities the Framers expected the President to be able to 
take. They expect a President to be held accountable for it, 
and not just in elections.
    Mr. Neguse. Professor Turley, you've studied the 
impeachments of President Johnson, President Nixon, President 
Clinton. Am I right that President Nixon allowed senior White 
House officials, including the White House counsel and the 
White House chief of staff, to testify in the House impeachment 
inquiry?
    Mr. Turley. Yes.
    Mr. Neguse. And you're aware that President Trump has 
refused to allow his chief of staff or White House counsel to 
testify in this inquiry, correct?
    Mr. Turley. Yes, but various officials did testify, and 
they are remaining in Federal employment.
    Mr. Neguse. And that does not include the White House 
counsel nor the White House chief of staff, correct?
    Mr. Turley. That is correct.
    Mr. Neguse. And am I right that President Clinton provided 
written responses to 81 interrogatories from the House 
Judiciary Committee during that impeachment inquiry?
    Mr. Turley. I believe that is correct.
    Mr. Neguse. Sounds about right? And you're aware that 
President Trump has refused any request for information 
submitted by the Intelligence Committee in this impeachment 
inquiry?
    Mr. Turley. I am, yes.
    Mr. Neguse. Are you familiar with the letter issued by 
White House counsel Pat Cipollone on October 8th, written on 
behalf of President Trump and, in effect, instructing executive 
branch officials not to testify in this impeachment inquiry?
    Mr. Turley. Yes, I am.
    Mr. Neguse. And am I correct that no President in the 
history of the Republic before President Trump has ever issued 
a general order instructing executive branch officials not to 
testify in an impeachment inquiry?
    Mr. Turley. That's where I'm not sure I can answer that 
affirmatively. President Nixon, in fact, went to court over 
access to information, documents and the like, and he lost.
    Mr. Neguse. Well, Professor Turley, I would just, again, 
refer you back to the history that's been recounted by each of 
the distinguished scholars here today, because we know, as we 
recount these examples, that President Nixon did, in fact, 
allow his chief of staff and his chief counsel to testify, and 
this President has not. We know that President Clinton 
responded to interrogatories propounded by that impeachment 
inquiry, and that this President has not. At the end of the 
day, this Congress and this committee has an obligation to 
ensure that the law is enforced.
    And, with that, I yield back the balance of my time.
    Chairman Nadler. The gentleman yields back.
    Mrs. McBath.
    Mrs. McBath. Thank you, Mr. Chairman.
    And, Professors, I want to thank you so very much for 
spending these long arduous hours with us today. Thank you so 
much for being here.
    Following up on my colleague, Mr. Neguse's questions, I'd 
like to briefly go through one particular example of the 
President's witness intimidation that I find truly disturbing 
and very devastating, because I think it's important that we 
all truly see what's going on here. As the slide shows, on his 
July 25th call, President Trump said that former Ambassador 
Yovanovitch would, and I quote, ``go through some things.'' 
Ambassador Yovanovitch testified about how learning about the 
President's statements made her feel.
    [Video played.]
    Mrs. McBath. And, as we all witnessed in real time, in the 
middle of Ambassador Yovanovitch's live testimony, the 
President tweeted about the Ambassador, discrediting her 
service in Somalia and the Ukraine. Ambassador Yovanovitch 
testified that the President's tweet was, and I quote, ``very 
intimidating.''
    Professor Gerhardt, these attacks on a career public 
servant are deeply upsetting, but how do they fit into our 
understanding of whether the President has committed high 
crimes and misdemeanors, and how do they fit into our broader 
pattern of behavior by this President to cover up and obstruct 
his misconduct?
    Mr. Gerhardt. One way in which it contributes to the 
obstruction of Congress is that it doesn't just defame 
Ambassador Yovanovitch. By every other account, she's been an 
exemplary public servant. So what he's suggesting there may not 
be consistent with what we know as facts.
    But one of the things that also happens when he sends out 
something like this, it intimidates everybody else who's 
thinking about testifying, any other public servants that think 
they should come forward. They are going to worry that they are 
going to get punished in some way, they're going to face things 
like she's faced.
    Mrs. McBath. That is the woman President Trump has 
threatened before you. And I can assure you, I personally know 
what it's like to be unfairly attacked publicly for your sense 
of duty to America. Ambassador Yovanovitch deserves better. No 
matter your party, whether you are a Democrat or Republican, I 
don't think any of us thinks that this is okay. It is plainly 
wrong for the President of the United States to attack a career 
public servant just for telling the truth as she knows it.
    And I yield back the balance of my time.
    Chairman Nadler. The gentlelady yields back.
    Mr. Stanton.
    Mr. Stanton. Thank you very much, Mr. Chairman, and thank 
you to our outstanding witnesses here today.
    President Trump has declared that he will not comply with 
congressional subpoenas. This blanket categorical disregard of 
the legislative branch began with the President's refusal to 
cooperate with regular congressional oversight, and has now 
extended to the House's constitutional duty on impeachment, the 
reason why we are here today. This disregard has been on 
display for the American people. When asked if he would comply 
with the Don McGahn subpoena, President Trump said, quote, 
``Well, we're fighting all the subpoenas,'' unquote.
    Now, we've discussed here today the obstruction of Congress 
Article of Impeachment against President Nixon. I think I'd 
like to go a little bit deeper into that discussion and 
juxtapose it with President Trump's actions.
    Professor Gerhardt, can you elaborate on how President 
Nixon obstructed Congress and how it compares to President 
Trump's actions?
    Mr. Gerhardt. As I was discussing earlier and including my 
written statement, President Nixon ultimately refused to comply 
with four legislative subpoenas. These were zeroing in on the 
most incriminating evidence he had in his possession. So he 
refused to comply with those subpoenas, making them the basis 
for that third article, and he resigned a few days later.
    Mr. Stanton. Professor Feldman, what are the consequences 
of this unprecedented obstruction of Congress to our democracy?
    Mr. Feldman. For the President to refuse to participate in 
any way in the House's constitutional obligation of supervising 
him to impeach him breaks the Constitution. It basically says, 
Nobody can oversee me, Nobody can impeach me. First, I'll block 
witnesses from appearing, then I'll refuse to participate in 
any way, and then I'll say, you don't have enough evidence to 
impeach me.
    And ultimately, the effect of that is to guarantee that the 
President is above the law and can't be checked. And since we 
know the Framers put impeachment in the Constitution to check 
the President, if the President can't be checked, he's no 
longer subject to the law.
    Mr. Stanton. Professor Gerhardt, would you agree that the 
President's refusal to comply with congressional subpoenas 
invokes the Framers' worst fears and endangers our democracy?
    Mr. Gerhardt. It does. And one way in which to understand 
that is to put all of his arguments together and then see what 
the ramifications are. He says he's entitled not to comply with 
all subpoenas. He says he's not subject to any kind of criminal 
investigation while he's President of the United States. He's 
immune to that. He's entitled to keep all information 
confidential from Congress, doesn't even have to give a reason.
    Well, when you put all those things together, he's blocked 
off every way in which to hold himself accountable except for 
elections. And the critical thing to understand here is that is 
precisely what he was trying to undermine in the Ukraine 
situation.
    Mr. Stanton. Professor Karlan, do you have anything to add 
to that analysis?
    Ms. Karlan. I think that is correct. And if I can just say 
one thing.
    Mr. Stanton. Please.
    Ms. Karlan. I want to apologize for what I said earlier 
about the President's son. It was wrong of me to do that. I 
wish the President would apologize, obviously, for the things 
that he's done that's wrong, but I do regret having said that.
    Mr. Stanton. Thank you, Professor.
    One of the most important questions that every member of 
this committee must decide is whether we are a Nation of laws 
and not men. It used to be an easy answer, one we could all 
agree on. When President Nixon defied the law and obstructed 
justice, he was held to account by people on both sides who 
knew that for a republic to endure, we must have fidelity to 
our country rather than one party or one man. And the 
obstruction we're looking at today is far worse than President 
Nixon's behavior. Future generations will measure us, every 
single member of this committee, by how we choose to answer 
that question. I hope we get it right.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Steube.
    Mr. Steube. Thank you, Mr. Chairman.
    I've only been in Congress since January of this year, and 
on the very first day of my swearing in, a Democrat in my class 
called for the impeachment of the President on day one, using 
much more colorful language than I would ever use.
    Since then, this committee focused on the Mueller report 
and the Russia collusion theory. We all sat and listened to Mr. 
Mueller state unequivocally that there was no evidence that the 
Trump campaign colluded with Russia. So that didn't work for 
the Democrats. So they then changed their talking points and 
moved to the obstruction of justice theory, that the President 
obstructed justice. Then that fizzled.
    Then after coordinating with Chairman Schiff's staff, a 
whistleblower filed a complaint based completely on hearsay and 
overhearing other people that weren't on the phone call talk 
about a phone call between two world leaders, which led to the 
Intel Committee's so-called impeachment inquiry, which violated 
all past historical precedent, denied the President basic due 
process rights and fundamental fairness by conducting the so-
called inquiry in secret, without the minority's ability to 
call witnesses, and denied the President the ability to have 
his lawyers cross-examine witnesses, a right afforded to 
President Clinton and every defendant in our justice system, 
including rapists and murderers.
    The Republicans on this committee have repeatedly requested 
all evidence collected by the Intel Committee. As we sit here 
today, we still don't have the underlying evidence that we've 
been requesting, again, a right afforded every criminal 
defendant in the United States. So instead, we sit here getting 
lectures from law professors about their opinions, their 
opinions, not facts. I guess the Democrats needed a 
constitutional law refresher course. The Republicans don't.
    Mr. Chairman, you have acknowledged, and I quote, the 
House's, quote, ``power of impeachment demands a rigorous level 
of due process. Due process means the right to confront 
witnesses against you, to call your own witnesses, and to have 
the assistance of counsel.'' Those are your words, Mr. 
Chairman, not mine.
    What are you afraid of? Let the minority call witnesses. 
Let the President call witnesses. Clinton alone called 14 
witnesses to testify. Let the President's counsel cross-examine 
the whistleblower. Let the President's counsel cross-examine 
the Intel staff who colluded with the whistleblower. In your 
own words, those are the rights that should be afforded to the 
President, rights every criminal defendant is afforded.
    Even terrorists in Iraq are afforded more due process than 
you and the Democratic majority have afforded the President. I 
know, because I served in Iraq, and I prosecuted terrorists in 
Iraq, and we provided terrorists in Iraq more rights and due 
process in the Central Criminal Court of Iraq than you and 
Chairman Schiff have afforded the President of the United 
States.
    No collusion, no obstruction, no quid pro quo, no evidence 
of bribery except opinion, no evidence of treason, no evidence 
of high crime or misdemeanors. We have a bunch of opinions from 
partisan Democrats who have stated from day one that they want 
to impeach the President, and not on this theory, but on 
multiple other different theories. The American people are 
smarter than your ABCs of impeachment that you've had on the 
screen that were laid out today.
    And it's extremely demonstrative of your lack of evidence, 
given you called law professors to give their opinions, and not 
fact witnesses to give their testimony today to be cross-
examined and the rights afforded to the President of the United 
States.
    Mr. Chairman, when can we anticipate that you will choose a 
date for the minority day of hearings? Mr. Chairman, I'm asking 
you a question. When can we anticipate that you will choose a 
date for the minority day of hearings?
    Chairman Nadler. The gentleman is recognized for the 
purpose of questioning the witnesses, not for colloquy with 
colleagues.
    Mr. Steube. Well, then I'll do that after my time. I yield 
the remainder of my time to Mr. Ratcliffe.
    Mr. Ratcliffe. I thank my colleague from Florida for 
yielding.
    Professor Turley, since we last talked, based on 
questioning from my colleagues across the aisle, it does, in 
fact, appear that the Democrats do intend to pursue Articles of 
Impeachment for obstruction of justice based on the Mueller 
report. I asked you a question about that. You didn't really 
get a chance to give a complete answer.
    In your statement today, you make this statement: I believe 
an obstruction claim based on the Mueller report would be at 
odds with the record and the controlling law. The use of an 
obstruction theory from the Mueller report would be 
unsupported--unsupportable in the House and unsustainable in 
the Senate.
    Do you remember writing that?
    Mr. Turley. Yes, I do.
    Mr. Ratcliffe. Why did you write that?
    Mr. Turley. Because I think it's true. The fact is that 
this was reviewed by Main Justice. The special counsel did not 
reach a conclusion on obstruction. He should have. I think that 
his justification, quite frankly, was a bit absurd on not 
reaching a conclusion, but the Attorney General, Deputy 
Attorney General did, and they came to the right conclusion. I 
don't think this is a real case for obstruction of justice.
    But then, this body would be impeaching the President on 
the basis of the inverse conclusion. I don't believe that it 
would be appropriate.
    Chairman Nadler. The gentleman's time is expired.
    Ms. Dean.
    Ms. Dean. Thank you, Mr. Chairman.
    Words matter. In my earlier life, Professors, I was a 
professor of writing. I taught my students to be careful and 
clear about what they put to paper. That is a lesson that the 
Framers of our Constitution understood far better than anyone. 
They were laying the foundation for a new form of government, 
one that enshrines democratic principles and protects against 
those who would seek to undermine them. The Constitution 
explicitly lays out that a President may be impeached for 
treason, bribery, high crimes and misdemeanors.
    We've heard a lot of words today, foreign interference, 
bribery, obstruction of justice. Professors, I'd like to go 
through the President's conduct and the public harms we have 
discussed today and ask if they would fit into what the 
forefathers contemplated when crafting those words of the 
impeachment clause.
    Professor Karlan, I'd like to ask you about the foreign 
interference in elections. As Americans, we can agree foreign 
interference/foreign influence erodes the integrity of our 
elections and, as you said so plainly, it makes us less free. 
Yet, on July 25, 2019, the President coerced Ukrainian 
President Zelensky to announce an investigation into his 
political rival, Trump's political rival, which was 
corroborated by multiple witnesses throughout the Intelligence 
Committee hearings.
    Professor Karlan, can you explain to the American people, 
in your opinion, whether the Framers considered solicitation of 
foreign interference, and would they have considered it a high 
crime or misdemeanor, and does the President's conduct rise to 
that level?
    Ms. Karlan. The Framers of our Constitution would have 
considered it abhorrent, would have considered it the essence 
of a high crime or misdemeanor for a President to invite in 
foreign influence, either in deciding whether he will be 
reelected, or deciding who his successor would be.
    Ms. Dean. Thank you.
    Professor Feldman, I'd like to talk to you about bribery. 
During the course of the Intelligence Committee hearings, 
multiple witnesses gave sworn unrebutted testimony that the 
President withheld nearly $400 million in congressionally 
approved aid on the condition that Russia--excuse me, that 
Ukraine announce investigations into his chief political 
adversary.
    Professor, in your opinion, given those facts, and the 
Framers' specific concerns, would you describe the President's 
behavior here and the use of his public office for a private 
benefit as rising to those levels?
    Mr. Feldman. The Framers considered, as you said, bribery 
to consist--bribery under the Constitution to consist of the 
President abusing his office corruptly for personal gain. If 
this House determines, and if this committee determines that 
the President was, in fact, seeking personal gain in seeking 
the investigations that he asked for, then that would 
constitute bribery under the Constitution.
    Ms. Dean. Thank you.
    Professor Gerhardt, I'd like to ask you about obstruction 
of justice. The President has categorically refused to produce 
any documents responsive to congressional subpoenas, attacked 
and intimidated prospective and actual witnesses, including 
career and civil military--excuse me, military and civil 
servants, as discussed here, like Ambassador Yovanovitch, 
Lieutenant Colonel Vindman, Ambassador Taylor, Jennifer 
Williams and others, and he directed all current and former 
administration witnesses to defy congressional subpoenas.
    Professor, based on that set of facts, does this conduct 
meet the threshold for obstruction of justice, as envisioned in 
the Constitution?
    Mr. Gerhardt. Yes, ma'am, I believe it does. I remember 
when I was here 21 years ago, along with Professor Turley, 
testifying before a differently constituted committee on a very 
serious question regarding impeachment. And I remember a number 
of law professors very eloquently talking about President 
Clinton's misconduct as an attack on the judicial system. And 
that's what you just described to me.
    Ms. Dean. Thank you. Thank you, Professors, all of you, all 
four of you. What you did today is you brought part of our 
Constitution to life, and I thank you for that. You've shown 
what the Framers were mindful of when they wrote the 
impeachment clause of our Constitution. They chose their words, 
and their words matter.
    You know, it was my father, Bob Dean, a terrific dad and a 
talented writer, who instilled in me and my brothers and sister 
a love of language. He taught us our words matter, the truth 
matters. It's through that lens which I see all of the serious 
and somber things we're speaking about today, foreign 
interference, bribery, obstruction. The Framers likely could 
not have imagined all three concerns embodied in a single 
leader, but they were concerned enough to craft the remedy, 
impeachment.
    The times have found us. I am prayerful for our President, 
for our country, for ourselves. May we the people always hold 
high the decency and promise and ambition of our founding and 
of the words that matter and of the truth.
    With that, I yield back, Mr. Chairman.
    Chairman Nadler. The gentlelady yields back.
    Ms. Mucarsel-Powell.
    Ms. Mucarsel-Powell. Thank you.
    And thank you, Professors, for your time today. It's been a 
long day. I want to tell you I did not have the privilege of 
being born into this country. As an immigrant, when I became a 
citizen to this great Nation, I took an oath to protect and 
defend the Constitution from all foreign and domestic enemies.
    And I had the fortune of taking that oath once again when I 
became a Member of Congress. And that includes the 
responsibility to protect our Nation from continuing threats 
from a President, any President.
    You testified that the President's actions are a continuing 
risk to our Nation and democracy, meaning that this is not a 
one-time problem. There is a pattern of behavior by the 
President that is putting at risk fair and free elections, and 
I think that we are here today because the American people 
deserve to know whether we need to remove the President because 
of it.
    During the Nixon impeachment, the Judiciary Committee said, 
quote, ``the purpose of impeachment is not personal punishment. 
Its function is primarily to maintain constitutional 
government.''
    Professor Karlan, to me that means that impeachment should 
be used when we must protect our American democracy. It is 
reserved for offenses that present a continuing risk to our 
democracy. Is that correct?
    Ms. Karlan. Yes, it is.
    Ms. Mucarsel-Powell. Thank you. And I want to show you an 
example of what the President said just 1 week after the 
transcript of the July 25th call was released. When a reporter 
asked the President what he wanted from President Zelensky, and 
he responded with this.
    [Video played.]
    Ms. Mucarsel-Powell. So we've heard today conflicting 
dialogue from both sides, and I just want to ask, Mr. Feldman, 
is this clear evidence from a President asking for a foreign 
government to interfere in our elections?
    Mr. Feldman. Congresswoman, I'm here for the Constitution. 
We are here for the Constitution. And when the President of the 
United States asks for assistance from a foreign power to 
distort our elections for his personal advantage, that 
constitutes an abuse of office and it counts as a high crime 
and misdemeanor, and that's what the Constitution is here to 
protect us against.
    Ms. Mucarsel-Powell. Thank you.
    And Professor Karlan, are the President's actions a 
continuing risk that the Framers intended impeachment to be 
used for?
    Ms. Karlan. Yes. This takes us back to the quotation from 
William Davie that we've all used several times in our 
testimony, which is a President--without impeachment, a 
President will do anything to get reelected.
    Ms. Mucarsel-Powell. Thank you. And I want to show you one 
more example from the President's chief of staff when asked 
about the President's demands of the Ukrainian President.
    [Video played.]
    Ms. Mucarsel-Powell. Professor Karlan.
    Ms. Karlan. I think that Mr. Mulvaney is conflating or 
confusing two different notions of politics. Yes, there is 
political influence in our foreign affairs. Because President 
Trump won the election in 2016, we've exited climate accords, 
we've taken a different position on NATO than we would have 
taken had his opponent won.
    But that's different than saying that partisan politics in 
the sense of electoral manipulation is something that we need 
to get over or get used to. If we get over that or we get used 
to that, we will cease to become the democracy that we are 
right now.
    Ms. Mucarsel-Powell. Thank you. And I think that that is 
our greatest fear and threat. And I don't think that anyone is 
above the law. The Constitution establishes that. This type of 
behavior cannot be tolerated from any President, not now, not 
in the future.
    And I yield back.
    Chairman Nadler. The gentlelady yields back.
    That concludes--I'm sorry, Ms. Escobar is recognized.
    Ms. Escobar. Thank you, Chairman.
    Professors, thank you so much for your testimony and time 
today. Many facts, including the President's own words in that 
famous phone call, have been laid out before our very eyes and 
ears for months, despite the President's repeated efforts at a 
cover-up. But it appears that some have chosen to ignore those 
facts.
    What we've seen today from those who choose to turn a blind 
eye is not a defense of the President's actions, because, 
frankly, those offenses are indefensible. Instead, we've seen 
them attack the process and attempt to impugn your integrity. 
For that I am sorry.
    Now to my questions. Some have opined that instead of 
considering impeachment, we should just let this pass and allow 
the people to decide what to do next or what to do about the 
President's behavior in the next election.
    The Framers of our Constitution specifically considered 
whether to just use elections and not have impeachment and 
rejected that notion. One statement from the Framers really 
stuck with me and it's up on the screen.
    George Mason asked: Shall the man who has practiced 
corruption and by that means procured his appointment in the 
first instance, be suffered to escape punishment by repeating 
his guilt?
    Professor Feldman, I have two questions for you. Briefly, 
can you please explain why the Framers decided that a corrupt 
executive could not be solved through elections, and can you 
tell us why impeachment is the appropriate option at this 
point, considering all the evidence Americans have seen and 
heard, rather than just letting this be decided in the next 
election?
    Mr. Feldman. The Framers understood human motivation 
extremely well, and they knew that a President would have a 
great motive to corrupt the electoral process to get reelected. 
And that's exactly why they thought that it wasn't good enough 
to wait for the next election, because the President could 
cheat and could make the next election illegitimate. That's why 
they required impeachment. And if they couldn't impeach a 
corrupt President, James Madison said that could be fatal to 
the republic.
    The reason that it's necessary to take action now is that 
we have a President who has, in fact, sought to corrupt the 
electoral process for personal advantage. Under those 
circumstances, the Framers' remedy of impeachment is the only 
option available.
    Ms. Escobar. Thank you. I want to play two clips, the first 
of President Nixon and the second of President Trump.
    [Video played.]
    Ms. Escobar. Two Presidents openly stating that they are 
above the law.
    Professor Karlan, what happens to our republic, to our 
country if we do nothing in the face of a President who sees 
himself above the law, who will abuse his power, who will ask 
foreign governments to meddle in our elections, and who will 
attack any witness who stands up to tell the truth? What 
happens if we don't follow our constitutional obligation of 
impeachment to remove that President from office?
    Ms. Karlan. We will cease to be a republic.
    Ms. Escobar. Thank you.
    I represent a community that a little over a decade ago was 
marred by corruption at the local government level. There was 
no retreat into a partisan corner or an effort by anyone to 
explain it away. We also didn't wait for an election to cure 
the cancer of corruption that occurred on our watch. We were 
united as a community in our outrage over it. It was 
intolerable to us, because we knew that it was a threat to our 
institutions, institutions that belong to us.
    What we face today is the same kind of test, only one far 
more grave and historic. From the founding of our country to 
today, one truth remains clear: The impeachment power is 
reserved for conduct that endangers democracy and imperils our 
Constitution. Today's hearing has helped us to better 
understand how we preserve our republic and the test that lies 
ahead for us.
    Thank you, Mr. Chairman, I yield back my time.
    Chairman Nadler. The gentlelady yields back.
    That concludes the testimony under the 5-minute rule. I now 
recognize the ranking member for any concluding remarks he may 
have.
    Mr. Collins. Thank you, Mr. Chairman. Well, today has been 
interesting, I guess, to say the least. It has been--we have 
found many things. In fact, three of our four witnesses here 
today alleged numerous crimes committed by the President, and 
at times it seemed like we were even trying to make up crimes 
as we go, well, if it wasn't this, well, it was the intent to 
do it.
    It went along that--it was interesting today as I started 
this day and I'm going to come back to it now. As much as I 
respect these who came before us today, this is way too early, 
because we've not, as a committee, done our job. We've not as a 
committee come together, looked at evidence, taken fact 
witnesses, put people here in front of us under oath to say, 
what happened, and how did it happen, and why did it happen?
    We're taking the work of the Intel Committee and the other 
committees. We're taking it at seemingly at face value. And I 
will remind all that the chairman even is the biggest proponent 
of this not happening in his earlier statements almost 20 years 
ago when he said: We should not take a report from another 
entity and just accept it; otherwise, we are a rubber stamp.
    Now, to my Democratic majority, they may not care, because, 
as I said before, this is about a clock and a calendar, a clock 
and a calendar. They're so obsessed with the election next year 
that they just gloss over things. In fact, what is interesting 
is, as I said earlier, three of the four witnesses allege 
numerous crimes committed by the President. However, during the 
Intel Committee hearings, none of the fact witnesses identified 
a crime. If you're writing about this, that should alarm you.
    So this impeachment narrative being spun by the majority is 
a fake one. It's the majority spinning 3 percent of the facts 
while ignoring 97 percent of the other. In fact, Professor 
Turley earlier said today impeachment needs proof, not 
presumptions. We have one of the fact witnesses in the Intel 
Committee, I presumed that was what was going on, Mr. Sondland.
    You know what is happening here today is also we found out 
today--I thought it was really interesting. This is the 
Judiciary Committee, but we also found out something today, 
that facts don't matter. In fact, facts don't matter unless we 
can fit those facts to fit the narrative we want to spin before 
this committee and the American people. If they don't matter, 
we also heard one of the witnesses state today that it doesn't 
matter if aid was released or not.
    Of course, it matters, but, unfortunately, only one of the 
many facts ignored by the majority. They're ignoring a ton of 
substantive facts that matter.
    It apparently doesn't matter to the Democrats that 
Ambassador Volker, the former Special Envoy to the Ukraine, 
made clear in his testimony there was no conditionality on the 
White House meeting or the aid. The Democrats and their 
witnesses haven't mentioned that, because it's unhelpful to the 
narrative they're spinning.
    It apparently doesn't matter that to the Democrats in the 
majority here that the President did not condition his aid on 
an investigation. In fact, Mr. Sondland's statement, to the 
contrary, was presumption. It was right here in this room he 
called it a guess, right where you're sitting. Called it a 
guess, a presumption. It's what he thought.
    God forbid if we walk into our courtrooms or in our 
proceedings now and find somebody guilty of something we're 
calling a crime, and we walk into court now and all of a 
sudden, well, I thought it was. The witness said, I presumed it 
was. God forbid this is where we're at.
    But, you know, we've also heard today that you can make 
inference, though. It's okay if you're just inferring. I don't 
know about the professors here and for those of us in court on 
both side of the aisle, I've never heard anyone go in and hear 
a judge say, just infer what you think they meant and that will 
be enough. It's not inference.
    You know, it probably doesn't matter that the President 
didn't condition a meeting on an investigation. He met with 
Zelensky with no preconditions. Zelensky didn't even find out 
about the hold on the aid until a month after the call when he 
read it in Politico. The aid was released shortly thereafter 
and Ukraine didn't have anything to do to get the aid released. 
Not only was the aid released, but lethal aid was given as 
well.
    And if you think that doesn't matter, there were five 
meetings between the aid--the time the aid was stopped and the 
time the aid was released, and in none of those meetings 
between Ambassadors and others, including the Vice President 
and Senators, none of that was ever connected to a promise of 
anything on the aid. Nothing was ever connected. Five times. 
And two of those were after President Zelensky learned that aid 
was being held.
    Tell me there's not a problem here with the story. That's 
why fact witnesses aren't here right now. The evidence against 
the President is really about policy differences. In fact, 
three of the Democratic star witnesses, Hill, Taylor, and Kent, 
weren't even on the call. They read transcripts like everyone 
else.
    On July 26, Zelensky met with Volker and Sondland and made 
no reference to quid pro quo or hold on aid. They met several 
more times, no references. But none of those are in--none of 
these inconvenient facts or so many other inconvenient facts 
matter to the majority.
    Moreover, we don't even know what if additional hearings we 
will have to address other facts. This is the part that bothers 
me greatly. It is something we have seen from January of this 
year. No concern about a process that works, but simply a 
getting to an end that we want.
    You know, I agree with Professor Feldman. He may find that 
strange, but I do agree with you on something. It's not his job 
to assess the credibility of the witnesses, it is this 
committee's job. And I agree. But this committee can't do our 
jobs if none of the witnesses testify before our committee, 
even ones that we have talked about calling today and the 
majority has said we don't want. To do that, we still don't 
have an answer on what this committee will do once this hearing 
ends.
    The committee received Chairman Schiff's report yesterday, 
but we still don't have the underlying evidence. The rules even 
set up by this body are not being followed to this day, but yet 
nobody talks about it on the majority side. The witnesses 
produced by Chairman Schiff and the American people talked 
about their feelings, their guesses, their presumptions. But 
even though the facts may not matter to the majority, 97 
percent of the other facts do matter to the American people.
    So my problem is this: As the ranking member of this 
committee, one of the oldest, most should be fact-based, legal-
based committees we have here where impeachment should have 
been all along, I have a group of Members who have no idea 
where we're headed next. I bet you, though, if I ask the 
majority Members outside the chairman, they don't have a clue 
either, very much one.
    Because if they have it, they should share it, because this 
is not a time to play hide the ball. This is not a time to say, 
we're going to figure it out on the fly. You're talking about 
overturning 63 million votes of a President duly elected who is 
doing his job every day and, by the way, was overseas today 
while we're doing this, working with our NATO allies.
    So the question I have is, where do we head next? We've 
heard this ambiguous presentation, but here's my challenge. 
I've already been voted down and tabled today. Mr. Schiff 
should testify. Chairman Schiff, not his staff, must appear 
before this committee to answer questions about the content of 
his report. That's what Ken Starr did 20 years ago and history 
demanded.
    I told the chairman just a while ago and a couple weeks ago 
when we were doing a markup, I said, Mr. Chairman, the history 
lights are on us. It is time that we talk and share how we're 
going forward. I'm still waiting for their answers.
    So, Mr. Chairman, as we look ahead, as the Democratic 
majority promised that this was going to be a fair process when 
it got to Judiciary for the President and others. The 
President--and you may say he could have come today. What would 
have this done? Nothing. There's no fact witnesses here, 
nothing to rebut. In fact, it's been a good time just to see 
that really nothing came of it at the end of the day. So why 
should he be here?
    Let's bring fact witnesses in. Let's bring people in. 
Because as you said, Mr. Chairman, you said, your words, we 
should never on this committee accept an entity giving us a 
report and not investigate it ourselves. Undoubtedly, we're 
well on our way to doing that, because of a calendar and a 
clock.
    So, Mr. Chairman, I know you're about to give a statement, 
and they've worked on it and you've worked on it very hard I'm 
sure, but I want--before you gavel this hearing, before you 
start your statement, before you go any further, I would like 
to know two things: Number one, when do you plan on scheduling 
our minority hearing day?
    And, number two, why or with--when are we actually going to 
have real witnesses here that are fact witnesses in this case? 
When? Or what you said many years ago has faded, just like the 
leaves in fall. I don't really care anymore that somebody else 
gives us a report.
    Undoubtedly, Chairman Schiff is chairman over everything 
with impeachment and he doesn't get to testify. He's going to 
send a staff member. But I don't even know if we're going to 
have a hearing past that to figure out anything that's been 
going on.
    So my question that I started out today is, where is 
fairness? It was promised. It's not being delivered. The facts 
talked about were not facts delivered. This President, as facts 
were given, did nothing wrong, nothing to be impeached, and 
nothing for why we're here.
    And in the words of one of our witnesses, Mr. Turley, if 
you rush through this, you do it on flimsy grounds, the 
American people will not forget the light of history.
    So today, before you give your opening statement--your 
closing statement, before you get to this time, my question is 
is will you talk to this committee? You're chairman. You hold a 
very prestigious role. Will you let us know where we're going? 
Are we going to adjourn from here after you sum up everything, 
saying that they all did good and go out from here, we're still 
wondering.
    The lights are on. It's time to answer the question.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    And I want to before my closing statement acknowledge that 
I received a letter today requesting a minority day of 
testimony under rule XI. I have not had a chance to read the 
letter, but look forward to conferring with the ranking member 
about this request after I have had a chance to review it.
    Mr. Collins. Mr. Chairman, I have a question. You can't 
review a letter. That is a demand that we have.
    Chairman Nadler. The gentleman is not recognized.
    Mr. Collins. There's nothing for you to review.
    Chairman Nadler. I now recognize myself for a closing 
statement.
    George Washington's farewell address warns of a moment when 
cunning, ambitious, and unprincipled men will be enabled to 
subvert the power of the people and to usurp for themselves the 
reins of government.
    President Trump placed his own personal and political 
interests above our national interests, above the security of 
our country, and, most importantly, above our most precious 
right, the ability of each and every one of to us participate 
in fair elections, free of corruption.
    The Constitution has a solution for a President who places 
his personal or political interests above those of the Nation: 
The power of impeachment. As one of my colleagues pointed out, 
I have in the past articulated a three-part test for 
impeachment. Let me be clear. All three parts of that test have 
been met.
    First, yes, the President has committed an impeachable 
offense. The President asked a foreign government to intervene 
in our elections, then got caught, then obstructed the 
investigators twice. Our witnesses told us in no uncertain 
terms that this conduct constitutes high crimes and 
misdemeanors, including abuse of power.
    Second, yes, the President's alleged offenses represent a 
direct threat to the constitutional order. Professor Karlan 
warned, drawing a foreign government into our election process 
is an especially serious abuse of power, because it undermines 
democracy itself. Professor Feldman echoed, if we cannot 
impeach a President who abuses his office for personal 
advantage, we no longer live in a democracy. We live in a 
monarchy or under a dictatorship.
    And Professor Gerhardt reminded us, if what we are talking 
about--if what we are talking about is not impeachable, then 
nothing is impeachable. President Trump's actions represent a 
threat to our national security and an urgent threat to the 
integrity of the next election.
    Third, yes, we should not proceed unless at least some of 
the citizens who supported the President in the last election 
are willing to come with us. A majority of this country is 
clearly prepared to impeach and remove President Trump.
    Rather than respond to the unsettling and dangerous 
evidence, my Republican colleagues have called this process 
unfair. It is not. Nor is this argument new. My colleagues on 
the other side of the aisle, unable to defend the behavior of 
the President, have used this argument before.
    First, they said that these proceedings were not 
constitutional because we did not have a floor vote. We then 
had a floor vote. Then they said that our proceedings were not 
constitutional because they could not call witnesses. 
Republicans called three of the witnesses in the live hearings 
of the Intelligence Committee and will have an opportunity to 
request witnesses in this committee as well.
    Next, they said that our proceedings were not 
constitutional because the President could not participate. But 
when the committee invited the President to participate in this 
hearing, he declined.
    The simple fact is that all these proceedings have all the 
protections afforded prior Presidents. This process follows the 
constitutional and legal precedents. So I am left to conclude 
that the only reason my colleagues rushed from one process 
complaint to the next is because there is no factual defense 
for President Trump.
    Unlike any other President before him, President Trump has 
openly rejected Congress' right as a coequal branch of 
government. He has defied our subpoenas, he has refused to 
produce any documents, and he directed his aides not to 
testify.
    President Trump has also asked a foreign government to 
intervene in our elections, and he has made clear that if left 
unchecked he will do it again. Why? Because he believes that, 
in his own words, quote, ``I can do whatever I want,'' unquote. 
That is why we must act now. In this country, the President 
cannot do whatever he wants. In this country, no one, not even 
the President, is above the law.
    Today we began our conversation where we should, with the 
text of the Constitution. We have heard clearly from our 
witnesses that the Constitution compels action. Indeed, every 
witness, including the witness selected by the Republican side, 
agreed that if President Trump did what the Intelligence 
Committee found him to have done after extensive and compelling 
witnesses from the Trump administration officials, he committed 
impeachable offenses.
    While the Republican witness may not be convinced that 
there is sufficient evidence that the President engaged in 
these acts, the American people and the majority of this 
committee disagree.
    I also think that the Republican witness, Professor Turley, 
issued a sage warning in 1998, when he was a leading advocate 
for the impeachment of Bill Clinton. He said, quote, ``if you 
decide that certain acts do not rise to impeachable offenses, 
you will expand the space for executive conduct,'' close quote.
    That was the caution of Professor Turley in 1998 in the 
impeachment of President Clinton. That caution should guide us 
all today. And by any account, that warning is infinitely more 
applicable to the abuses of power we are contemplating today, 
because, as we all know, if these abuses go unchecked, they 
will only continue and only grow worse.
    Each of us took an oath to defend the Constitution. The 
President is a continuing threat to that Constitution and to 
our democracy. I will honor my oath, and as I sit here today, 
having heard consistent, clear, and compelling evidence that 
the President has abused his power, attempted to undermine the 
constitutional role of Congress, and corrupted our elections, I 
urge my colleagues, stand behind the oath you have taken. Our 
democracy depends on it.
    This concludes today's hearing.
    Mr. Collins. Mr. Chairman, I have one thing.
    Chairman Nadler. For what purpose does the gentleman seek 
recognition?
    Mr. Collins. Thank you, Mr. Chairman.
    Pursuant to rule--pursuant to committee rule 8, I am giving 
notice of intent to file dissenting views to the committee's 
report on constitutional grounds for Presidential impeachment.
    Chairman Nadler. Noted.
    This concludes today's hearing. We thank all of our 
witnesses for participating. Without objection, all members 
will have 5 legislative days to submit additional written 
questions for----
    Mr. Collins. We have an unanimous consent request. We have 
an unanimous consent request.
    Chairman Nadler. Too late.
    Mr. Collins. Too late? It's too late for a unanimous 
consent request?
    Chairman Nadler [continuing]. The witnesses or additional 
materials for the record.
    Without objection, the hearing is adjourned.
    [Whereupon, at 6:32 p.m., the committee was adjourned.]

      


                                APPENDIX

=======================================================================
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
      
   
</pre></body></html>
